<html>
<title> - NOMINEES TO AFRICAN COUNTRIES</title>
<body><pre>[Senate Hearing 105-674]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-674


 
                     NOMINEES TO AFRICAN COUNTRIES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                     U.S. GOVERNMENT PRINTING OFFICE
 50-814 cc                  WASHINGTON : 1998
------------------------------------------------------------------------------
             For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Felder, Robert C., of Florida, nominated to be Ambassador to the 
  Republic of Benin..............................................    22
Ledesma, James Vela, of California, nominated to be Ambassador to 
  the Gabonese Republic and to serve concurrently and without 
  additional compensation as Ambassador to the Democratic 
  Republic of Sao Tome and Principe..............................     6
Melrose, Joseph H. Jr., of Pennsylvania, nominated to be 
  Ambassador to the Republic of Sierre Leone.....................     7
Mu, George, of California, nominated to be Ambassador to the 
  Republic of Cote D'Ivoire......................................     8
Perry, Robert Cephas, of Virginia, nominated to be Ambassador to 
  the Central African Republic...................................    10
Robinson, Kathryn Dee, of Tennessee, nominated to be Ambassador 
  to the Republic of Ghana.......................................    11
Staples, George McDade, of Kentucky, nominated to be Ambassador 
  to the Republic of Rwanda......................................    12
Sullivan, Joseph Gerard, of Virginia, nominated to be Ambassador 
  to the Republic of Angola......................................    25
Swing, William Lacy, of North Carolina, nominated to be 
  Ambassador to the Democratic Republic of the Congo.............    23
Yates, John Melvin, of Washington, nominated to be Ambassador to 
  the Republic of Cameroon, and to serve concurrently and without 
  additional compensation as Ambassador to Equatorial Guinea.....    13

                                Appendix

Responses of Ambassador-Designate Joseph Sullivan to written 
  questions......................................................    51
Responses of Ambassador-Designate George Staples to written 
  questions......................................................    64
Responses of Ambassador-Designate Kathryn Dee Robinson to written 
  questions......................................................    71
Responses of Ambassador-Designate Robert C. Perry to written 
  questions......................................................    79
Responses of Ambassador-Designate John M. Yates to written 
  questions......................................................    83
Responses of Ambassador-Designate James V. Ledesma to written 
  questions......................................................    87
Responses of Ambassador-Designate Joseph H. Melrose to written 
  questions......................................................    93
Responses of Ambassador-Designate George Mu to written questions.   101
Responses of Ambassador-Designate Robert C. Felder to written 
  questions......................................................   106
Responses of Ambassador-Designate William Swing to written 
  questions......................................................   114
Responses of Ambassador-Designate Joseph Sullivan to written 
  questions......................................................   128

                                 (iii)



                     NOMINEES TO AFRICAN COUNTRIES

                              ----------                              


                        THURSDAY, JULY 23, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Ashcroft 
presiding.
    Present: Senators Ashcroft, Frist and Feingold.
    Senator Ashcroft. The hearing will now come to order.
    I am delighted to have this opportunity to welcome each 
individual expressing an interest by attending this hearing, 
and also to welcome each of the Ambassadorial nominees to the 
committee: Robert Felder, Ambassador-designate to Benin; James 
Ledesma, Ambassador-designate to Gabon and other jurisdictions; 
Joseph Melrose, Ambassador-designate to Sierre Leone; George 
Mu, Ambassador-designate to Cote d'Ivoire; Robert Perry, 
Ambassador-designate to the Central African Republic; Dee 
Robinson, Ambassador-designate to Ghana; George Stapels, 
Ambassador-designate to Rwanda; Joe Sullivan, Ambassador-
designate to Angola; William Swing, Ambassador-designate to the 
Democratic Republic of the Congo; and John Yates, Ambassador-
designate to Cameroon and Equatorial Guinea.
    These individuals have been nominated for some very 
important posts in Africa. I am delighted that our President 
has seen fit to travel to Africa. I think it is very important 
that we have that kind of expression of interest regarding such 
an important continent and so many important people.
    The committee looks forward to the testimony that will be 
brought by these nominees, and to an assessment of the policies 
that you hope to implement.
    Three of the nominees in today's hearings have been 
principal participants in formulating and implementing U.S. 
policy toward Haiti. Many concerns persist about the nature of 
U.S. involvement in Haiti and exactly what type of government 
the administration sent 20,000 American troops to restore to 
power. Hopefully some of the outstanding questions about U.S. 
policy toward Haiti can be answered today as we consider these 
individuals for their next assignments in Africa.
    Once again, congratulations on your nominations. The 
committee is pleased to welcome Senator Daniel Patrick 
Moynihan, to introduce John Yates, and Senator Bill Frist, to 
introduce Dee Robinson, and Congressman Cass Ballenger, to 
introduce Joe Sullivan. I would like to call on Senator 
Feingold for opening remarks, and then we will proceed 
immediately to Senator Moynihan for his introduction.
    Senator Feingold. Thank you very much, Mr. Chairman, for 
your courtesies and for scheduling this ambitious hearing 
today, to consider 10 nominations.
    I had a chance to say hello to each of you. I congratulate 
all of you, and hope you have very successful tenures in the 
countries you are going to be at.
    I would like to also just take a minute to speak a bit 
about the current situation in Nigeria. I know that this 
country is not on today's agenda, but a number of the countries 
that we are talking about today are certainly affected by what 
goes on in Nigeria.
    Recent events in Nigeria in the past month are so important 
to the African continent that I ask for this opportunity. 
Following the death of General Sani Abacha earlier last month, 
General Abubakar was named the new head of Nigeria's military 
government. This week, General Abubakar announced that the 
military is committed to relinquishing power to a civilian 
authority and that elections for a new civilian government will 
be held in May 1999.
    He has also pledged to release political prisoners and 
institute reforms to the judiciary and prison systems, and to 
respect freedom of expression, association and assembly. I am 
pleased that General Abubakar has made these commitments to the 
people of Nigeria, and hope that the United States will proceed 
cautiously in responding to his words. The United States must 
make it clear that no sanctions against Nigeria will be lifted 
until the military government has made real progress in 
instituting basic political reforms, including a free and fair 
electorial process and peaceful transition to civilian rule.
    It is my hope that General Abubakar and his government will 
make good on their promises. I also strongly encourage the 
Nigerian Government to take this opportunity to give the 
elections a chance at legitimacy and make a truly fresh start 
in Nigeria by fostering respect for basic human rights and for 
the sincere differences of opinion among the Nigerian people.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]
                 Prepared Statement of Senator Feingold
    Mr. Chairman, thank you for scheduling this hearing today to 
consider these 10 nominations. I would like to take this opportunity to 
speak for a moment about the current situation in Nigeria. I know that 
country is not on the agenda, but recent events in Nigeria in the past 
month are so important to the African continent that I seek your 
indulgence to comment upon them briefly.
    Following the death of General Sani Abacha early last month, 
General Abubakar was named the new head of the Nigeria's military 
government. This week, General Abubakar announced that the military is 
committed to relinquishing power to a civilian authority, and that 
elections for a new civilian government will be held in May 1999. He 
has also pledged to release political prisoners and institute reforms 
to the judiciary and prison systems and to respect freedom of 
expression, association, and assembly.
    While I am pleased that General Abubakar has made these commitments 
to the people of Nigeria, I hope that the United States will proceed 
cautiously in responding to his words. The United States must make 
clear that no sanctions against Nigeria will be lifted until the 
military government has made real progress in instituting basic 
political reforms, including a free and fair electoral process and a 
peaceful transition to civilian rule.
    It is my hope that General Abubakar and his government will make 
good on their promises. I also strongly encourage the Nigerian 
government to take this opportunity to give the elections a chance at 
legitimacy and make a truly fresh start in Nigeria by fostering respect 
for basic human rights and for the sincere differences of opinion among 
the Nigerian people.
    Thank you, Mr. Chairman.

    Senator Ashcroft. Well, it is a delight to welcome the 
distinguished senior Senator from the State of New York, Daniel 
Patrick Moynihan.
    Senator Moynihan. Mr. Chairman, I wonder if respectfully 
might suggest that our colleague from the House be allowed to 
speak first.
    Senator Ashcroft. I would be very pleased to accede to the 
judgment of the distinguished senior Senator from New York.
    Congressman Cass Ballenger is here to speak in behalf of 
the nomination of Joe Sullivan.
    Mr. Ballenger. Thank you, Mr. Chairman. It really is a 
pleasure to be here, and to say a good word for an old friend 
that I have been with for quite some time.
    Joe Sullivan and I worked, when we had the cold war going 
on, in our part of the world, in Central and South America. We 
worked together in developing a peace process in Nicaragua and 
El Salvador. There was a lot of shooting going on then. So that 
was not what I would call one of the nicest jobs I have ever 
seen a fellow have. Of course, we were just discussing, the 
Senator and I, were discussing that maybe it is still even 
better than where he is going. I do not know. Angola does not 
strike me as one of the most lovable places that I have seen.
    But I think he is well qualified. He has done a wonderful 
job in helping us develop democracy in Central America. Then he 
moved on from there to Cuba, and then into Haiti.
    My wife and I actually helped get medical equipment into 
Haiti. Then he helped me; we planted about 3\1/2\ million trees 
there. One of these days, Joe, I am going to go over there and 
see if the trees are still there. The only thing that worried 
me about it is, you put them out there, and do they grow?
    But, in the meantime, I think with the country is fortunate 
to have a man of the quality of Joe Sullivan to be able to go 
to Angola. I realize that it is a very large economic 
development area for us, as far as oil is concerned.
    And, Joe, one thing you do not know--Donna and I actually 
sent a hospital to Angola sometime in the past. I do not know 
whether it is still there or not.
    But I just would like to say that we are fortunate to have 
people of the class of Joe Sullivan, who are willing to go to 
these various areas of the world and represent our country 
there. So anything I can say or do to assist along those lines, 
I would be happy to do. He is a wonderful guy.
    Senator Ashcroft. Well, I am sure I speak on behalf of the 
committee in thanking you for taking time out of your busy 
schedule to come. I am grateful for your endorsement of this 
candidate. We will take his candidacy very seriously. Thank you 
for your contribution. Now, Senator Moynihan, from the State of 
New York.
    Senator Moynihan. Mr. Chairman, Senator Feingold, Senator 
Frist, I am here to speak on behalf of John Melvin Yates, who 
is before you. But I think you have had the experience of 
meeting all of the nominees who are American Foreign Service 
Officers. We are proud of each of them. They have all had a 
proven record and they are going back to prove even more. Power 
and good fortune to them.
    John Yates is a graduate of Stanford and the Fletcher 
School of Law and Diplomacy. He is listed here as being, from 
1973 to 1975, as Special Assistant to the Ambassador, the 
American Embassy in New Delhi. I would say, within his limits, 
he kept me out of trouble and got me back. Which I think is 
more to the point.
    He is now, at this moment, Ambassador to Benin, and is 
being asked to move on to the Republic of Cameroon and to be 
Ambassador simultaneously to the Republic of Equatorial Guinea. 
So he will have those two jobs.
    He is a career officer, sir, of the highest quality, 
personal and professional. At the time of his nomination, the 
White House stated: ``Ambassador Yates is among the 
Department's most experienced African specialists. It is rare 
that a country is served so well as he has done in so many 
difficult times, and in dangerous assignments.''
    He is not alone in this company that comes before you. I 
most enthusiastically recommend his having been nominated and 
that you give your advice and consent to his nomination.
    Senator Ashcroft. Well, on behalf of the committee, I thank 
Senator Moynihan, Representative Ballenger. It is now my 
pleasure to call upon Senator Bill Frist, the Senator from 
Tennessee. Thank you very much.
    And you may each be excused. I have heard Senator Frist 
speak before, myself. I am pleased at this time to call upon 
him to speak in behalf of Dee Robinson.
    Senator Frist. Thank you. Mr. Chairman, I will speak from 
here rather than the floor, since I am a member of the 
committee.
    I am privileged to present to the committee for approval a 
fellow Tennessean and the President's nominee to be our next 
Ambassador to the Republic of Ghana. Kathryn Dee Robinson, or 
Dee as her family and friends know her, has a truly exemplary 
and impressive record as a Senior Foreign Service Officer. 
Since entering the Foreign Service in 1975, Dee has 
consistently and without pause served in increasingly critical 
diplomatic postings in Washington and throughout Asia, most 
recently as our Consul General in our Embassy in Korea, and 
before that in senior posts in Indonesia, China and India.
    She is fluent in Mandarin Chinese, Indonesian and French. 
This record is much more than a career path. It is a superb 
illustration of a commitment to the service of her country. 
That type of service to our country is a tradition that we back 
in Tennessee hold very dear--that tradition, be it military, 
public service here at home or in the Foreign Service.
    American ambassador to Ghana is the first posting in Africa 
to which Dee has been recommended. I understand that she is 
very much looking forward to the challenges this assignment 
will represent. Indeed, Mr. Chairman, as we both know, Africa 
has consistently posed enormous challenges to the United States 
foreign policy overall. Many of these challenges are 
humanitarian, as we are now facing with alarming urgency in 
Sudan.
    Many of these challenges are economic, where crumbling 
infrastructures and crumbling economies have left the American 
business community with an overly generalized but poor view of 
any potential benefits. Many are political problems, where cold 
war divisions, corruption and a myriad of other challenges have 
left relations with these young, troubled countries 
inconsistent, rocky and sometimes ineffectual.
    Even with this sort of characterization which we too often 
hear in Washington, Africa presents exceptional opportunities 
for the United States economically, politically and culturally. 
As the President's recent trip to Africa shows, to take 
advantage of these opportunities, time really is of the 
essence. Ghana has been a leader among African nations in many 
respects. It was the first European colony in Africa to achieve 
independence. It is now one of the leaders in political and 
economic reform that is seeing many encouraging signs of growth 
across the continent.
    It is also a key player in a relative island of stability 
in a tumultuous West Africa, influential well beyond its size. 
As the fate of entire nations in the region hand in the 
balance, that quality cannot be discounted, nor can we forget 
that Ghana will play a critical role in U.S. policy goals in 
the region as a consequence.
    With all of these factors in mind you begin to see the 
importance of our official presence there. Noting that 
importance, it is encouraging that the President has chosen to 
honor the U.S. commitments to Ghana made during his recent 
visit there by nominating such an outstanding candidate to be 
our highest ranking diplomat. The President has thus shown a 
great deal of confidence in Dee, and I want to echo my own 
confidence in her abilities and her commitment to our Nation 
while there.
    Mr. Chairman, I would ask that the committee would 
expeditiously approve this nomination and send it to the full 
Senate with the high recommendations it deserves.
    Thank you, Mr. Chairman.
    Senator Ashcroft. Thank you, Dr. Frist. I appreciate the 
excellent remarks, and especially the way in which you have 
emphasized the importance of the Nation of Ghana.
    It is my pleasure now to call on the first panel, to be 
comprised of James Ledesma, and I indicated that he was the 
Ambassador-designate to Gabon and I did not mention Sao Tome 
and Principe. As well as Mr. Ledesma, Joseph Melrose, George 
Mu, Robert Perry, Dee Robinson, George Staples, and John Yates. 
Would you all please come forward for participation in the 
first panel.
    I am going to indicate to you now that we will not question 
each of you after you have spoken. We will ask all of you to 
give you initial remarks, and then we would return to you to 
ask any questions that occur to us regarding your nominations.
    Mr. Ledesma, if you would please begin. Please keep your 
opening statements to a minimum in length, and then we will 
have time, after those fellows of yours who are similarly 
situationed, would have an opportunity to speak. Mr. Ledesma.

STATEMENT OF JAMES VELA LEDESMA, OF CALIFORNIA, NOMINATED TO BE 
 AMBASSADOR TO THE GABONESE REPUBLIC AND TO SERVE CONCURRENTLY 
   AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR TO THE 
          DEMOCRATIC REPUBLIC OF SAO TOME AND PRINCIPE

    Mr. Ledesma.  Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, I am honored to 
appear before you today as the President's nominee to be the 
next American ambassador to the Gabonese Republic and to the 
Republic of Sao Tome and Principe. If confirmed by the Senate, 
I look forward to working with the committee and others in 
Congress to advance the interests of United States in Gabon and 
Sao Tome and Principe.
    Gabon is an island of stability in a very turbulent region. 
While it is blessed with a wealth of natural resources, 
including of course petroleum, it is a small country with 
barely 1.3 million inhabitants. Despite its relative small 
size, the country's leadership is active in resolving conflicts 
in such places as the Central African Republic and Congo-
Brazzaville, for example. Resolving conflicts such as these is 
at the forefront of American objectives in Africa. Keeping 
Gabon engaged in regional mediation and peacekeeping serves our 
interests in helping to prevent conflicts that may ultimately 
require huge emergency humanitarian efforts later.
    At the same time, Gabon's relative wealth makes it an 
interesting military for American products and services. 
American companies are increasingly involved in the petroleum 
sector, where technology developed by them is helping to 
maintain a steady supply of oil to the United States. About 
half of Gabon's yearly exports of oil go to the United States. 
Our major economic priorities in Gabon will continue to be 
assuring open markets, progress in economic reform, and 
reducing impediments to foreign investment.
    Advancing democracy and human rights is at the top of the 
American agenda in Africa and elsewhere. In Gabon, the United 
States will continue to support positive democratic trends and 
urge the government to pursue transparency in the electoral 
process. Presidential elections scheduled for December will be 
a test of Gabon's determination to carry out free and fair 
elections. For its part, the United States will support the 
democratic process by placing election observers in the field. 
Our efforts will likely be supplemented by the Canadians and 
the European Union.
    If confirmed, I will also be accredited to the island 
country of Sao Tome and Principe. The American presence there 
is symbolized by a $50 million Voice of America transmitter 
site. Interestingly, that makes the United States the biggest 
foreign employer in that small country. It is in the interest 
of the United States to preserve that resource and help to 
maintain a hospitable political and economic environment.
    Finally, Mr. Chairman, let me say that I am deeply honored 
to be considered for the position of American ambassador to the 
Gabonese Republic and to the Republic of Sao Tome and Principe. 
If confirmed, I will bring with me the experience of 26 years 
in the Foreign Service, and represent overseas America's own 
cultural diversity. I was most recently Deputy Chief of Mission 
in Dakar, Senegal, and in Accra, Ghana, before that.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to address you and to respond to any questions 
you may have.
    Senator Ashcroft. Thank you, Mr. Ledesma.
    I would like for you to take the opportunity now, if you 
care to, to introduce any of your family members or individuals 
who have come as your guests to the hearing. Then, prior to the 
remarks of anyone else, I would welcome you to do the same--
others to do the same. I do not want you to do that for them.
    Mr. Ledesma.  Thank you very much, Mr. Chairman. By all 
means, I would like to introduce my wife, Francine Bernard 
Ledesma, and my daughter, Delphine. I would also like to 
introduce very close friends, Professor Ralph Norville, and his 
wife Joel, sitting in the back. Then another close friend, Mr. 
John Garrett, who is also in the back as well.
    Senator Ashcroft. Thank you very much.
    Mr. Melrose, we would be very pleased to hear from you. I 
have asked them to run the clock so that there is a total of 4 
minutes allotted for your speaking. If you go over that 
modestly, you will probably still be confirmed. But please take 
time to introduce those who have accompanied you to the 
hearing.

STATEMENT OF JOSEPH H. MELROSE, JR., OF PENNSYLVANIA, NOMINATED 
        TO BE AMBASSADOR TO THE REPUBLIC OF SIERRE LEONE

    Mr. Melrose. Thank you, Mr. Chairman.
    Unfortunately, my son was unable to get back for the 
hearings, because he is continuing some independent study in 
Africa. But several colleagues from the State Department and 
the Department of Education did come, Ms. Liza McClanahan, Ms. 
Beverley Coney, and Mrs. Marsha Pixley.
    Mr. Chairman, I will try to speak rapidly to cover the 4 
minutes.
    Distinguished members of the subcommittee, I am honored to 
be here today before you as the nominee of President Clinton to 
be the next Ambassador to Sierre Leone. I believe that my 
career with the Department of State and my international 
experiences have thoroughly prepared me for this assignment.
    Sierre Leone is a West African country, slightly smaller 
than South Carolina, with a population of 4.5 million people. 
Our historical ties with Sierre Leone date back to 1527, when 
the first slaves in North America were brought from Sierre 
Leone to the Sea Islands of South Carolina and Georgia. A 
former British colony, Sierre Leone has been a steadfast friend 
of the United States. Its sons fought alongside allied forces 
in both World Wars, and continuing that tradition and 
responding to our request, Sierre Leone sent a contingent to 
participate in Operation Desert Storm. There is also a large 
Sierre Leonean-American population.
    The United States has important interests in Sierre Leone. 
Prior to May 1997, significant steps toward democracy, 
including the free and fair election of President Ahmad Tejan 
Kabbah, had been taken in Sierre Leone. However, in May 1997, a 
military junta temporarily seized power. President Kabbah was 
eventually restored to office, but the struggle against the 
rebels continues. Remnants of the Armed Forces Revolutionary 
Council and Revolutionary United Front junta continue to commit 
terrible human rights violations and atrocities against the 
population of Sierre Leone. Refugees also have been fleeing the 
crisis, and represent one of the worst violations of human 
rights on the continent.
    The United States and the world community have recognized 
the moral imperative in responding to the humanitarian 
situation. The United States has provided over $50 million in 
humanitarian assistance during this fiscal year. We are 
increasing our emergency assistance to meets needs caused by 
the junta's terror. As part of this assistance, the Department 
of Defense has airlifted urgently needed medical supplies to 
treat mutilation victims of rebel atrocities. President Clinton 
recently approved the drawdown of emergency refugee and 
migration assistance funds to enable us to continue to care for 
the new refugees and other displaced persons.
    Second, we have an interest in promoting West African 
regional security. The trouble in Sierre Leone threatens Guinea 
as well as the peace and stability in Liberia.
    The ultimate goal of the United States and other 
international actors is the stability and security of Sierre 
Leone and the West African region. Such an environment will 
promote democracy and cooperation. The benefits of a stable 
Sierre Leone are also tangible in terms of a $149 million 
export market, as estimated in 1994, and direct U.S. investment 
in raw mineral resources. Sierre Leone has one of the world's 
largest and highest quality deposits of rutile, a titanium ore. 
The American-owned Sierra Rutile Limited represents the largest 
non-petroleum U.S. investment in West Africa.
    If confirmed, I will do my utmost to serve and promote 
United States interests in Sierre Leone. In the 29 years that I 
have been a career member of the Foreign Service, I have had 
broad experience, both in Washington and overseas. I was 
involved with the establishment of the Multinational Force and 
Observers in the Sinai Peninsula and served as Executive 
Secretary of the U.S. Delegation to the Conference on 
Disarmament in Europe.
    In addition, I was the Executive Director of the Near East 
and South Asian Bureau at the State Department in 1986, and 
worked for several years in the Office of the Under Secretary 
for Management. From 1995 until last week, I was the Deputy 
Chief of Mission at the U.S. Embassy in Lagos, Nigeria, one of 
our largest posts in Africa. I believe that these assignments 
have prepared me well for the position of Chief of Mission in 
Sierre Leone, and I look forward to working with the Senate in 
the future.
    Thank you very much.
    Senator Ashcroft. Thank you very much, Mr. Melrose.
    We will now turn to George Mu, of California, to be 
Ambassador to the Republic of Cote d'Ivoire, for his remarks. 
Mr. Mu.

    STATEMENT OF GEORGE MU, OF CALIFORNIA, NOMINATED TO BE 
          AMBASSADOR TO THE REPUBLIC OF COTE D'IVOIRE

    Mr. Mu. Thank you.
    I would like to first introduce my wife, Winnie Mu, who is 
here with me today; a friend and actually my French tutor, Jeff 
Lang; the State Department Desk Officer who helped me prepare 
for this testimony, Brian Hunt; and to my contingent of 
colleagues at the Department of Commerce, Keith Curtis, Terry 
Cook, Rebecca Mann, Rob Shipley, and others who came today.
    Mr. Chairman and members of the committee, I am honored to 
appear before you today and to have been nominated by the 
President and Secretary Albright as the U.S. Ambassador to the 
Republic of Cote d'Ivoire. I am especially honored to be the 
first Foreign Commercial Service Officer from the Department of 
Commerce nominated to be Ambassador.
    In my over 25 years in the Foreign Service, I have had the 
opportunity to serve in various East Asian postings during 
Asia's remarkable transition into a successful competitor in 
the global marketplace. It is therefore appropriate that, if 
confirmed, I will have an opportunity to work in a West African 
country which has the potential to emulate the Asian Tigers' 
success. I hope to assist Cote d'Ivoire in achieving this goal 
while ensuring that American business has full access in its 
emerging market.
    My most recent assignments as Minister Consular for 
Commercial Affairs in Brussels, Tokyo and Ottawa have enabled 
me to work with key partners to ensure fair access for American 
business. In addition, they have required me to manage 
significant but diminishing resources in carrying out our 
responsibilities. In these days of shrinking resources and 
increased responsibilities across the Federal Government, I 
believe such experience is extremely useful for our Chief of 
Mission.
    If confirmed, I will be going to Cote d'Ivoire at a very 
interesting period. Cote d'Ivoire appears serious about private 
sector- and foreign investment-led growth. American business 
has shown increased interest, and additional direct investments 
is possible, especially if regional economic integration moves 
forward. As Chief of Mission, I will consider it one of my 
primary duties to ensure that American business and investors 
receive treatment equal to that of all other nationalities.
    Politically, Cote d'Ivoire has many challenges ahead of it. 
While its democratic transition has moved forward, preparations 
and conduct of the 2000 Presidential elections remain a key 
benchmark. Human rights is important in our bilateral 
relations, and I will encourage the Ivorian Government to 
continue to address outstanding issues, especially in regards 
to police treatment of suspects and the rights of women.
    In closing, allow me to express my thanks to my colleagues 
at the Department of Commerce, and especially to Secretary 
Daley and the late Secretary Ron Brown, for the help and 
support which they have given me throughout my career as a 
Foreign Commercial Service Officer. I wish to assure the 
members of the committee that, if confirmed, I would discharge 
my office as Ambassador to the Republic of Cote d'Ivoire in a 
manner consistent with the trust which they and the President 
have placed in me.
    Senator Ashcroft. Thank you very much.
    And now we will turn to Mr. Robert Perry, of Virginia, who 
has been nominated to be Ambassador to the Central African 
Republic.

STATEMENT OF ROBERT CEPHAS PERRY, OF VIRGINIA, NOMINATED TO BE 
           AMBASSADOR TO THE CENTRAL AFRICAN REPUBLIC

    Mr. Perry. Senator, thank you very much.
    My wife, Blossom, who is also a Foreign Service Officer, 
could not be here with us today because she is on home leave in 
Hawaii with our children, who are university students there. 
But I do have with me my brother, Chatry Perry, my cousin, 
Phyllis Dogan, and the Desk Officer from the Central African 
Republic, Deborah, O'Dell.
    Mr. Chairman and members of the committee, I am honored to 
appear before you today as President Clinton's nominee to be 
the Ambassador of the United States to the Central African 
Republic. I am deeply grateful to the President and Secretary 
Albright for the trust and confidence they have shown in me by 
this nomination.
    Mr. Chairman, Senator, the Central African Republic is a 
small, underdeveloped country. Recently, political instability 
and violence drove thousands of people from their homes in the 
capital city of Bangui, and brought the country's fragile 
economy to a standstill for over a year. The CAR's leaders and 
its international friends are working together to restore order 
and build respect for democratic practices. It is in the U.S. 
national interest to promote democracy and economic development 
in Africa. The Central African Republic looks to the United 
States to exercise leadership in resolving conflicts and 
establishing the parameters for peace and development. The 
United States also serves as an example for people of many 
nations seeking to build democracies which respect human rights 
and include their citizens in the political process.
    While our economic ties to the Central African Republic are 
limited, its gold and diamond reserves could provide 
opportunities for American partners. Further, it has a wealth 
of irreplaceable fauna and flora in its still largely untouched 
forests. There is also a small resident American community 
there which it is our responsibility to protect.
    Mr. Chairman, if confirmed by the Senate, I look forward to 
working with members of this committee to ensure that U.S. 
objectives are pursued efficiently and wisely. I believe that 
my broad experience in the Foreign Service, which includes 
Vietnam, Chile, Ethiopia, Mexico, and as Deputy Chief of 
Mission in Mauritius and Bolivia, have prepared me for the 
challenges of conflict resolution and nation building in the 
Central African Republic. My experience with the U.S. military 
at the National War College, and my visit to Fort Polk, 
Louisiana, to see our training for peacekeeping operations 
there, have given me a sense of what we can reasonably expect 
from such operations. I look forward to working with you, the 
international community and the Government of the Central 
African Republic as that nation moves forward.
    Thank you, Mr. Chairman, Senator and members of the 
committee, for your consideration. I will be pleased to respond 
to any questions that you may have.
    Senator Ashcroft. Thank you very much, Mr. Perry.
    Now, we will hear from Dee Robinson, of Tennessee, who has 
been nominated to be Ambassador to the Republic of Ghana.

 STATEMENT OF KATHRYN DEE ROBINSON, OF TENNESSEE, NOMINATED TO 
             BE AMBASSADOR TO THE REPUBLIC OF GHANA

    Ms. Robinson. Thank you, Senator.
    Before presenting my statement, I would like to introduce 
three persons attending the hearing today. First of all is my 
mother, Kathryn Robinson, who has come in from Tennessee this 
morning, my sister, Elaine Robinson, and the State Department's 
Ghana Desk Officer, Peter O'Donohue.
    Mr. Chairman and members of the committee, I am honored and 
pleased to appear before the committee today and to have been 
nominated by President Clinton and Secretary Albright to be the 
next United States Ambassador to the Republic of Ghana.
    During my Foreign Service career, I have served in a 
variety of positions in Asia and in Washington. My most recent 
assignment was as Minister Consular for Consular Affairs at our 
Embassy in Seoul, Korea. That and earlier consular assignments 
taught me the importance of providing U.S. citizens abroad the 
assistance and good service they have the right to expect from 
their government, and the priority that must be given to 
managing U.S. resources efficiently. In other assignments, I 
helped U.S. companies promote their goods and services 
overseas, worked to advance U.S. political/military objectives 
abroad, and dealt with the challenges that transition to a 
democratic and open economic system pose for developing 
nations. I also was privileged to spend a year working on 
international trade and foreign affairs issues as a 
congressional fellow. If confirmed to be our Ambassador in 
Accra, I will use the knowledge and experience I acquired in 
these assignments to advance U.S. interests and our relations 
with Ghana.
    Relations between the United States and Ghana are excellent 
and, in the wake of President Clinton's visit to Accra last 
March, are expected to grow even stronger. The positive nature 
of U.S.-Ghanian relations is underpinned by a long tradition of 
cultural, scholarly and commercial exchanges between the two 
countries. The many African Americans who can trace their 
family origins to Ghana and the thousands of Ghanaians who have 
studied in the United States have helped form strong bonds that 
facilitate cooperation on both official and unofficial levels. 
The U.S. Peace Corps' first overseas mission was established in 
Ghana in 1961. Today, current as well as former Peace Corps 
volunteers to Ghana are actively engaged in helping Ghanaians 
in an array of areas that serve the interest of both countries.
    Trade links between Ghana and the United States have grown 
steadily since Ghana began its transition to a market-oriented 
economy in the early 1980's. Bilateral trade has expanded over 
300 percent in the past 5 years, and Ghana is now our third 
largest export military in Sub-Saharan Africa. If confirmed as 
Ambassador, I pledge to continue to make promotion of U.S. 
trade interests in Ghana a top priority.
    After a long and difficult period as a unitary, one-party 
state, Ghana, in the 1990's, has emerged as a nascent 
democratic state that serves as a role model for other 
countries in the region. The Ghanaian Presidential and 
legislative elections held in late 1996 were described as free 
and transparent by both domestic and international observers. 
Ghana's human rights record is very good. In the few areas 
where we have concerns, we have constructive dialog on both 
official and unofficial levels.
    A respected participant in peacekeeping operations around 
the world since 1960, Ghana has long been active in West 
African regional affairs. Its peacekeeping forces played a 
crucial role in ending the civil war in Liberia, and Ghanaian 
diplomatic efforts helped restore the democratically elected 
government in Sierre Leone. Ghana is now among the countries 
cooperating with the United States to increase African 
peacekeeping capabilities through the African Crisis Response 
Initiative.
    I would like to end my statement by thanking you, Mr. 
Chairman and members of the committee, for your consideration. 
I am keenly aware of the important responsibilities I will 
assume, if confirmed as Ambassador, and pledge to carry them 
out in a manner that serves U.S. interests and reflects well on 
our Nation and our government.
    Thank you.
    Senator Ashcroft. Thank you very much for your 
presentation.
    It is my pleasure now to call upon George Staples.
    Mr. Staples, please favor us with your remarks, and 
introduce those who have come to accompany you today.

 STATEMENT OF GEORGE MCDADE STAPLES, OF KENTUCKY, NOMINATED TO 
            BE AMBASSADOR TO THE REPUBLIC OF RWANDA

    Mr. Staples. Thank you very much, Mr. Chairman.
    Unfortunately, my wife, Jo Ann, and our daughter, 
Katherine, are not able to be here today. We just returned from 
the Middle East. My last assignment was in Manama, Bahrain, as 
the Deputy Chief of Mission. So they are setting up our house 
in Kentucky.
    But I have had wonderful support in preparing for this 
event today from our Desk Officer, Eva Rogers, who is sitting 
in the back, and I would like to recognize her.
    Senator Ashcroft. You my proceed.
    Mr. Staples. Thank you.
    Mr. Chairman, members of the committee, it is an honor for 
me to come before you today. I am grateful for the confidence 
the President and the Secretary of State have placed in me, 
nominating me to be Ambassador to the Republic of Rwanda.
    If confirmed, I will work closely with the administration 
and Congress to promote American values and interests in our 
relationship with the Government and people of Rwanda, and to 
encourage the Rwandese people to live together peacefully and 
rebuild a united nation. This effort will directly support our 
regional goals of conflict prevention, promotion of internal 
stability, and economic development.
    Rwanda today is engaged in a national effort to overcome 
the effects of the terrible tragedy of the 1994 genocide. 
Problems of poverty, refugee resettlement and reconciliation 
between perpetrators and victims of the genocide remain a 
continuing challenge for not only Rwanda but the international 
community as well. The insurgency in the Northwest, in which 
the perpetrators of the genocide continue to slaughter innocent 
victims, continues to fan the fires of ethnic mistrust and 
suspicion.
    Advancing our interests in this environment requires our 
commitment to help Rwanda achieve the economic and political 
stability necessary to create a society characterized by mutual 
respect and cooperation rather than terror. We will work 
closely with the Government of Rwanda to achieve these goals, 
which complement and support our determination to promote 
respect for human rights and the advancement of democracy.
    On a personal note, I feel very fortunate to have the 
opportunity to serve in a challenging post like Rwanda. My 
career seems to have always revolved around challenging issues, 
from El Salvador during the early eighties, Uruguay's 
transition to democracy, and most recently in Bahrain, where 
Iraq continues to threaten our interests in the Persian Gulf. 
Having also served in two African posts earlier in my career, I 
am confident the knowledge and skills I have gained from my 
previous positions will help in my task of promoting U.S. goals 
and objectives in Rwanda.
    I look forward, if confirmed, to maintaining close contact 
with the Congress on issues of concern regarding Rwanda. My 
wife, Jo Ann, joins me in hoping that you and other members 
will have the opportunity to visit us.
    Thank you.
    Senator Ashcroft. Thank you very much, Mr. Staple. I 
appreciate your presentation to the committee.
    And now, before we go to questions, the Honorable John 
Yates.
    Mr. Yates, if you would please favor us with your remarks 
and any introductions you would care to make.

STATEMENT OF JOHN MELVIN YATES, OF WASHINGTON, NOMINATED TO BE 
     AMBASSADOR TO THE REPUBLIC OF CAMEROON, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
                      TO EQUATORIAL GUINEA

    Ambassador Yates. Thank you, Mr. Chairman.
    As my wife is also a career member of the Senior Foreign 
Service, now assigned to Paris, she is unable to be here today. 
But I do wish to acknowledge her sister, Patricia Fabricante, 
and my niece, Heather Fabricante, who are present, as well as a 
friend of longstanding, Jeannie Bergston, who are in the back.
    Mr. Chairman and distinguished members of the committee, it 
is a pleasure to appear before this committee again. I am 
honored to be the President's nominee to represent the United 
States as Ambassador to the Republics of Cameroon and 
Equatorial Guinea, and gratified by Secretary Albright's 
confidence in me. If confirmed, I look forward to working 
closely with the members of this committee and other 
representatives of the legislative branch in fulfilling my 
affairs in Cameroon and Equatorial Guinea.
    I would also like to thank Senator Moynihan for his kind 
remarks. As the members of the committee may well appreciate, 
serving as a staff aide to Senator Moynihan was among my more 
challenging Foreign Service jobs.
    Mr. Chairman, I believe I am well prepared for the position 
for which I am being considered. Some 25 of my more than 34 
years in the State Department have been dealing with African 
affairs on the continent and in Washington. For the past 3 
years, I have been Ambassador to Benin, which is one of the 
happier stories of applied democratic and economic liberalism 
on the continent. Prior to that, I spent almost 5 years, first 
as Deputy Chief of Mission and then as Charge d'Affaires, in 
Zaire. I have also been Ambassador to the Republic of Cape 
Verde, and Deputy Chief of Mission in Nigeria and Gabon. 
Assignments in Mali, Malawi and Algiers balance out this 
experience in Africa. My five children were all born abroad, 
and one continues to live and work in Africa.
    Mr. Chairman, Cameroon is often described as Africa in 
miniature for its geographic, ethnic, religious, climatic, 
cultural, and linguistic diversity. Self-sufficient in food and 
boasting a wide range of natural resources, Cameroon was once 
among the richest countries in Africa, and has a potential to 
regain that distinction. It has begun to recover from a decade 
of economic stagnation brought about by a combination of poor 
economic policies and declining commodity prices. It has 
already made many of the most painful economic policy reforms, 
and its prospects are good. Its prospects would be infinitely 
better if commensurate political reforms were instituted. If 
confirmed as Ambassador, one of my primary objectives would be 
to seek further political reforms and greater respect for human 
rights.
    Equatorial Guinea has enjoyed dramatic economic growth in 
recent years thanks to the discovery of oil there by U.S. 
companies. These companies have invested over a billion dollars 
in Equatorial Guinea in the last couple of years, and they plan 
to invest substantially more in the near future. If confirmed 
as Ambassador, I will seek to ensure that our growing interests 
in Equatorial Guinea are adequately represented. I will also 
urge the Government of Equatorial Guinea to use its oil revenue 
wisely, to open the political system, and to enhance respect 
for human rights and the rule of law. These measures will lead 
to greater freedom and prosperity for the Equatorial Guinean 
people, as well as an improved business climate for U.S. 
investors.
    Thank you again for allowing me to appear before the 
committee. I would welcome the opportunity to answer any 
questions the members of the committee may have.
    Senator Ashcroft. I want to thank all the members of the 
panel for their presentations. I would now begin the 
questioning by calling on Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    In the interest of time, I am going to ask Mr. Staples one 
specific question with regard to Rwanda, and then ask everybody 
the same question on another matter. But I do not want this 
interpreted as not understanding that each of these countries 
is very important, and our relationship to each of these 
countries is important, and each of them raises some very 
interesting questions.
    Let me begin, Mr. Staples, by talking to you about the fact 
that the U.S. is sending out an assessment team to look into 
providing security assistance to the Rwandan military. I 
believe it is being deployed next week. This team may be 
considering the provision of lethal aid to the Rwandan 
Patriotic Army.
    What is your view on the security relationship between U.S. 
and Rwanda? Do you support the provision of lethal aid? Should 
there be conditions? What conditions would you recommend 
placing on this? And, finally, would you recommend instituting 
a system for monitoring the beneficiaries of U.S. military 
assistance as well as some kind of a vetting procedure to 
determine eligibility for training?
    If that is too much at once, I will repeat it.
    Mr. Staples. That is OK, Senator. I think I have got 
certainly the gist, and the substance as well.
    I can only say to you that our relationship, first of all, 
with the military, as with the Government in Rwanda, is 
excellent. The military there, as you know, is heavily engaged 
in trying to ensure security for the country. The main reason 
for the assessment team is to see what we can do to assist in 
helping them to stamp out this insurgent activity. You can call 
it resurgent genocide, if you will--it is still going on in the 
Northwest of the country, where the former members of the 
previous government's military and ex-militia members are still 
attacking innocent people and killing them.
    The military of Rwanda needs assistance. The team has to go 
out and determine, really, what it is going to be.
    I cannot say at this time that it would be lethal aid. As 
you know, up to now, we have provided de-mining assistance, and 
we have worked with them on civil affairs issues. We are 
continuing to provide assistance that they have requested on 
military justice matters. But when the team comes back, we will 
have to see just what is recommended, and go from there.
    As far as monitoring the assistance that we do provide to 
governments in terms of military aid, that goes on all the time 
everywhere in the world, with every country that we provide 
assistance to. We will certainly continue that with whatever we 
provide to the Rwandans.
    Senator Feingold. Well, I would hope that that would be a 
serious consideration, making sure there is in fact a system 
for monitoring who benefits from our U.S. military training. I 
understand you did not take a definite position with regard to 
the lethal aid, but I would simply indicate that I would be 
somewhat skeptical of providing that.
    I thank you, and I wish you well.
    Mr. Staples. Thank you very much, Senator.
    Senator Feingold. Now, what I would like to do, Mr. 
Chairman, is just pose this same question to each of the 
nominees. This is an opportunity, in light of having so many 
nominees, to sort of compare answers. As you know, the 
committee recently approved an OECD convention to combat 
bribery of foreign public officials, which will serve to 
strengthen laws against bribery in more than 30 mostly 
developed countries.
    According to recent testimony by Under Secretary Stuart 
Eisenstadt, it has been more difficult to move the OAU, the 
Organization of African Unity, to enact a similar multilateral 
effort. Just briefly discuss for me the effectiveness of the 
efforts of your prospective host country governments to combat 
corruption. To what degree is corruption a hindrance to greater 
involvement by the U.S. private sector? And what do you think 
you can do as an ambassador to assist us in combatting this 
problem?
    And let us start with Mr. Yates.
    Ambassador Yates. Thank you, Senator.
    I would like to say that currently I am in Benin. In fact 
we have had former World Bank President McNamara there, and we 
work very closely with the Beninese Government on this issue of 
corruption, and we were able to institute several provisions 
for the awarding of international contracts to help protect 
against it.
    In Cameroon, which I know much less well so far, I 
understand that in fact in the past corruption has been a 
problem and that with the World Bank and with our own urging, 
in the last 2 years, several reform measures have been 
undertaken. I think there is much more to be done. I cannot 
speak very much more to the Cameroon condition because I have 
not quite been there yet.
    Senator Feingold. Thank you.
    Ms. Robinson?
    Ms. Robinson. Senator, corruption is a problem in Ghana. I 
think it is most pervasive in the public sector, but it also 
permeates the private sector. It is also something that we and 
the international business community point out frequently to 
the Ghanaian authorities is a serious disincentive to 
investment in Ghana. This is an issue that the Embassy in Accra 
engaged the Ghanaian authorities as well as private sector 
entities in Ghana on a regular basis. If I am confirmed, we 
will continue to do so.
    Senator Feingold. Mr. Ledesma?
    Mr. Ledesma.  Senator, indeed, corruption does exist in 
Gabon and, no doubt, in Sao Tome and Principe as well. 
Certainly the OECD Convention and the U.S. legislation which 
very much inspired those discussions, have gone a long way, I 
think, in setting the record down and setting a standard that 
others can live by. So that is something that is enormously 
helpful to us in the field in pursuing and combatting 
corruption, which takes away so many resources that are very 
valuable and that are needed for development processes that are 
going on there.
    I would certainly, as Ambassador there, pursue the subject. 
There are democracy funds that are available for us, for 
example, to provide assistance to civil society groups that 
would speak out on these issues. I would pursue that.
    I would also pursue the limited funds available to us 
through the U.S. Information Agency, in international visitor 
grants, for example, to identify individuals who are prominent 
in business and in the economy, and to provide them with an 
experience in the United States, so they could see how business 
is done here, to help bring up the standards of comportment in 
the business area.
    Those are just some of the things that I would do if I were 
there.
    Senator Feingold. Thank you very much.
    Mr. Melrose?
    Mr. Melrose. There is no question that corruption has 
assisted with the problems in Sierre Leone--the trading of 
diamonds for weapons and other activities has taken place over 
the past recent period of time. Unfortunately, as you know, our 
Embassy has been closed for almost a year. It recently opened 
last month on a very limited basis. So our ability to influence 
or report on this has not been present.
    Going back to your opening statement, Senator Feingold, one 
of the things I am hopeful for, in terms of the continent of 
Africa as a whole, is the recent release of General Olsegan 
Abasanjo, who is one of the leading lights in the founding of 
Transparency International and the African Leadership Forum, 
which has been and continued--although to a limited extent, 
during his incarceration--to be one of the groups that has 
spoken out against corruption in Africa in general. Hopefully 
he will resume his position on the Transparency Council and can 
continue his efforts.
    Thank you.
    Senator Feingold. Mr. Mu?
    Mr. Mu. Yes, Mr. Senator. If I could, the commercial 
interests and commercial practices in the country of Cote 
d'Ivoire is very, very important to American business and the 
government in promoting economic development in West Africa. In 
fact, 2 weeks ago, or about 2 weeks ago, when Secretary Rubin 
visited there Abujon, he signed the OPIC agreement, extending 
insurance guarantees for American investments in that area. He 
talked about things that needed to be done to consummate the 
bilateral tax treaty, the bilateral investment agreement with 
that country.
    In short, these are components that would make the 
environment for investment and doing business in the Ivory 
Coast a lot more attractive to American businessmen. A subject 
that he also covered was the subject that you raised. There is 
no doubt that more needs to be done in this area. My colleague 
just mentioned the word ``transparency.'' This is something 
that our Embassy, and all elements of our Embassy, work at 
constantly, in trying to put more transparency in the economic 
system. Doing away with corruption, or diminishing corruption 
to nothing, is certainly one of the things we do and one I 
intend to continue to do if I am confirmed as Ambassador there.
    Thank you.
    Senator Feingold. Thank you.
    Mr. Perry?
    Mr. Perry. Senator, thank you very much.
    I think the Central African Republic has paid the price for 
corrupt public practices. Because that was one of the factors 
that led to mutinies on the part of the armed forces. Because 
they had not been paid for several months, they paid a price 
for that.
    Now, the Central African Republic is under an IMF 
stabilization agreement. One of the conditions of that is that 
they pay public servants, both civilian and military, current 
salaries and also try to make up for arrears. They are paid up 
on current salaries since January and are still in the process 
of trying to address arrearages on salaries from the past.
    Another positive sign is their decision to privatize some 
of the state-owned companies, both telecommunications and 
petrochemicals--the petroleum sector. I think that is positive, 
because government-owned corporations are frequently the source 
of corruption. If they are put in the private sector, I think 
it will be to the benefit both in terms of efficiency of 
operation as well as the use of revenues.
    I think I could also draw upon my experience in Bolivia, 
where they had a program called Popular Participation, which 
decentralized central government authority down to the village 
level, the municipal level, and set up committees to see how 
mayors were using the funds. It more or less made elected 
officials accountable to the people. I think that is a 
principle that can be applied usefully in any country. 
Hopefully that is something I can at least call to the 
attention of authorities there, that they might learn from. 
Because Bolivia is also at a comparable level of development to 
the Central African Republic, and they have worked through 
their problems.
    Senator Feingold. Thank you very much.
    And, Mr. Staples?
    Mr. Staples. On Rwanda, I am not really in a position to 
say a great deal at this time. Certainly the previous 
government, which promulgated the genocide, had serious 
allegations of corruption lodged against it. The new government 
has been involved in trying to just basically reconstitute the 
country.
    And in a land where so many trained professionals were 
murdered or fled, trying to find competent people, trying to 
reconstitute ministries, trying to get the government up and 
running again, and running effectively, has been a big 
challenge. The country has depended a great deal on aid and 
assistance. Just last month, it signed an agreement with the 
IMF. I would believe that the aid donors, the international 
donors, would have in place certain controls and a watchdog 
function to watch how their moneys were being spent.
    Certainly it bears watching regardless of the size of the 
country or its economic capacities. That is something that I 
will certainly keep an eye on.
    Senator Feingold. I want to thank all of you. I just would 
ask you to encourage the governments of each of these countries 
to understand the OECD effort and to see if they would look 
into the appropriateness of joining that effort.
    Thanks, Mr. Chairman.
    Senator Ashcroft. Thank you, Senator Feingold.
    Mr. Ledesma, President Bongo has a decided advantage 
entering the next Presidential election, and in the past he has 
undermined his opponents. Are there any steps that you would 
see it would be appropriate for you to take as an ambassador to 
encourage an opportunity for legitimate and vigorous 
opposition? Are there any ways that you would seek to 
discourage government repression of what might otherwise be a 
free election?
    Mr. Ledesma.  Yes, thank you, Senator.
    Indeed, I mentioned in my statement that at present the 
American Embassy there is organizing and helping to facilitate 
the placement of observers for those elections that are to take 
place in December. That, we are hopeful, will be a very 
positive thing in indicating to the Government of Gabon and all 
others that there are international observers there to look 
over and to watch what is going on. I think that that can be a 
very positive thing.
    I must say that I was, as I mentioned, also DCM, Deputy 
Chief of Mission, in Accra, Ghana, where I saw quite an 
elaborate effort undertaken there with international observers, 
with U.S. funding--many of them from the Carter Center and 
elsewhere. Those Presidential elections did go well. I think 
very much in part due to the presence of international 
observers who were there looking over people's shoulders. So 
that can be a very good and positive influence.
    Senator Ashcroft. Are there any things that could be done 
in advance of the election to assure the opportunity for the 
kind of debate and discussion which would provide a parity in 
the politics?
    Mr. Ledesma.  Well, certainly, if I am confirmed and get 
there before those elections take place, it will certainly be 
high on my agenda to take that up with President Bongo when he 
is there. So I will use my influence, in my discussions with 
him, to urge an open and transparent system.
    I would say one more thing that I mentioned also, the 
limited USIA, U.S. Information Agency, funds available to us. 
We can also, in some places and hopefully could do in Gabon as 
well, initiate seminars to educate the press to their role in 
monitoring as a watchdog over public activities. This also is a 
very powerful instrument and one that I would want to encourage 
as well--upgrading the quality of the press during the 
elections.
    Senator Ashcroft. Certainly I commend you for the 
development of the doctrine of Ambassadorial fast track in your 
answer. And there are others of you that may want to embrace 
the theory.
    Mr. Melrose, some experts indicate that rebels in Sierre 
Leone are receiving support from Charles Taylor, President of 
Liberia. Do you have a sense for the integrity of those 
reports, the validity thereof? And if these reports are true, 
what would be the implications for U.S. policy toward Liberia?
    Mr. Melrose. Mr. Chairman, from time to time over the last 
year or so there have been reports that Charles Taylor or 
members of his government have been aiding the rebels in Sierre 
Leone. Unfortunately, we do not have any solid evidence that 
supports that.
    If it were the case, it would certainly not be a good omen 
for the future of Sierre Leone. I personally am much more 
optimistic with the possibility of cooperation between Charles 
Taylor and President Kabbah, given the early July--July 1, I 
believe it was--meeting between the two of them in Abuja with 
the new head of state of Nigeria and the Secretary-General of 
the United Nations. This seemed to indicate a greater 
willingness for cooperation on the part of Charles Taylor in 
resolving the Sierre Leone situation.
    Earlier this week, our Special Envoy, Reverend Jesse 
Jackson, had a followup meeting in Monrovia with President 
Kabbah and President Taylor. These, I think, are positive 
indications for the future.
    Senator Ashcroft. Thank you.
    Mr. Mu, Alassane Ouattara, a highly qualified economist and 
former Prime Minister, has indicated he would return to Cote 
d'Ivoire and become involved in politics again. What role do 
you see Ouattara as playing in the opposition in the future? 
And do you have any idea of why the opposition potential there 
seems to have struggled so much in Cote d'Ivoire?
    Mr. Mu. As I understand it, I think he made a public 
announcement that he would be leaving the IMF and returning to 
Cote d'Ivoire.
    Senator Ashcroft. Could you pull that microphone closer to 
you? We are having trouble hearing you.
    Mr. Mu. Oh, sure.
    Cote d'Ivoire will be holding a Presidential election in 
the year 2000. Much of what we have done all lead up to it. 
What we have been pushing for is a broad-based, open and 
transparent and actively contested election. They had an 
election, a multi-party election, in 1995, in which members of 
the opposition did boycott the election because of clauses in 
the Constitution that required both parents of candidates to be 
natural born Ivorians. Some of the opposition candidates--and I 
believe Mr. Ouattara was one of them--was not able to do so, 
was not able to run and, hence there was a boycott by that 
opposition party.
    There is no doubt that he is very, very popular. He has 
said that he would challenge this and he would go back into 
politics and hopefully be the candidate for the opposition 
party starting next year, leading up to the election in 2000. 
As I said, our position has been, in almost every visit we 
make, every chance we have, to talk to the Ivorian Government 
at the highest levels, at the ministries, is that we want an 
open, we want a transparent and a free election, whereby all 
opposition parties and candidates will have a chance.
    And that is something we will continue to do when and if I 
get there.
    Senator Ashcroft. Thank you very much.
    Ms. Robinson, President Rawlings is prevented by Ghana's 
Constitution from running for a third term, it is my 
understanding, in the year 2000.
    Ms. Robinson. That is correct, sir.
    Senator Ashcroft. Is President Rawlings taking steps to 
prolong his hold on power even though he may not be able to run 
for President? And what steps would you take as Ambassador to 
encourage a legitimate transition? It seems that transitions 
are the real testing times for diagnosing democracies.
    Ms. Robinson. Earlier this year, President Rawlings 
indicated that he did not intend to run for a third term and 
that his own personal choice as his successor is the current 
Vice President, Vice President Mills, who is highly respected 
by most observers.
    At this point, I do not believe there have been any 
indications that President Rawlings is going to take steps to 
maintain a significant hold on actual power in Ghana. But 
obviously it is something that, over the next few years, the 
U.S. Embassy in Accra will be looking at very, very carefully. 
Because, as you say, the 1996 elections, which most observers 
said were free and transparent, were but the first step. The 
critical elections will be the next ones that will take place 
in the year 2000.
    So that a key issue for the U.S. Embassy in Accra over the 
next few years is the willingness of the government to allow 
the democratic process to go forward in an open way, so that 
the political positions can be contested openly.
    Senator Ashcroft. Thank you very much.
    Mr. Staples, can you assess the long-term prospect for 
reconciliation in Rwanda? There are just lots of questions. 
Kofi Annan was criticized severely during his recent visit to 
the country. There was a suggestion that both he and U.S. 
officials knew a lot in advance of the genocide attack. So 
there are still lots of--apparently lots of heat in that 
situation. I could understand that. But what is the long-term 
prospect for reconciliation in Rwanda?
    And do you have any idea of what the government might be 
doing or what we might urge them to do to cultivate a stable, 
pluralistic system that was not tilted so aggressively toward 
one group or another? Do you have an idea of policies that you 
would implement to bring about that kind of potential for quite 
and peaceable lives in Rwanda?
    Mr. Staples. Yes, Mr. Chairman. I think that the prospects 
are better than they were, say, 3 or 4 years ago. The country, 
for the most part, except for in the Northwest, is at peace. 
After the massive influx and return of refugees, most of them 
have been able to settle. Although there are still shortages in 
housing, and of course poverty is a problem, et cetera.
    The government is working hard to get a message out on the 
need to be united, to recognize that you have to put the ethnic 
differences aside, and that there is one country and people 
must live together. We have supported that, as we should, and 
have used our public information resources--the visits of the 
Secretary of State and the President--to underscore the need to 
work together, and have tried regionally to involve the leaders 
there, as well, to ensure that everyone in the Great Lakes 
region understands the need to prevent a renewal of conflict 
and any further action that could spark any kind of a refugee 
exodus.
    Longer term, I think this is one of the things that you 
just have to work at. I think we have to use our ability as 
diplomats to get out and meet people, to show them how we as 
Americans, diverse as we are, live together and work well 
together, and to make absolute use of vehicles such as the 
Voice of America, our U.S. Information programs, to spread the 
right kind of message, and to encourage those Rwandans who are 
trying to do the same.
    I think, over time, it will work. It is just something that 
I think we just have to keep pushing at. But, as you have 
noted, there is a bitterness. There are people who, throughout 
the country, saw relatives and friends killed before their 
eyes. It is something that it is a wonder in a way that they 
have made such progress as they have.
    Senator Ashcroft. And it is hard to think about the events 
in Rwanda without even anticipating greater rancor and 
difficulty.
    I want to thank all of you for coming and for the service 
that you have rendered to this great country. Frankly, each of 
you is represented,not just by what you have said here today 
but by a heritage of involvement and dedication that I wish you 
well in all your endeavors to serve this country and this 
Nation and thank you for being here to participate in the way 
that you have today.
    And with that, I would welcome you to follow the example 
set by Senators Frist and Feingold, if you choose to. But we 
have another panel to which we will address ourselves. Thank 
you. Nice to see you.
    We will take about 3 minutes.
    [Recess.]
    Senator Ashcroft. It is now my pleasure to introduce, or 
call upon, the second panel: Robert Felder, William Swing, and 
Joe Sullivan. If we could just begin with your statements. If 
you could limit your statements to 4 or 5 minutes--4 minutes 
preferably--we will go through all of the statements first, and 
then Senator Feingold will be called upon to ask questions, as 
we did with the previous panel. Then I will have an opportunity 
to ask questions of you. Mr. Felder, if you would please begin.

  STATEMENT OF ROBERT C. FELDER, OF FLORIDA, NOMINATED TO BE 
              AMBASSADOR TO THE REPUBLIC OF BENIN

    Mr. Felder. Mr. Chairman, let me say first that I very much 
regret that my wife is unable to be here today. She is at our 
home in Florida. My children are both adults and married and on 
about their business. But I am delighted to say that my college 
roommate, Mr. Daniel Flaherty, is here today. I do want to 
acknowledge Mr. Brian Hunt, who is filling in on the West 
Africa Desk this summer, and has done a wonderful job in 
helping me prepare.
    Senator Ashcroft. Would these guests please stand so we can 
acknowledge your presence.
    Thank you.
    Mr. Felder. Mr. Chairman, Senator Feingold, I am deeply 
honored to appear before you today as the administration's 
nominee to be Ambassador to the Republic of Benin. I am 
grateful for the confidence which President Clinton and 
Secretary Albright have placed in me. I look forward to serving 
the United States in Benin.
    This is a particularly proud occasion for me. I have spent 
my entire adult life, 32 years, working for our country as a 
member of the Foreign Service. Most of my postings and 
assignments have involved countries of this hemisphere. Over 
the past 8 years, I have served as Deputy Chief of Mission in 
Caracas, Venezuela; Director of the Office of Mexican Affairs 
in the State Department; and Deputy Chief of Mission in Port au 
Prince, Haiti. In these postings, as in others before them, I 
have sought to advance core American values while defending 
American interests as best I could in each circumstance.
    While I have concentrated on Inter-American affairs, I also 
have ties to an experience in Africa. While still a student at 
Williams College, I participated in what I understand to have 
been the first ever exchange program sending U.S. university 
students to Africa. I was the first American to attend 
University College in Nairobi. Years later, I had the 
opportunity to serve as a Political Officer at Embassy Nairobi. 
From there I went to the Seychelles Islands, where I was Charge 
d'Affaires for 2 years.
    Mr. Chairman, Benin is at an important moment in its 
history. The country has successfully made what can only be 
termed a remarkable transition from a closed Marxist 
dictatorship to an open free market democracy. The Beninese 
have successfully conducted two free and fair Presidential 
elections, both of which resulted in the peaceful transfer of 
power. Benin has what at least one human rights organization 
has called the best human rights record on the African 
subcontinent. The country has continued along the sometimes 
difficult path of economic reform, and has made great strides 
in eliminating state control of the economy. All of these 
achievements have resulted in Benin forming a model democracy 
which we can only hope will be emulated by its neighbors.
    This is not to suggest that Benin's record has been 
perfect. There remain critical outstanding problems which must 
be addressed, most importantly in the areas of education and 
the strengthening of civil society. If confirmed, it is my 
intention as Ambassador to continue to work with the Beninese 
Government and nongovernmental organizations to create a 
mature, fully functioning democracy in Benin.
    Mr. Chairman, thank you for providing me with the 
opportunity to share these thoughts with you. I am privileged 
to have been nominated to be Ambassador to Benin. Throughout my 
career, my approach has always been characterized by 
constructive dialog with Members of Congress and their staffs 
about issues which have arisen as we have all striven to do 
what is best. If confirmed, I will look forward to a continuing 
relationship with this committee as I take up my duties in 
Cotonou.
    Thank you.
    Senator Ashcroft. Thank you very much, Mr. Felder.
    It is my pleasure now to call upon William Swing, the 
Ambassador-designate to the Democratic Republic of the Congo.

 STATEMENT OF WILLIAM LACY SWING, OF NORTH CAROLINA, NOMINATED 
    TO BE AMBASSADOR TO THE DEMOCRATIC REPUBLIC OF THE CONGO

    Ambassador Swing. Thank you very much, Mr. Chairman, 
Senator Feingold.
    First of all, I would like to introduce my wife, Yuen 
Cheong, who is sitting in the front row. Both Yuen and I regret 
that at this time our two grown children cannot be with us, as 
they were when we went to Haiti.
    When I was Ambassador in South Africa, our son Brian fell 
in love with Capetown and, more importantly, with a 
Capetownian, and he is now a businessman in South Africa. 
Gabrielle, our daughter, is a U.N. peacekeeper in Bosnia, 
having just been reassigned there from Croatia. So I hope you 
will excuse them. They would love to be here.
    I would also like to acknowledge the presence of our Desk 
Officer, Mr. Jim Swan, who has been terrific in getting me 
ready for this assignment, if confirmed.
    I also would like to introduce my Congolese instructor in 
the Lingala language, who has come all this way to be with us 
today, Mr. Sambale Taka.
    Mr. Taka.
    Mr. Chairman, Mr. Senator, members of the committee, it is, 
as with my colleagues, a great honor to come before you today 
in accordance with Article I of our Constitution. I of course, 
like my colleagues, am deeply grateful for the confidence which 
both the President and the Secretary have placed in me, in 
nominating me to be Ambassador to the Democratic Republic of 
the Congo.
    If confirmed, I want to assure you that I will work hard 
and closely with the administration and the Congress to promote 
American interests, objectives and values in the Congo and the 
Central African region. Our goal is quite clear: a democratic 
Congo, stable and prosperous, whose leaders respect their 
people's rights and are committed to their well being. As 
Secretary Albright said in her visit to Kinshasha in December, 
``Congo matters to the United States because its size, location 
and resources make it key to the future of Central, Eastern and 
Southern Africa. Its progress can help stabilize half a 
continent and can spark growth and promote regional integration 
from Kampala to Cape Town.''
    On a personal note, if you will permit me, it has been my 
great good fortune to spend most of my career and my adult life 
in Africa. Much of this has been in Central Africa. It has also 
been my high privilege, with the Senate's approbation, to 
represent our country in five, and if confirmed six, 
``transitional'' societies: South Africa, Nigeria, Liberia, 
Congo-Brazzaville, and, until recently, Haiti. While each is 
unique, all six share a dual Colonial heritage: colonized once 
by foreigners and, after independence, by one or more cliques 
of their own people, a family, an ethnic group, the army, or a 
strongman. These domestic colonizers take their own people 
hostage, plunder national wealth through corruption for 
personal gain, and ultimately leave their country in ruin. 
Thus, while the flush of independence of the 1960's was a time 
of euphoric expectations, deep disappointment was soon to 
follow. ``One man, one vote--once'' became the norm in a cycle 
of instability, mismanagement and natural and human disasters.
    Africa today is much changed from that time 35 years ago 
when I first touched African cycle at then Leopoldville--now 
Kinshasha--in 1963. More African nations than not are trying to 
pursue a democratic path, and positive economic growth rates 
are foreseen. Dramatic recent events, from the Cape to the 
Congo and beyond, could toll the end of 30 years of what I have 
termed ``domestic colonialism,'' just as Namibian independence 
in 1990 marked the close of a century of foreign domination in 
Africa. Much of the continent is entering a new era, with new 
leaders and new possibilities.
    The Congolese people, of course, are the primary agents of 
their history. We admire their patient determination to build a 
better future for their children through democracy, respect for 
human rights, and sensible economic policies. If they can 
realize these legitimate aspirations and the country's enormous 
potential, then, as a colleague recently said, ``the Congo 
should serve as an engine of growth for the entire region, and 
as a bridge between the relatively developed economies of 
Southern and Eastern Africa and the relatively poor economies 
of Central Africa.''
    In closing, let me just say that the Congo will need our 
support and that of all of its friends, however, as it seeks to 
address the devastation left behind by Africa's longest ruling 
despot. I look forward, if confirmed, to maintaining close 
touch with the Congress as the Congo confronts these daunting 
challenges.
    I and my wife, Yuen Cheong, who will again be my partner in 
this undertaking, both hope that you and many other members 
will visit the Congo during our time there.
    Thank you.
    Senator Ashcroft. Thank you. Now I call upon Mr. Sullivan 
to make remarks.

STATEMENT OF JOSEPH GERARD SULLIVAN, OF VIRGINIA, NOMINATED TO 
            BE AMBASSADOR TO THE REPUBLIC OF ANGOLA

    Mr. Sullivan. Thank you, Mr. Chairman, Senator Feingold.
    My children and family are scattered along the Eastern 
Seaboard and could not be here, but I wish to thank friends for 
their presence: Ambassador Vicky Huddleston; Andrew Simpkin and 
his son; Jack O'Rourke; Lou Kaye; my Portuguese instructor, 
Donna Zoay; the Desk Officer for Angola, John Secarra, who 
together with his colleagues on the Angola Desk have done an 
excellent job of preparing me for this hearing. Thank you.
    Mr. Chairman and members of the committee, I am honored to 
appear before you today, and privileged by the trust placed in 
me by President Clinton and Secretary Albright, in nominating 
me to serve as the United States Ambassador to Angola. If 
confirmed by the Senate, I look forward to working closely with 
the committee and others in the Congress on behalf of our 
country.
    During my 28 years in the United States Foreign Service, I 
have been fortunate to have worked frequently on countries 
making the difficult transition to democracy or emerging from 
years of internal conflict. I served in our Embassy in Portugal 
in the years following the Portuguese Revolution, and worked 
with many of those Portuguese who made the transition from 
dictatorship and postrevolutionary instability to vigorous and 
prosperous democracy. I also worked on Central American issues 
in the years when Nicaragua was beginning its democratic 
transformation, and when the parties in El Salvador negotiated 
a peace agreement which put an end to their decade-long armed 
conflict in favor of peaceful competition in a reformed 
democratic system.
    This past year I served as head of the United States 
Delegation to the Israel-Lebanon Monitoring Group, which 
oversees the April 1996 understanding, brokered by the United 
States and whereby Israel, Lebanon and Syria have committed to 
reduce the consequences for civilians of that conflict.
    I believe that the above experience has prepared me for the 
great challenges that would face me, if confirmed by the 
Senate, to be Ambassador to Angola. Angola has been in nearly 
continuous conflict for 37 years, since the beginning of its 
wars of national liberation. This conflict has killed over half 
a million people and displaced millions. The 1994 Lusaka 
Protocol, agreed to by the Angolan Government and UNITA, has 
helped to bring Angola its longest period of peace since 
independence, enabling the return of 1 million Angolans to 
their homes and establishing a unity government.
    There have recently been setbacks in the process, including 
the tragic death of United Nations Special Representative 
Maitre Beye, who devoted his life to the cause of peace in 
Angola. Angola faces an important moment in the long struggle 
to end the suffering of its people, to strengthen democratic 
institutions, and to make economic reforms necessary for the 
Angolan people to benefit from Angola's tremendous economic 
potential.
    Mr. Chairman, the United States has lent strong support to 
the implementation of the Lusaka Protocol, and serves as a 
member of the Troika, which acts in support of the United 
Nations peace efforts. The United States also has strong 
economic ties to Angola. The United States is the third leading 
trading partner in Africa, the second leading site in Africa of 
U.S. investment, and the source of 7 percent of U.S. oil 
imports.
    The American people and the U.S. Government also have a 
great humanitarian interest in alleviating suffering of the 
Angolan people caused by the prolonged conflict. We provide 
food to the hungry and prosthetics to the maimed. We are also 
providing seeds and resettlement assistance to returning 
displaced persons so that they might support themselves, and 
are helping to strengthen the elected National Assembly and 
civil society.
    Mr. Chairman, if confirmed by the Senate, I pledge to 
devote my utmost efforts to working on these challenges on 
behalf of the U.S. Government and the American people. Thank 
you.
    Senator Ashcroft. I would call upon Senator Feingold to 
begin questions.
    Senator Feingold. Thank you, Mr. Chairman.
    I will begin with Mr. Sullivan with regard to Angola. As 
you suggested, conditions in Angola were looking relatively 
good last year, but the implementation of the Lusaka Protocol 
has been less than stellar in recent months. I wonder if you 
could elaborate a little more on your assessment of prospects 
for peace in Angola, the reason for the setbacks and, in 
particular, the impact of the death of Dr. Beye on the peace 
process?
    Mr. Sullivan. Yes, Senator, thank you.
    Until April of this year, there was slow and sometimes 
delayed progress in implementation of the Lusaka Protocol, but 
the progress was gradually and erratically forward. At that 
point, the principal remaining obstacle was the return to 
government control of four centers in the Highlands of Angola 
that UNITA had not yet returned to government control.
    UNITA had agreed to a schedule and actually has reached 
agreement five times in the course of this year to return those 
four centers at an agreed upon data. UNITA did not carry out 
the return of these centers, and consequently the United 
Nations Security Council voted new sanctions upon UNITA, which 
took effect on July 1 of this year.
    UNITA did declare itself demobilized in the spring of this 
year. The United Nations and the Joint Commission accepted that 
declaration of demobilization. Unfortunately, it is 
subsequently clear that UNITA has maintained troops, regular 
and irregular troops, who have carried out attacks. There now 
appear to be as many as 55 towns and centers that have been 
retaken by UNITA since April of this year.
    So all of these are serious issues. The tragic death of Dr. 
Beye has certainly made it more difficult to put the process 
back on track. We think it is absolutely critical that it get 
back on track. All parties continue to state that they are 
committed to implement the Lusaka Protocol. We think it 
requires a maximum effort by the United Nations, by the Troika, 
including the United States, to do everything possible to 
accomplish that.
    Senator Feingold. I share your comments on Dr. Beye, having 
watched him in action at the U.N. Headquarters in Angola in 
1994, and sensing his great intensity and desire to make this 
process work.
    Is U.N. planning to replace Dr. Beye with a new 
appointment?
    Mr. Sullivan. Yes, they are. The Secretary-General, 
Senator, will have the responsibility of nominating a new 
Special Representative. We understand he is engaged in an 
intensive search. We think it extremely important that a new 
representative be named as soon as possible to re-energize the 
process.
    Senator Feingold. I would agree with that.
    The wide dispersal of land mines in Angola is a tremendous 
hindrance in many ways, and in particular to economic recovery 
in the rural areas. What are the current estimates of the 
number of land mines remaining in Angola? And what efforts are 
underway to remove them? And how is the United States helping 
in the de-mining?
    Mr. Sullivan. The estimate of land mines, of course, is a 
very variable science. I have heard numbers all the way from 5 
million to 10 million. I think the numbers that appear to have 
the greater credibility are the ones closer to the lower end of 
that spectrum. But 6 million or 7 million land mines is more 
than enough certainly, and have caused a tremendous amount of 
tragedy and suffering in that country.
    Perhaps the single saddest event is that there is evidence 
of renewed de-mining once again in the area of the Central 
Highlands, particularly surrounding these four towns, Undulu, 
Bailundu, in the Central Highlands where UNITA has its greatest 
area of strength.
    The international community has made a great effort to both 
educate the public on how to avoid land mines and how to avoid 
the tragic casualties that they have caused, and also to remove 
land mines where that is possible. The United States has been 
an active contributor in this process, originally with 
Department of Defense, but now, under the newly appropriated 
funds under the 150 account, we will be contributing in that 
area, as well. It is my understanding that we will be 
contributing in total approximately $5 million to that effort 
this year.
    Senator Feingold. Thank you. I certainly wish you well in 
your efforts.
    Mr. Felder, Benin's early experience with democracy, as you 
pointed out, is often held up as an example of a very positive 
democratic transition in Africa. With the reelection in 1996 of 
former President Kerekou, there have been some fears of a 
setback. Are you confident that that will not occur, or are you 
in some way concerned about that?
    Mr. Felder. Thank you, Senator.
    President Kerekou was the person in the late eighties who 
called for the national conference which led to the demise of 
its own regime. He then presided over what were characterized 
by all international observers as a free, fair and transparent 
elections won by his opponent, and turned over power to that 
opponent. So his metamorphosis, if you will, began a long time 
ago.
    Since he has become President again--elected this time--of 
Benin, he has followed the Constitution that was written in 
1991, and has continued to pursue the structural adjustment 
policies that were agreed to with the international financial 
community by his predecessor.
    The human rights situation in Benin remains very, very good 
by comparison with other African countries, although there 
still is progress which needs to be made.
    So, although I have not yet had the opportunity to meet 
President Kerekou, I believe, based on what I have learned, 
that we have reason to be optimistic in that area.
    Senator Feingold. How have the Benin Government and the 
people reacted to the recent events in Nigeria? And what 
consequences would continued instability in Nigeria have for 
Benin?
    Mr. Felder. Continued instability in Nigeria would have 
very unfortunate consequences for Benin. First of all, because 
they have a border, and any situation which created refugees 
would be very difficult for Benin, but also because a great 
deal of the Beninese economy depends on transit trade. If 
Nigeria has a problem, Benin has a problem.
    I think the people in Benin are concerned about Nigeria. 
But I do not have specific details about Beninese reaction to 
recent developments in Nigeria.
    Senator Feingold. Thank you.
    Finally, Ambassador Swing, concerns have obviously been 
raised that the termination of U.N. Secretary-General 
investigative team probe into massacres that occurred in the 
Congo during Kabila's rise to power may leave these crimes 
unaccounted for. Some believe that the weak Presidential 
statement issued by the U.N. Security Council last week 
indicates that the United States is not serious about pushing 
for accountability for these crimes.
    How would you respond to these charges?
    Ambassador Swing. Well, thank you, Senator, for the 
question. This is of course a critical one.
    We have, from the very beginning, supported the U.N. 
Special Investigative Team in its efforts to get to the bottom 
of what actually happened between March 1, 1993 and December 
31, 1997. As you know, countless lives were lost in that 
period, and many of them unaccounted for.
    We were of course, like the rest of the community, deeply 
disappointed when the Secretary-General found it necessary to 
recall his team in April. We understood the necessity for doing 
that, because they simply were not getting the level of 
cooperation that would have been needed to conclude their 
inquiry.
    We did, however, believe it important that they go ahead 
and submit the report. They did. It is the Presidential 
statement on that report, I believe, to which you refer.
    We certainly, within that statement, support the continued 
investigation of those atrocities by the government not only of 
the Democratic Republic of the Congo but also of Rwanda. We 
have made that clear. We also have for a long time supported 
the OAU's Eminent Persons Panel, which has now been named and I 
think is ready to operate, which would also investigate them 
further.
    So we think it is important that the inquiry continue. We 
hope that the governments involved will be able to bring the 
evidence that is necessary to find the perpetrators and to 
bring them to justice.
    Senator Feingold. Ambassador, in addition to the 
suggestions you just made, would you recommend that the United 
States seek an extension of the jurisdiction of the 
International Criminal Tribunal for Rwanda or the creation of 
an independent commission of inquiry to investigate these 
events?
    Ambassador Swing. I think our position up to now has been 
that we support the Secretary-General's report in the two or 
three points that I just mentioned. We have not, I believe, 
taken a public position in support of the extension of that 
Rwanda Tribunal to include the problems that occurred in the 
period of the takeover by the ADFL in Kinshasha.
    Senator Feingold. OK. Finally, there are a variety of 
legislative restrictions in place now, prohibiting aid to the 
Congo. Is the administration still planning to seek a waiver of 
these restrictions? And if they are, please explain why. What, 
in general, is your view of the provision of aid to the Congo?
    Ambassador Swing. That of course is a critical question for 
us in terms of being able to be engaged and trying to help the 
Congo as it moves in this postMobutu transition, from autocracy 
to a system of democracy and stable institutions. As you know, 
in the past fiscal year, we did provide $8 million in 
assistance to the Congo, but all of it through either NGO's or 
international organizations, or through local and regional 
governments. We have vaccinated about 750,000 children in 
Kinshasha with part of that money. We supported the regional 
reconciliation conferences. We did a number of local projects.
    The question you are asking is, what happens now, because 
we are into the new fiscal year. We have, I believe, already 
held some briefings on the Hill, with our belief that we should 
go forward with a 451 waiver, which would allow us to go 
forward with some of our assistance.
    We have about $30.5 million foreseen for this fiscal year. 
That will include about $10 million for our three regional aid 
hubs, in Kanaga and the Kesais, in Lubambashi and the Katanga 
and in Bukavu, the capital in the Kevus. That would allow those 
local communities to get some assistance to their people and to 
keep their hopes alive that life is going to get better.
    The $10 million would go to the World Bank Trust Fund, 
along with moneys from other countries. We have $10 million 
available for NGO's to do local and regional projects. We have, 
I believe, if the waiver goes through and we are approved, we 
would have a half-million dollars to support democracy and 
governance, primarily to help them in the period as they move 
toward elections in April 1999.
    So I think that is the intent. But, as you correctly say, 
there are problems. We have the problem of Section 512, the 
Brooke amendment, in which the country is in arrears beyond 1 
year to us; and we have the Faircloth amendment, Section 585, 
which we have to deal with. That of course addresses the U.N. 
team.
    Senator Feingold. I thank you, Mr. Ambassador. I thank all 
of you and wish you well.
    Senator Ashcroft. Thank you very much, Senator Feingold. 
Each of you has previously served our country in dealing with 
the situation in Haiti, and that is part of your record that I 
would like to spend some time exploring. I will personally 
submit for your answers questions about your prospective 
assignments, but I would like for you to make an effort 
carefully to respond to the questions which I would now pose.
    I would ask both Ambassador Swing and Mr. Felder, did 
President Aristide guard the institutions and modalities of 
Haiti's emerging constitutional system, and would you comment 
on the extent to which President Aristide respected and guarded 
the institutions and functions of Haiti's emerging 
constitutional system?
    Ambassador Swing. Sir, thank you for the question. If I 
understand correctly, you are speaking of the time when he was 
president.
    Senator Ashcroft. Yes, I am.
    Ambassador Swing. As you know, President Aristide, after 3 
years in exile, largely here in Washington, returned to Haiti 
on October 30, 1994. He continued in office until his successor 
was installed in office on 7 February, 1996. In that period, 
with large assistance from the international community, he did 
follow through the constitution in completing five elections, 
including both local, regional and, of course, national 
parliamentary and Presidential elections, and I think that led 
to the first peaceful democratic transition at the Presidential 
level in Haitian history, certainly in Haiti's modern history, 
so in that sense I think the constitution was fully respected.
    There were pressures at the time, as you may recall, in the 
summer and fall of 1995 of what was called a 3-more-years 
campaign, whereby President Aristide would have extended his 
time in office by 3 years to make up for the 3 years he lost 
after the coup d'etat of September 1991. Those pressures were 
resisted. The Presidential elections were held, and he duly 
handed over Presidential office to President Preval in February 
1996.
    Senator Ashcroft. After his return to power, did he ever 
manipulate the opportunity for participation by opposition 
parties or participants in the electoral council, either in its 
formation or in the subsequent duties they would have in the 
electoral council?
    Ambassador Swing. Sir, all of the elections that were held 
during my time there, and I was there from October 15, 1993 
until January 5, 1998, in that whole period, certainly the 
opposition parties--these were all multiparty elections, and 
the opposition parties had opportunity to participate.
    Because of their own perception of the electoral process a 
number of these traditional parties in Haiti chose not to take 
part in the elections. We in the administration, all of us at 
the embassy made a strong effort to try to keep these parties 
in the election, to keep them trying again to garner votes and 
to be part of the electoral process. We did not in the end 
succeed in convincing most of them to stay in the race and most 
of them were out of the last race, also.
    Senator Ashcroft. Do you regard those elections as free and 
fair?
    Ambassador Swing. We have said through our Presidential 
delegations that came down for the elections that the elections 
were free and fair, but we have also said that in some cases 
they were flawed, and in several instances we have recommended 
that a number of the races be rerun and in some of the 
elections they were, and in the last one, the one that is 
contested now, no decision has been made.
    Senator Ashcroft. Was it your feeling that the president 
manipulated or did not manipulate the electoral council?
    Ambassador Swing. I have no sense that the elections were 
manipulated, no, sir. That allowed us to make our statement 
about the elections being flawed but free and fair.
    Senator Ashcroft. And is that true about the electoral 
council as well as the elections themselves? Is your answer the 
same for that, that you have no sense that he manipulated the 
electoral council?
    Ambassador Swing. There were a number of problems, and I 
think we are speaking now primarily of the April 6, 1997 
elections, which would have been the last ones, which are still 
presently a matter of political debate within Haiti.
    Along with the U.N. and other members of the international 
community we met a number of times with what was called the 
provisional electoral council. We felt that there were a number 
of flaws, some of which were probably the fault of the CEP, and 
that they therefore should take a range of corrective actions. 
We outlined them to them in writing. Some of these were 
implemented, but as I recall, most of them were not.
    Senator Ashcroft. Mr. Felder, is it your view the President 
guarded well the institutions and modalities of Haiti's 
emerging constitutional system in his service?
    Mr. Felder. I think in the period of his service as 
president that he did, sir.
    Senator Ashcroft. After his return to power, did President 
Aristide ever replace the supreme court in a manner that was 
contrary to the Haitian constitution?
    Mr. Felder. I am absolutely unaware of him doing that.
    Senator Ashcroft. Ambassador Swing, in early 1995 did the 
president, President Aristide, issue by decree a different 
electoral law than was passed by the Haitian parliament?
    Ambassador Swing. I have to say that I do not recall in 
detail, but I have no recollection that I did, but I would be 
happy to take that question and get back to you in a written 
answer on it, because I want to be sure of what I am saying. I 
am not aware that he did.
    Senator Ashcroft. I would be very happy if you chose to 
provide that and, as a matter of fact, I can add that to the 
written questions.
    Ambassador Swing. I would like to be correct on that. I 
cannot be sure.
    Senator Ashcroft. Ambassador Swing, did President Aristide 
ever take steps to silence unfavorable press such as closing 
private television stations?
    Ambassador Swing. No. Again, to the best of my recollection 
he did not. In fact, one of the hallmarks of this new period in 
Haiti has been the rather astonishing degree of press freedom. 
There are about 95 private radio stations in Port au Prince, 
and I think that is on the low side of my estimate, and as far 
as I know most of them have been able to operate rather well 
and there are independent television stations.
    Senator Ashcroft. Ambassador Swing, in reference to the 
political killings in Haiti, you were quoted in a Robert Novak 
article in the Washington Post in August 1995 as saying, 
``There has been no proof of a political murder. Even if you 
counted one or two of them as a political murder, the number is 
very small.''
    Ambassador Swing, is that quotation accurate?
    Ambassador Swing. I believe it is, and I recall that 
article very well because, as I recall, Mr. Novak referred to 
something like 80. I believe he referred to 80-some political 
killings.
    I was trying to say two things in that quote. If I might 
just elaborate on it, my main emphasis was on the fact that no 
one had been brought to justice to such a point that one could 
say it was, in fact, a political assassination. I was not 
denying there were assassinations, but there had not been 
anyone brought to court on that.
    Second, in the summer of 1995 the United Nations and OAS 
International Civilian Mission gave us a report saying that 
there had been 21, what they called execution-style killings 
since the return of President Aristide, and I believe that to 
be accurate, and I was there for all of them and, in fact, the 
special investigative unit of the Haitian national police at 
this very moment is still investigating those 21 plus two that 
took place on August 20, 1996 of Pastor Leroy and his 
colleague, Fleurival, who were from the opposition party known 
as the MDN.
    There was then finally--there was a--I think that would 
have made 25, and then there were added to that three other 
killings that took place prior to President Aristide's return, 
namely, Antoine Ismarie, a businessman who was pulled out of 
mass at the Sacre Couer Church and murdered in front of the 
church.
    There was Justice Minister Guy Mallory who was shot at high 
noon on his way home to lunch the day before I arrived, and the 
third one was Father Jean Marie Vincent, who was assassinated 
on a Sunday evening about 5 weeks before President Aristide 
returned.
    So, Senator, what I am saying is, that comprises at present 
the basically the active cases that are being investigated, so 
I do not think that when I--I was not trying to mislead the 
journalist at all when I referred to possibly two.
    He knew of the Bertin case, which had strong political 
overtones, but I did not think any of them had been brought to 
book, and I could not say any of them were political.
    Senator Ashcroft. But you did say there had been no proof 
of political murder.
    Ambassador Swing. Yes, sir.
    Senator Ashcroft. Do you think your statement sent a 
message to the Aristide Government, which by that time had 
effectively blocked the FBI investigation and shielded 
Government officials in the Bertin murder?
    Ambassador Swing. Well, I do not think so, and I certainly 
hope not. We had maintained and continue to maintain a very, 
very active dialog on this issue. Our most senior officials 
have been to Haiti to talk to them about the importance for a 
democratic society to bring these people to justice, and for 
their own credibility. That has continued.
    It is interesting and instructive to me that since the 
August 20, 1996 murders took place there have been no killings 
at all in Haiti, which is almost 2 years now, which could, I 
believe, by anyone be ascribed as political assassinations. We 
are pleased with that.
    I think that is partly related to the existence now of an 
investigative unit within the Haitian national police, the 
special investigative unit. I thin it is due to the very good 
work and the watchful eye the FBI did while they were there, 
and I think it is due also to the recognition in Haiti that 
countries, the United States first and foremost, really take 
seriously this business of allowing freedom of political 
expression and certainly condemning anything that approaches a 
political assassination. I hope that will continue.
    Senator Ashcroft. Ambassador Swing, did you feel the 
evidence implicating cabinet minister Beaubrun in the Bertin 
murder was strong enough where you would recommend his 
dismissal.
    Ambassador Swing. Indeed. Indeed, Senator. Thank you very 
much. I indeed felt that. I recommended his immediate 
suspension on the grounds that for their own credibility of the 
Government he should be taken off of active duty until his name 
could be cleared, because his name had come up in connection 
with a plot that was uncovered in March 1995 to assassinate a 
key and high profile opponent of President Aristide. I regret 
to say we were unsuccessful in the end in convincing the 
president and the Government that he should be dismissed.
    Senator Ashcroft. I guess my question is, if the evidence 
was strong enough for you to recommend his suspension from the 
cabinet, do you see any inconsistency with saying there's that 
kind of evidence and saying, too, apparently to Robert Novak 
that there was no proof for the existence of a political 
killing?
    Ambassador Swing. Sir, I did not feel that I should put 
myself in the position of making political judgments about 
killings that I thought only a court of law could make, and I 
was simply trying to be cautious in not sort of outlining what 
would be seen as a trend when I did not think I saw one.
    Senator Ashcroft. Well, I guess the tension that I see is 
that you say there is no proof, but you thought there was 
enough evidence to go to Aristide and say, suspend this person.
    Ambassador Swing. What I basically said to him was, I said, 
Mr. President, it seems to me you want to get yourself and your 
Government out of harm's way until a court of law and 
investigative unit can decide where the facts lie.
    We had this rumor of a plot, and we felt that it should be 
investigated just to see if, in fact, the then minister of the 
interior, Mr. Beaubrun, was, in fact, funding and basically 
supporting that plot.
    Senator Ashcroft. Do you think Aristide's failure to move 
against Beaubrun signaled to the other plotters that they were 
free to proceed with the Bertin hit, which was carried out only 
a few days after the initial plot was discovered?
    Ambassador Swing. Sir, with due respect, I do not know. I 
just do not know.
    Senator Ashcroft. Mr. Felder, do you have a view on that?
    Mr. Felder. I was not in Haiti at the time, sir. I could 
not comment on that. I did not arrive until many months 
thereafter.
    Senator Ashcroft. Ambassador Swing, in commenting on 
quotations in the Novak article in August 1995, you stated 
before the House International Relations Committee in September 
1996, ``What I was saying, Congressman, was that based on 
knowledge we had to date we were not in a position to say, were 
they politically motivated, or if they were drug- related, or 
anything else, because at that point the FBI investigation was 
not complete.''
    Do you stand by that statement that, based on the 
information you had, you could not say with reasonable 
assurance that some execution-style killings were politically 
motivated?
    Ambassador Swing. I believe I do, sir. Again, no one had at 
that point been brought to trial, and it was very difficult for 
me to make that statement.
    Senator Ashcroft. Mr. Felder, do you have any evidence 
available to you, or did you, or do you, that in August 1995, 
that some execution-style killings were politically motivated?
    Mr. Felder. Senator, the did you and do you distinction is 
important. I cannot tell you that in August I had that 
information to the point that I would consider it reliable 
fact. I knew that the FBI believed that the Bertin killing was 
a political killing.
    Senator Ashcroft. So you had been informed by the FBI that 
they believed it was a political killing?
    Mr. Felder. We knew that the FBI was pursuing certain lines 
of investigation at that time, that they had suspicions that 
the killings were perpetrated by people operating generally 
around or from within the palace, but we did not--the FBI had 
not concluded its investigation at that time, and did not have 
a final position.
    In fact, they had rather a shotgun approach, if I may, in 
that they had a rather large number of people they thought 
might have been involved, and all of them could not possibly 
have been involved, so the information that they had was not 
conclusive at that point. In fact, they were frustrated because 
they could not bring that investigation--they could not finish 
the investigation and derive some conclusions from that.
    Now, with respect to do I, as opposed to did I, I think 
that based on information that has come to our attention in the 
period over these past several years, it is fair to say that 
there have been a number of execution-style killings, some of 
them with political motivation.
    Senator Ashcroft. In what is now a declassified memorandum, 
Ambassador James Dobbins advised Deputy Secretary of State 
Strobe Talbott in August 1995 to describe execution- style 
killings in Haiti as ``revenge-motivated.'' One of Dobbins' 
talking points for Talbott stated, ``None of these killings 
were linked''--I guess that is what it actually said, rather 
than was linked, but none of these killings were linked to the 
elections or current Haitian politics.
    Ambassador Swing, do you agree with Ambassador Dobbins' 
statement that none of these killings were linked to the 
elections or to current Haitian politics?
    Ambassador Swing. Senator, may I just ask you, what was the 
date of the memorandum?
    Senator Ashcroft. This was an August 1995 memorandum 
advising Deputy Secretary of State Strobe Talbott from 
Ambassador James Dobbins.
    Ambassador Swing. Basically, this was the period of the FBI 
investigation, which began the morning after Madam Bertin was 
assassinated. In other words, it ran from--the FBI 
investigation began March 29 and was still going on in August, 
although by August we had already identified lots of problems 
that indicated the Government was not giving us its full 
cooperation, and we were at a point where we were beginning to 
think about the utility of maintaining a large and expensive 
FBI operation there.
    So basically at that point, again it is a question of what 
we know now as to what we knew then. At that point, we did not 
yet have a conclusive investigation to guide us in terms of 
whether these were revenge killings, or whether they were 
politically motivated or drug-related, or just what.
    Senator Ashcroft. Well then, you do not agree with the 
advice to describe them as revenge-motivated. You say in the 
event you do not have enough information to know.
    Ambassador Swing. Well, some of them, the United Nations, 
the ICM again, the civilian monitors put out a report saying, 
in effect, that some of them were revenge-related and some of 
them they thought were politically motivated.
    Senator Ashcroft. So you agree, then? I mean, I am trying 
to figure out whether you do or do not agree with the advice 
that the Secretary of State should describe those as revenge-
motivated.
    Ambassador Swing. Well, I think one has to assume that in a 
period in which more than 3,000 persons lost their lives during 
the period of Aristide's absence in human rights killings, that 
there would be--in fact, we expected we would have real 
problems on the return of President Aristide that there might 
be revenge-motivated killings, and I think therefore, until you 
come to a court of law, in a lot of these cases one has to 
assume there was some revenge involved.
    In the case, for example, of Colonel Kebreau, who was--
Colonel Kebreau was killed on February 16, 1995 in the Zodiac 
Bar in a part of town called Carrefour. He had, in fact, stolen 
the car of a very close security associate of President 
Aristide, and one assumes there probably was a revenge motive.
    Senator Ashcroft. My question is not whether or not it is 
appropriate to say all of these are revenge-motivated. I think 
it has been pretty clear that--but do you agree with the idea 
that it was appropriate to say none of them would be 
politically motivated and that they were all basically--you 
know, none of these were linked to the elections or current 
Haitian politics. I am sure you could list lots of homicides 
that are not related to it.
    Ambassador Swing. I think there was always a strong 
suspicion that the Bertin case, since it was such a high 
profile political case, could very likely be seen as 
politically motivated, but again, at the point at which this 
memorandum was written we still did not have a conclusive 
investigation either by the FBI or any other investigative body 
there.
    Senator Ashcroft. So then you agree that in the absence of 
a conclusive report or criminal court conviction it is 
appropriate to say none of them were linked to elections or 
current Haitian politics.
    Ambassador Swing. Well, basically at the embassy we tried 
as much as we could to suspend judgment, to look at the various 
possibilities, political assassination, revenge killings, drugs 
or otherwise, without making ourselves in the position of being 
a court of law.
    Senator Ashcroft. I guess what I am trying to say to you, 
you in particular are being designated to serve as the 
Ambassador of the United States of America to the Democratic 
Republic of Congo, and if I make an error in some of these 
terms, forgive me, but the leader of the Democratic Republic of 
Congo, Kabila, has not been what I consider to be a model in 
terms of welcoming democratic institutions, or providing for 
the safety of citizens.
    On two occasions at least, we have tried, with the 
cooperation of the United Nations, to send inspection teams to 
respond to whether or not there has been genocide, not just 
political killings but genocide, and in each of those cases we 
have met with serious resistance.
    Now, frankly, if you have a proclivity for looking the 
other way, or waiting until there has been some convictions by 
a court somewhere, that is not very hopeful as a representative 
of the United States of America.
    And if you want to persist in saying that, well, until 
there is conclusive evidence, until you have got either a 
signed confession or you have got court cases--I would hope 
that the United States would be prepared to register its 
concern about what are apparent political murders and 
assassinations in advance of some kind of written in stone 
historically validated understanding, because it is true, the 
number of political murders may be declining.
    The number of political murders can decline under a number 
of scenarios. One of them is, there is nobody left to murder 
who has any guts to talk. I mean, people can get the message. 
It is not necessarily that there are democratic institutions.
    There was a time--well, lots of dictatorships have been 
successful at making their point with a few well-placed 
murders, and they do not have to do more, and so I guess--you 
know, this is a matter that is troublesome to me.
    I think you are going to--in the event that you are 
confirmed, you are going to go to a very, very troublesome 
place, where literally hundreds of thousands of people have 
lost their lives, and maybe I have read the wrong books about 
particularly the northeastern corner and the Great Lakes 
region, if that is the proper terminology.
    But that is a human tragedy to me, and I am being rather 
direct because I want to know at what point you run the red 
flag up, or whether you are willing to say, nah, these all look 
like they are revenge motivated, or they are not political 
assassinations, or there is no conclusive evidence. As long as 
we have a shadow of a doubt, we are not going to do anything, 
and there is this sort of legalistic sort of perch which you 
appear to be occupying which says that in spite of the fact the 
FBI expresses grave concerns, that well----
    Ambassador Swing. Senator----
    Senator Ashcroft. [continuing] I am just trying to explain 
what I am after here. This is not a happy situation, and maybe 
he is much to be preferred over his predecessor, but he has 
certainly not been willing to allow the United States as a 
participant in the inspection teams and the like, and it gives 
me great pause, and I would like very serious assurances that 
we are not in the business of cooperating, or looking the other 
way, or winking until the evidence is totally complete and the 
trials are completed, especially in times when there are lots 
of people losing their lives, and have lost their lives in 
families that are very seriously threatened.
    From what I can tell, the Great Lakes region we are talking 
about and the alleged atrocities there make Haiti look like a 
Sunday School picnic, and we do not need to have an attitude 
that relates to that arena that says, well, until we see it on 
videotape in public, where we will not be able to deny it, we 
can keep telling people to attribute this to other causes.
    Ambassador Swing. Sir, I want simply to reassure you that 
whatever I am saying in a public forum now is somewhat--does 
not reflect the entire record. I am very proud of the dialog 
and the demarches and the relationship we had on the question 
of these murders. I think we have pursued it relentlessly with 
the president. Never a week passed when I did not meet with the 
past president and the current president of Haiti. This was at 
the top of our agenda and remained at the top of our agenda as 
long as I was there.
    We did everything we could possibly do, given the limited 
capacity of that police force, to get to the bottom of these 
murders and I assure you that remains a top priority for us. We 
know more now than we knew then. We discovered along the way, 
with the help of a lot of good people, that there were in fact 
hit squads operating out of the national palace, which is the 
seat of the president.
    We worked hard to have people dismissed who we knew or 
strongly suspected to be involved in these murders, including 
some of the more recent ones. This continues to be very 
critical for us and we have, I think, kept in close touch with 
the Congress on this, and we have worked with you, and we have 
agreed with the kind of legislation that you have put in order 
to ensure that these investigations go forward.
    So there is no softness there, but some of the record that 
is reflected in the record is difficult, I think, to discuss in 
an open hearing.
    Senator Ashcroft. Let me just say this. A willingness to 
describe as nonpolitical things as sort of revenge- motivated, 
and to describe them as nonpolitical merely because there is an 
absence of conclusive evidence, could lead people on the site 
to say they are buying it, the light is green, we can continue 
with our practices and our opportunities because, listen to 
what the Deputy Secretary of State is saying. They are buying 
this line.
    And to be willing in the face of FBI strong suspicion, 
strong enough suspicion to recommend people be canned in the 
cabinet--or suspended, pardon me. Let me correct that--that 
people be suspended in the cabinet on the one hand and then to 
go out with a pretty good cover story for what is happening on 
the other, indicating that they are revenge- motivated, that is 
what troubles me.
    Let me move to another item.
    Ambassador Swing. Could I just footnote my statement?
    Senator Ashcroft. I have as much time as you do. My evening 
is open so we could all be here.
    Ambassador Swing. While we were not successful in getting 
the president to dismiss his minister of the interior, we have 
been successful in getting the thugs involved in the palace 
security operation basically removed out of the Government.
    Senator Ashcroft. Well, I think it is commendable. The more 
thugs we get out of Government, the better off we are.
    Ambassador Swing, did you continue to feel that resolving 
the Bertin murder was important, and did you continue to pursue 
the investigation aggressively with embassy resources?
    Ambassador Swing. Yes, sir. We did it largely through--once 
the FBI had left, which was, I think, sometime in October 1995, 
the Government of Haiti had notified us on October 11, 1995 
that they were going to create a special investigative unit 
within the Haitian national police.
    Now, these, of course, were all brand-new recruits. None of 
them had more than 2 years experience on the street. We 
continued to support them, and I think Congress was very 
helpful in approving legislation and approving funding that 
would allow them to be supported in terms of their training.
    We have had with them at times one, at times two American 
investigators on special contract who have assisted them in 
this, and so I think we have continued up to this day. I left 
in January, but I believe that unit is continuing to develop 
and follow leads, and I believe there is some chance of success 
there. We will continue to support them.
    Senator Ashcroft. It just occurs to me there is a unique 
level of responsibility in the United States and in our embassy 
and in our representatives when we are dealing with a 
Government that we install that then has the cloud of political 
assassinations over them, and that is one of the reasons--after 
the FBI left in October 1995, did you ever read the FBI summary 
report on the Bertin murder?
    Ambassador Swing. I have not seen that report. I understand 
it exists, but I was never shown a copy and I have not seen it. 
I have not read it.
    Senator Ashcroft. Mr. Felder, did you review the report?
    Mr. Felder. Senator, I have been searching my mind these 
past few days because the subject came up in the State 
Department, and I do not believe that I have read that report.
    Senator Ashcroft. Do you know whether you did or not? I 
mean, if you do not know, just say it.
    Mr. Felder. I do not recall having read it.
    Senator Ashcroft. So you do not know whether you read it or 
not.
    The report from a congressional staff delegation to Haiti 
states that, ``Until facilitating a meeting requested by the 
staff delegation, the American Embassy had no contact with the 
family of slain lawyer Bertin more than 1 year after the 
murder.''
    Is this statement accurate and, if so, what does the 
failure to even meet with the Bertin family say about the 
intensity of the embassy's effort to resolve the Bertin case?
    Ambassador Swing. Sir, I did not have contact with them 
and, in that sense, the report is correct. I did not have 
contact with them largely because I had never had contact with 
them in the period of the de facto regime.
    I did not believe such contact would be welcome, and I felt 
that the contact, since it was an active investigation, should 
come from the appropriate authorities, which I thought at that 
time to be the FBI and later the special investigative unit. 
Had they asked to see me, of course I would have seen them.
    Senator Ashcroft. Is it that after the FBI left in October 
1995 that there was a special investigative unit that replaced 
them?
    Ambassador Swing. That is correct, sir, along about the 
same time. They may have been in place before the FBI left 
because both events, as I recall, occurred in the month of 
October.
    As I mentioned, the minister of justice notified me by 
letter on October 11, 1995 that they were going to form a 
special investigative unit. This is something we had been 
recommending to them ever since the first murders occurred in 
early 1995 and they came around to it in October.
    Senator Ashcroft. In meeting with Aristide, Ambassador 
Swing, did you express concern to him that the Government of 
Haiti would look culpable in interfering with the FBI 
investigation of the Bertin murder?
    Ambassador Swing. I did, sir. I cannot tell you on what 
occasions, but it came up.
    Senator Ashcroft. Did he appear willing to accept your 
suggestion that he would appear culpable?
    Ambassador Swing. I do not believe so, sir.
    Senator Ashcroft. Did you ever report to the State 
Department that the Government of Haiti had basically 
obstructed the FBI investigation?
    Let me rephrase this. Did you ever report to the State 
Department that the Government of Haiti obstructions to the FBI 
investigation were for political cover?
    Ambassador Swing. I may have. I do not remember. I 
certainly told them we were not getting the cooperation that 
was required to carry out the investigation, and I remember in 
August 1995 I sent a cable to Washington--and you will have to 
excuse me if it is in very general terms.
    I think we basically said that we had reached a point where 
if we could not get greater Government cooperation we would 
have to look at the possibility that the FBI would not be able 
to complete its investigation and therefore have to leave, and 
I think at that point we suggested, I think something like--and 
again, please do not hold me to this, because I do not remember 
the cable that well--something like that we needed either to 
have a high level delegation, or some high level phone calls to 
try to convince the Government that it was in their interest 
and the interest of justice and the interest their new nascent 
democracy to let this investigation go forward.
    One of the problems was their wanting to have a Government 
lawyer present at these interviews and, of course, the FBI 
could not possibly agree to that, and we never really quite got 
around that point, as I recall.
    Senator Ashcroft. Are you implicitly saying that part of 
the FBI's investigation might have revealed Government 
involvement and you could not have the Government there?
    Ambassador Swing. I do not know what their motivation was. 
I simply know, as I think we have got it on the record, that we 
did not get the kind of cooperation that would have allowed the 
FBI to conduct a credible investigation.
    Senator Ashcroft. Did the State Department feel the 
possible withdrawal of the FBI team from Haiti could be a 
political disaster for the Clinton administration?
    Ambassador Swing. I think one felt that there would 
obviously be political fall-out, but the primary reason for--
basically for pulling them out, as I recall, was simply that 
the investigation was not proceeding. It was not going 
anywhere.
    Senator Ashcroft. Was it because it was being obstructed?
    Ambassador Swing. Because it was largely being--there was 
no cooperation on the part of the Government to let it go 
forward.
    Senator Ashcroft. We continued to support a Government 
which we had installed which, when investigated regarding 
political murders which allegedly were perpetrated by the 
Government, it obstructed the investigation.
    Ambassador Swing. I called it lack of cooperation. You can 
call it obstructed. The main point is, the FBI was not able to 
complete what it was sent to do, Senator.
    Senator Ashcroft. Because of what the Government did?
    Ambassador Swing. Right, or what it failed to do, which was 
to let us conduct the interviews without the presence of the 
Government.
    Senator Ashcroft. Mr. Felder, do you have a response to 
that question, and I will restate the question. Did the State 
Department feel that the possible withdrawal of the FBI team 
from Haiti could be a political disaster for the Clinton 
administration?
    Mr. Felder. I agree with Ambassador Swing's answer that 
they perceived that there would be, certainly, some adverse 
reactions if the FBI investigation were terminated without 
coming to conclusions.
    Senator Ashcroft. But it was terminated.
    Mr. Felder. It was terminated.
    Ambassador Swing. Part of the disagreement had to do with 
Haitians, what they called their interpretation of their laws, 
and what we wanted to do, and that it did not fit with it, and 
we had some fairly senior officials from our own Department of 
Justice come down.
    Several times in June and July, as I best recall, we had a 
kind of coming together, and a kind of an agreement that the 
Government could pay for a lawyer as long as it was a lawyer of 
the person's choosing who was being interviewed, and in the 
long run that never worked, either.
    Senator Ashcroft. Was there concern that the responses--
pardon me, that the reason for the FBI's withdrawal would 
become public?
    Ambassador Swing. I just do not know. A lot of times it had 
to do with a feeling that this could be an infringement of 
Haitian sovereignty. I do not know, ultimately.
    Senator Ashcroft. Those are tough questions when you are 
installing leaders, aren't they, sovereignty?
    Ambassador Swing. Well, Senator, I do not mean in any sense 
to be disrespectful, but I think when we say that we installed 
a Government, we helped return a Government that was legally 
and fairly elected, and so in that sense I think we agree on 
that, but not installed in the sense of a Government that had 
no legitimacy. It had the legitimacy, but unfortunately it was 
abroad, in Washington.
    Senator Ashcroft. Ambassador Swing, after the FBI 
investigation was blocked and you said they were either for 
lack of cooperation or it was obstructed, but you say basically 
the same thing, the same set of facts would support either 
conclusion, and the agents were withdrawn from the island, did 
President Aristide make a commitment to provide you with any 
results of Haiti's investigation?
    Ambassador Swing. I am not aware that he did. At one time 
one of his Government lawyers said to us he was going to 
conduct his own investigation, and that he would share with us 
the results. I do not think anything ever came of that, but 
again, please do not hold me to it. I am groping back 3 years 
ago.
    Senator Ashcroft. It is OK for you to say I do not know 
here.
    Ambassador Swing. I really do not know on that.
    Senator Ashcroft. Did you ever receive such a report from 
the Government of Haiti?
    Ambassador Swing. A report on their investigation?
    Senator Ashcroft. yes.
    Ambassador Swing. Not that I am aware, sir.
    Senator Ashcroft. Ambassador Swing and Mr. Felder, either 
of you can answer first, do you think the fact that no one has 
been indicted, much less convicted, in the Bertin murder or any 
other political murder in Haiti gives any indication that the 
Aristide Government explicitly or implicitly approved the 
murders?
    Ambassador Swing. Sir, I do not know what to conclude from 
that. I do know they have a tremendous lack of capacity to 
investigate anything. If I might just go a little bit in time, 
when our troops came in on September 19, 1994, we helped the 
Government of Haiti to demobilize and disarm a 6,500 member 
army. They have no army today.
    We began with strong support from this Congress a $64 
million 5-year program to train a new Haitian police force, 
much of which, you may recall, was trained at Fort Leonard Wood 
in Missouri. We reached the 5,200 mark in February 1996, when 
they made this peaceful transfer of Presidential power from 
Aristide to Preval.
    Now, at that point, even the first recruit class, which was 
graduated in June 1995, did not yet have 1-year's experience, 
and so we are talking about a police force now that is less 
than 5 years old and, in addition, you have to give them 
specialized training, coast guard, narcotics control, customs, 
et cetera, and the investigative unit has only been in training 
since October 1995, and so we are talking about very limited 
capacities.
    I am not in any ways being apologetic for their lack of 
progress on this, but one does have to recognize----
    Senator Ashcroft. You are saying you do not know the 
reason?
    Ambassador Swing. I do not know.
    Senator Ashcroft. And what you are doing is giving 
hypotheticals of what might be reasons. It might be inadequate 
training, or not an experienced enough force yet, and those are 
potential explanations.
    Ambassador Swing. I am not saying it is the whole 
explanation, sir.
    Senator Ashcroft. Mr. Felder, do you think that the fact 
that no one has been indicted or convicted of the Bertin murder 
or any other political murder in Haiti gives any indication of 
whether the Aristide Government explicitly or implicitly 
approved of these acts?
    Mr. Felder. Senator, I share Ambassador Swing's comment 
with regard to the lack of training and preparation of the 
people that have been called upon to conduct an investigation.
    Senator Ashcroft. I know about the training situation. This 
is just a question. Do you think----
    Mr. Felder. I am going to answer, but my belief is that 
there is no appetite in the Aristide Government or in the 
Preval Government to truly get to the bottom of these cases, 
because it seems to me, and I think we know that a number of 
them were perpetrated by people associated with the palace.
    Ambassador Swing. And those are the people we mentioned 
earlier that we had been successful at least in getting removed 
from the security force, which led to our sending a large 
contingent of security guards to Haiti in September 1996.
    Senator Ashcroft. Mr. Sullivan, do you agree with Mr. 
Felder in that respect?
    Mr. Sullivan. I would make my judgment on the period where 
I was special coordinator for Haiti, which was from August 1996 
through July 1997.
    Senator Ashcroft. I know you have been sitting there hoping 
I would ask you that.
    Mr. Sullivan. But based upon that period, certainly I did 
not see the sort of enthusiasm in pursuing the investigation 
that would lead one to believe that the Preval Government was 
anxious to get to the bottom of these cases.
    Senator Ashcroft. Mr. Felder, did Minister of the Interior 
Beaubrun have a U.S. visa at the time of the Bertin murder?
    Mr. Felder. Senator, I would like to reiterate, I was not 
there when Minister Beaubrun----
    Senator Ashcroft. Do you know whether or not we suspended 
his visa if he had one?
    Mr. Felder. I do not know the answer to that question. That 
is before my time.
    Senator Ashcroft. Ambassador Swing, in reference to the FBI 
investigation, you stated before the House International 
Relations Committee in September 1996, ``I recall, it was about 
August 1995 that we were beginning to realize that the FBI 
investigation was not proceeding as we had hoped it would.''
    Do you stand by that statement, that you first began to 
realize in August 1995 the Government of Haiti, or that the FBi 
investigation was not proceeding as you hoped it would?
    Ambassador Swing. I do, sir, although we had identified 
problems at meetings we held in both June and July. It was in 
August, I think, when we began to send cables saying we're 
going to have to reassess whether this mission can go forward.
    Senator Ashcroft. And that's because of the ``lack of 
cooperation, or obstruction by another definition?''
    Ambassador Swing. That is correct.
    Senator Ashcroft. Ambassador Swing and Mr. Felder, when did 
the embassy first report to Washington after the Bertin murder, 
indicating the Government of Haiti was not cooperating 
properly, had little intention of cooperating with the FBI?
    Ambassador Swing. I don't recall. I honestly don't. I would 
have to go back in the record.
    Senator Ashcroft. Do you recall, Mr. Felder?
    Mr. Felder. Senator, I believe that those initial reports 
were filed, again, before my arrival in July. I know in August 
Ambassador Swing made reference earlier to the fact that we 
sent a cable in August, which was just weeks after my arrival, 
to that effect.
    Senator Ashcroft. Ambassador Swing, when did the FBI first 
signal it was ready to pull out of Haiti due to lack of Haitian 
cooperation?
    Ambassador Swing. I really do not recall that, sir. I just 
do not know when it was. Probably--I would guess probably in 
that summer period, because we had a number of senior visitors 
from the FBI who came down to bring that message to President 
Aristide that without more cooperation we really could not go 
forward, so I suspect it was then. I would have to go back in 
the record, to be honest with you.
    Senator Ashcroft. Ambassador Swing, you made the following 
statement before the House International Relations Committee in 
September 1996: ``The cycle of violence which erupted in mid-
August, including the broad daylight murder of two opposition 
politicians, is not unique to Haiti among societies in 
transition.
    ``What is unique in this situation is that the Haitian 
Government and our Government actually did something about it. 
We quickly recognized the threat the situation posed to the 
transition process and we moved together quickly to fix it.''
    From your testimony, Ambassador Swing, it sounds as if the 
Government of Haiti was cooperative investigating the murders 
of Leroy and Fleurival. Is that correct?
    Ambassador Swing. At that point we got very good 
cooperation. This issue, you may recall, had to do with the 
murders of the two MDN opposition politicians, Pastor Leroy and 
Mr. Fleurival, in broad daylight. We discovered--that was on 20 
August and I think already on 21 August we had sufficient 
evidence to know that members of the Presidential security unit 
were in the vicinity, if not on the scene of that murder.
    I went in to see President Aristide the following day, on 
August 22--President Preval, sorry. This was in 1996--and tell 
him that we had these suspicions and that there were real 
problems and that, in fact, having people in the president's 
security unit like that, apart from bringing them to justice, 
could pose a threat to his own security.
    We had long conversations with Washington on it, and we 
finally sent a high level delegation to Haiti, I believe it 
was--I think it must have been around August 30, and by mid-
September we had put in place some additional U.S. security 
agents from several agencies of our own Government and had 
begun working on a scenario with the Government to have these 
persons removed from the palace security unit. That again is 
separate from some of the earlier cases we discussed, such as 
Madam Bertin.
    Senator Ashcroft. What evidence did you have the 
individuals were at the scene of the murders?
    Ambassador Swing. I think there was some monitoring of 
radio messages that we learned about. I believe ultimately we 
got some shell casings that showed that weapon belonging to a 
member of what was called the PSU was involved. I have 
forgotten exactly.
    Senator Ashcroft. That would be more than being present. It 
would indicate a potential presence--it would indicate that 
some of the resources provided to the security unit had been 
used in the murder.
    Ambassador Swing. We were concerned about that, yes.
    Senator Ashcroft. It is a matter for concern.
    Ambassador Swing. We ended up sending about 30 additional 
U.S. security people in there to try to weed out these elements 
and begin training the people who were there, and some new 
people.
    Senator Ashcroft. Mr. Sullivan, do you think the Government 
of Haiti was cooperative in the Leroy or the Fleurival cases?
    Mr. Sullivan. I think they were cooperative in the sense 
of, as we brought the matter to their attention, and as we 
urged them to remove people, that we had information they were 
responsible, that they did act on those recommendations, and 
with respect to the investigation it was not as fulsome, the 
cooperation, but the removal of people who literally were 
identified proceeded.
    As I recall, the two heads of the unit were removed within 
the first week or two.
    Senator Ashcroft. I guess I would continue the question by 
saying, did President Preval indicate a real interest in 
apprehending and punishing the perpetrators of the crime?
    Mr. Sullivan. Some of this happened in a period after I had 
left the position, but certainly at a certain point there was 
an individual named Eddie Arbrouet who was identified as being 
present at the scene and probably having fired a weapon, and he 
on one occasion engaged in a shoot-out with the Haitian police 
and on another occasion was engaged in threatening the head of 
the Haitian police as he pursued him, and as his police unit 
pursued him, and then subsequently, I understand within the 
past year, and after I have left the responsibility, was killed 
in a shoot-out with the police.
    Senator Ashcroft. Mr. Sullivan, did senior officials in the 
Government of Haiti attempt to obstruct the investigation in 
any way that you know?
    Mr. Sullivan. I think there were instances in which the 
cooperation at all levels was certainly not--was not there, and 
typically if we felt it was not there we would raise it to 
their attention.
    Senator Ashcroft. So you would say they did not really show 
a real interest in getting to the bottom of it?
    Mr. Sullivan. I think the interest was in dealing with the 
immediate situation of, and the willingness to respond to the 
situation that yes, people in the palace security had been 
involved and those people should be removed, but whether the 
investigation should go forward and what should be done to 
prosecute people, certainly the enthusiasm was not as great.
    Senator Ashcroft. So there was a lack of enthusiasm. Do you 
know of any obstruction?
    Mr. Sullivan. I think there were instances in which 
particularly I can recall lower level officials had engaged in 
obstruction and, typically, those, whenever we learned of such, 
we brought it to higher level attention and on most occasions 
we got at least some response.
    Senator Ashcroft. Mr. Sullivan, how many investigators did 
the Government of Haiti assign to investigate these murders?
    Mr. Sullivan. I am sorry, I do not know the answer to that.
    Senator Ashcroft. Do you know whether any of them quit out 
of fear for their life?
    Mr. Sullivan. I do not know the answer to that question.
    Senator Ashcroft. Mr. Sullivan, what were the results of 
the Haitian Government's investigation? Was anyone ever 
indicted, prosecuted, or sentenced for the murders of Leroy and 
Fleurival?
    Mr. Sullivan. Certainly not at the period where I left the 
position nobody had indicated. I think Arbrouet, I believe, was 
indicted prior to my departure, and a warrant was put out for 
his arrest and then, subsequent to my departure, he was killed 
in a shoot-out with the police.
    Senator Ashcroft. Would you characterize, then, the Preval 
administration's conduct pursuant to these deaths as 
cooperating with the investigations?
    Mr. Sullivan. I would characterize the cooperation as a 
cooperation in dealing with the immediate involvement of palace 
security units and removing them from their positions.
    Senator Ashcroft. That is not really what I have in mind. I 
can understand why they might be willing to say, OK, you lose 
your job, but that is not cooperating with the investigation of 
a murder, and I can understand how you would want to say how 
they cooperated to think, well, maybe these guys are not the 
ones that we ought to keep around because there could be 
liabilities here, but beyond that, you did not see cooperation 
in the investigation?
    Mr. Sullivan. I saw some cooperation. It was not everything 
we would have wished, but typically, as we would raise issues 
there would be some followup and, for instance, that resulted 
in the indictment of Arbrouet certainly at the time that I was 
there in the active pursuit of Arbrouet as a likely individual 
involved in the scene.
    Senator Ashcroft. So we have very limited resources being 
applied to an investigation which yields no convictions and 
reports of senior security officials being implicated in the 
murder.
    Ambassador Swing, do you characterize the conduct of the 
Preval administration as cooperative in that setting?
    Ambassador Swing. I agree with my colleague, Mr. Sullivan, 
his characterization that more cooperation in the support of 
the Leroy-Fleurival murders would have been wished, although 
there was some progress there in the ultimate. They were trying 
to arrest Arbrouet and actually ended up killing him, but he 
was considered to be one of the people who might well hav done 
the murder, and we are still waiting, I believe, on the FBI lab 
tests on the shell casings.
    Senator Ashcroft. How long ago was the FBI given the shell 
casings to conduct the lab tests?
    Ambassador Swing. A long time ago. It must have been--I do 
not know. I do not know the exact period, but it has been a 
considerable while.
    Senator Ashcroft. Several years?
    Ambassador Swing. It could not have been several years. The 
murders were less than several years ago. But it certainly 
would have been, I would guess, in late 1996, early 1997.
    I do not know if you remember, Bob. I think that is about 
right.
    Senator Ashcroft. Ambassador Swing, where did the murder of 
Michel Gonzalez occur?
    Ambassador Swing. Michel Gonzalez was murdered on his way 
home on basically the airport road, which is now called the 
Tabar Road, which runs passed President Aristide's house. He 
was killed in his car in front of his daughter as he was 
waiting on the gate to be opened to the pathway that led to his 
house.
    He was murdered, as far as we know, by people on motor 
cycles who pulled guns and killed him on the spot.
    Senator Ashcroft. Were members of Aristide's security 
detail implicated in the murder?
    Ambassador Swing. I believe there is some evidence that 
would link, again might be linked back to palace security 
units. There is a question, and I do not know how much of this 
can be gone into in an open forum. I believe there is the issue 
that the FBI was working on as to which of these murders might 
be either directly or indirectly linked ballistically to the 
Bertin murder, and I believe at least one official of the 
security unit at the palace was dismissed and perhaps could 
have been three. One, two, three--I forgot how many were 
actually dismissed.
    Senator Ashcroft. Are we coming to the conclusion that the 
penalty for murder in Haiti is that you lose a cushy Government 
job?
    Ambassador Swing. Well, that was certainly the immediate 
consequence, but then one was awaiting the outcome of the 
investigation to take it to the next step, which would have 
been to bring them to court and send them to jail.
    Senator Ashcroft. Ambassador Swing, did the murder have 
anything to do with Mr. Gonzalez' refusal to vacate property 
that Aristide wanted?
    Ambassador Swing. That is a hypothesis that was put forward 
fairly soon after the murder. All I can tell you is I do not 
know the answer to that. I can only tell you that Mr. 
Gonzalez--and this I think the FBI has found out--was not the 
owner of the property but the tenant, and so I do not know what 
that does to that theory. It is true he was a close neighbor of 
former President Aristide.
    Senator Ashcroft. Did the embassy ever inquire if the 
Gonzalez land he had been occupying had been added to the 
Aristide adjacent compound?
    Ambassador Swing. As far as I know it has not been, but I 
do not know the answer to that question.
    Senator Ashcroft. Do you think, Ambassador Swing, that a 
murder against a prominent Haitian citizen carried out in front 
of President Aristide's home like that might have happened 
without Aristide's consent?
    Ambassador Swing. Sir, I do not know. I have no way of 
knowing.
    Senator Ashcroft. Is there anything any of you would like 
to tell me about these situations? I have asked a lot of 
questions. These are pretty pointed, tough questions. Is there 
some way in which you feel I have unfairly, with my questions, 
mischaracterized the activities or situation?
    Ambassador Swing. I just feel badly that I am not able to 
help you more on some of these simply because I do not know 
more. I try to go back in preparation for this hearing in my 
memory to recall all of these, and I know more or less now the 
chronological sequence.
    They began basically in February 1995. There was a series 
of five. There were a couple of other murders in March and then 
the one that has gotten most of the attention, the well-known 
lawyer, Marie de Roche Bertin on March 28, and then there was 
2-month lapse and there were a series of three or four or five 
other murders in May, including Michel Gonzalez. There was a 
spate of murders in June 1995, and then it moves all the way 
forward to October and November.
    There was one each in October and November, and basically 
then there was nothing more until the Leroy-Fleurival killing 
in August 1996, so that basically is the 21 cases that have to 
be looked at and have to be investigated and gotten to the 
bottom of.
    Some of them were former Haitian military officers, at 
least two or three of them. Some of them were former members of 
what was called the FRAP organization, which was an extremist 
reactionary group that was kind of like a wing of the Haitian 
army under Cedras. Some of them were simple business people. 
One man was an auto parts owner.
    We have tried to look at it from all angles to see what 
kinds of trends or tendencies there might be there, and it 
remains a very key element of our policy to try to get to the 
bottom of these and to try to convince the Government that 
these murders need to be solved and they need to be solved 
quickly.
    Mr. Felder. Senator, may I add something?
    Senator Ashcroft. Yes. My invitation was to each and all of 
you.
    Mr. Felder. I would like to say that it is my impression 
and my view that the cooperation of the Government in the 
investigations has not been adequate.
    I believe that it is critically important in Haiti for the 
message to be understood throughout the country that the era of 
impunity is over, and I do not believe that the Government has 
fully grasped the importance of transmitting that message to 
the population by fully investigating these cases. There have 
been some gestures toward investigation, but they have not been 
adequate.
    I would like to say, however, that I do not believe that 
the wrong message has been transmitted to the Haitian people 
and to the authorities because of the fact that we have not 
been successful and they have not been successful in bringing 
people to justice for these crimes.
    Since August 1996 there have been no murders of which I am 
aware that we could reasonably describe as political murders, 
and in a society like Haiti----
    Senator Ashcroft. Were they all revenge murders?
    Mr. Felder. No, I did not say that.
    Senator Ashcroft. Because earlier we had official State 
Department characterization of murders as being revenge- 
motivated, and I was chiding you a little bit.
    Mr. Felder. Senator, I understand your concern. I share it. 
I would like to say that my own view is that the great bulk of 
these murders were revenge-motivated. I do believe that, but I 
believe there distinctly were some political murders mixed in 
with them, but I think that there have been or there has been a 
very low level of serious political violence in Haiti over the 
past 2 years, and I think that that is one of the positive 
elements in the Haitian equation right now.
    Senator Ashcroft. Mr. Sullivan.
    Mr. Sullivan. Mr. Chairman, I guess I would like to 
identify myself with my colleague's statements that it is 
indeed----
    Senator Ashcroft. Which of them?
    Mr. Sullivan. Well, both, but particularly the most recent 
comment by Mr. Felder.
    Senator Ashcroft. You could run for the Senate.
    Mr. Sullivan. Indeed, as Ambassador Swing used to say, 
everything is broken in Haiti, and the justice system is one of 
the many things that is broken, but I think one of the things 
that has been the most broken is the culture of political 
violence and the culture of impunity, and I think the efforts 
that we made, both the administration and the Congress, because 
in much of this we worked very closely together to send the 
message that this could not be a situation that could be 
tolerated by our Government.
    It could not be--a level of political violence or political 
violence in general would not be tolerated, and that impunity 
could not be tolerated. It may or may not--I hope it does still 
produce results in those specific cases, but I do think it has 
helped transmit the message that no, it is not acceptable, 
because we, the United States, both the administration and the 
Congress, will be all over you in every case where it happens, 
and it is just not something that we can provide support to. It 
is not----
    Senator Ashcroft. Are you recommending we withdraw support?
    Mr. Sullivan. Well, we have at various times worked with 
the Congress in suspending certain amounts of support to get 
certain amounts of cooperation.
    Senator Ashcroft. I will not argue about what kinds of 
cooperation, but I think we have had a great deal of testimony 
that we were absent cooperation from the Haitians related to 
the most fundamental of all rights, the right to remain alive 
and to be involved in politics. I mean, that is very important 
to me, because I have made my life that way.
    At one point our continuing support seems to undermine the 
message which you say we were projecting so effectively, and I 
again will give you the last word, obviously, because I keep 
interrupting.
    Mr. Sullivan. I think I have made my point that yes, 
indeed, we did work with the Congress to specifically transmit 
the message and link our assistance to progress in removing 
people who had involvement with political violence.
    Senator Ashcroft. Well, let me thank you, and there may be 
other nominees. Yes, I see there are. Some of them have endured 
this and they would be available for me to recall them to the 
table, I am sure, but we will not do that.
    I want to thank all of you for appearing today. I thank all 
of you for being willing to serve your country. I am 
particularly concerned about the United States projecting and 
otherwise participating in settings where people lose their 
lives and we maintain a very serious level of support for 
sometimes--simply maintain a Government where there is an 
absence of cooperation.
    And I would be loath to think that I participated in the 
confirmation of individuals who would be involved in some 
effort where the United States did not clearly demand and with 
every capability available to it insist on a respect for the 
fundamental right to avoid assassination for one's political 
views.
    So I thank you all, each of you, and in each of your 
respective posts if you are indeed confirmed by the Senate, it 
is my hope that you will advance the freedoms that America 
stands for around the world, that you will advance them in 
these specific countries to which you are assigned, and that 
you will be relentless in your pursuit of those objectives.
    I think the United States, as I started the hearing 
commending the President for having gone to Africa, we have a 
tremendous opportunity to influence and assist people in 
Africa. I will be submitting some written questions regarding 
your assignments as it relates to Africa. The record will 
remain open for questions and additional comments until 
Thursday, July 30.
    I think I have given each of you the chance to make the 
remarks you wish to make, and I thank you for coming, and I 
thank all of you for your attention.
    The meeting is adjourned.
    [Whereupon, at 6:55 p.m., the committee adjourned, subject 
to the call of the Chair.]



                            A P P E N D I X

                              ----------                              

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate Joseph Sulllivan testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

Responses of Ambassador-Designate Joseph Sullivan to Question asked by 
                             Senator Helms
    Question. What plans does the Administration have to sell C-130 
aircraft to Angola?
    Answer. A U.S. private defense contractor, Lockheed Martin, has 
expressed an interest in selling the Angolan Air Force six used C-130K 
aircraft currently in the inventory of the United Kingdom's Royal Air 
Force. The aircraft in question are over 30 years old. Before this sale 
can take place, however, Lockheed Martin would need to apply for a 
license to export Significant Military Equipment. as required under 
U.S. law. The company has not yet made this application.
    A U.S. decision to suspend military-to-military cooperation with 
the Angolans remains in effect. This policy was implemented in November 
1997 to demonstrate U.S. opposition to the presence of Angolan troops 
in neighboring Congo (Brazzaville) and does not permit sales of any 
type of military equipment.

                               __________

Responses of Ambassador-Designate Joseph Sullivan to Written Questions 
                 by Senator Helms and Senator Ashcroft
    Question 1. What sanctions had been imposed against UNITA prior to 
June 1998? Please outline the new sanctions imposed by UN Security 
Council Resolution 1173 of June 12, 1998.
    Answer. In September 1993, the UN imposed sanctions prohibiting the 
sale or supply of arms and related materiel, including weapons and 
ammunition, military vehicles and equipment, and of petroleum and 
petroleum products to UNITA. In October 1997, additional sanctions were 
imposed. These included:

  <bullet> a restriction against the entry of senior UNITA officials 
        and their adult family members into any country;
  <bullet> suspension or cancellation of travel documents, visas, and 
        residence permits for senior UNITA officials and adult family 
        members;
  <bullet> closure of UNITA's overseas offices; and
  <bullet> restrictions against any flights into and out of UNITA-held 
        territory, and the provision of services to aircraft engaged in 
        such flights.

    On July 1, a further set of sanctions went into effect, as a result 
of UN Security Council Resolution 1173. These include:

  <bullet> a freeze on the bank accounts of UNITA and those individuals 
        designated as senior UNITA officials;
  <bullet> a ban on the import of diamonds from Angola, unless 
        accompanied by an Angolan Government Certificate of Origin;
  <bullet> a ban on the sale of mining equipment to UNITA; and
  <bullet> a ban on sales of motor vehicles and water craft to UNITA.
    Question 2. To what degree, in your view, has UNITA demobilized its 
forces? Where are its principal deployments today? What territory does 
it control?
    Answer. UNITA reported that it was fully demobilized and was 
certified as demilitarized by the UN Observer Mission in Angola (MONUA) 
and by the Joint Commission in March 1998. However, in June, MONUA 
acknowledged--and UNITA has subsequently admitted--that UNITA continues 
to have forces under its control. Estimates of current UNITA strength 
range from 15,000 to as many as 40,000 troops. In addition, there are 
additional numbers of armed groups which remain loyal to UNITA but 
whose links to UNITA's central command are more tenuous. UNITA has 
conducted military attacks in at least 10 of the country's 18 provinces 
and is believed to have significant numbers of forces in the country's 
eastern provinces.
    Question 3. How effectively can sanctions against UNITA be 
enforced? Please discuss UNITA's potential for obtaining supplies and 
exporting diamonds by air and by smuggling into neighboring states.
    Answer. The effectiveness of any UN sanctions depends on the extent 
to which UN member states are willing to enforce them. In Angola's 
case, the sanctions are against a political movement, rather than a 
state, and as such their effectiveness depends also on the ability of 
the Angolan government to police its extensive borders with the former 
Zaire, Namibia, Zambia, and the Congo. We believe that notwithstanding 
the sanctions of 1993, UNITA has been able to re-supply itself with 
arms and ammunition. The ban on flights into UNITA territory that went 
into effect last October, has made it more difficult, we believe, for 
UNITA to receive supplies by air. In January 1998, Angolan authorities 
intercepted an airplane bringing mining equipment to UNITA. Members of 
the crew remain in custody. As for the export of diamonds, the ease 
with which they can be smuggled out of the country will considerably 
complicate enforcement of the latest sanctions. Buyers of rough Angolan 
diamonds will now be required to obtain a certificate of origin from 
appropriate Angolan government authorities in order not to be in 
violation of the July 1, 1998 UN sanctions.
    Question 4. The State Department's 1997 Human Rights Report on 
Angola lists numerous serious human rights violations on the part of 
Angola's MPLA-dominated government. These include a large number of 
violent crimes committed by state security forces, credible reports 
that the police commit torture, routinely beat detainees in prisons, 
arbitrary arrest and detention, and the routine use of the security 
forces to serve the interests of the MPLA. According to the State 
Department, the citizens of Angola ``have no effective means to change 
their government.'' In these circumstances, do you believe that UNITA 
will be able to survive as an opposition political party in Angola if 
it disarms and completes implementation of the Lusaka Protocol? Would 
it be free to participate in the political process? Please explain.
    Answer. The State Department's 1997 Human Rights Report notes that 
both Angolan security forces and UNITA forces were responsible for 
political and extra-judicial killings, rape, intimidation of civilians, 
and other human rights abuses. The 1991 Bicesse Accords attempted to 
restore normalcy to Angola, and end the bitter civil war through a 
negotiated agreement. In Angola's 1992 elections--the first since 
independence--UNITA won 34 percent of the vote and Dr. Savimbi over 40 
percent of the Presidential vote. Regrettably, UNITA rejected the 
election results and it was only in April 1997 that its 70 elected 
Deputies took their seats in the National Assembly as part of a new 
understanding reached in the November 1994 Lusaka Protocol. After more 
than twenty years of conflict, the way forward for the people of Angola 
is through a functioning democracy in which political parties are free 
to compete for electoral office. The International Republican Institute 
and the National Democratic Institute have been active in helping to 
train parliamentarians from both the MPLA and UNITA on legislative 
tradecraft, drafting a new constitution, effective parliamentary 
debate, accountability of government ministers and other skills 
designed to enhance the effectiveness of Angola's elected officials.
    The MPLA-led government still has a considerable way to go in 
creating a truly open society. The U.S. has been open in criticizing 
the government for its shortcomings in this regard and, at the same 
time, continues to press UNITA to assume its role as a robust leader of 
the opposition. We have assured Dr. Savimbi that we will resolutely 
defend UNITA's right to participate freely in the political arena. An 
Angola at peace will need a party like UNITA to function as a strong 
and effective opposition.
    Question 5. The Department's 1997 Human Rights Report notes that 
the MPLA government maintains extensive state security forces. Please 
describe these forces. Do you regard them as an impediment to 
democratization in Angola? Please explain.
    Answer. Angola's security forces include the Angolan Armed Forces 
(FAA) consisting of approximately 90,000 men, and the Angolan National 
Police (ANP) consisting of some 60,000 personnel. The ANP includes 
para-military Rapid Intervention Police (PIR) numbering about 8,000 
men, used to provide VIP escort and reinforce ANP units as needed. The 
PIR were confined to barracks under the Lusaka Protocol until October 
1997, but are no longer subject to this restriction. About 12,000 UNITA 
troops, including nine UNITA generals, have been integrated into the 
FAA under the Lusaka Protocol.
    The UN Observer Mission in Angola (MONUA) has uncovered frequent 
instances in which ANP members acted heavy-handedly in seeking to 
establish national government administration in former UNITA 
strongholds. The State Department and MONUA have condemned ANP abuses 
against civilians and reminded the Angolan government of its obligation 
to facilitate, rather than thwart, the reconciliation process.
    The U.S. and the UN Security Council continue to urge the Angolan 
government to exercise more effective control over the ANP in an effort 
to stem police abuses, and there has been some positive response to 
these urgings.
    I believe that in order to advance democratization and 
reconciliation in Angola, it is essential that police abuses are ended, 
and cooperation be forthcoming from both sides in the extension of 
state administration throughout the country.
    Question 6. What is the situation in Angola with respect to freedom 
of the press? What actions, if any, have been taken by U.S. diplomats 
to encourage the Angolan government to respect this freedom?
    Answer. Although Angola's constitution provides for freedom of the 
press, the Angolan government in practice does not tolerate media 
criticism and justifies its tight control over the media on national 
security grounds. It recently withdrew television coverage of National 
Assembly debate on the budget following unfavorable coverage of 
government ministers being criticized by an MPLA parliamentarian for 
not allocating more on social programs. The government runs Angola's 
only television station and its one daily newspaper. The Voice of 
America airs a highly popular 30-minute program each day that provides 
an alternative news and information source to Angola's major 
government-run radio station. Television programming by the BBC and CNN 
is accessible in Angola via cable, though the government prohibits 
direct retransmission. Journalists at the few weeklies and five private 
radio stations exercise self-censorship. While newsletters critical of 
the country's low socioeconomic development have been allowed to 
operate the knowledge that the editor of one such publication was 
killed in 1995 after publishing an article on government corruption 
likely acts as a restraint against publication of overly provocative 
material. The U.S. has clearly identified restrictions on freedom of 
the press in its annual Human Rights Report on Angola, and actively 
supports the Voice of America's Angola-specific democracy programs.
    Question 7. UNITA leader reportedly fears assassination if he were 
to take up residence in Luanda and assume the role of a civilian 
opposition leader. In your view, are such fears justified? How could 
Savimbi's security best be assured?
    Answer. Under the terms of an agreement with the Government of 
Angola, Dr. Savimbi is allowed to retain a personal security force 
consisting of 400 men who are to be integrated into the Angolan 
National Police. 65 of these provide for Savimbi's security in Luanda 
and the remainder is designated to protect him at his residences 
elsewhere in the country. Dr. Savimbi has not yet identified the 400 
men for his security force. While Dr. Savimbi alone can judge whether 
he feels secure in Luanda, I believe that the UNITA-Government of 
Angola agreement allowing him to retain a sizable security detail was a 
positive step in dealing with Dr. Savimbi's security concerns.
    Question 8. What is UNITA's human rights record?
    Answer. The poor human rights situation in Angola is a direct 
reflection of the country's experience with over two decades of civil 
war. With a breakdown of the country's judicial system and an ongoing 
contest for control of large sections of the country, both official 
security forces and UNITA are guilty of committing human rights abuses. 
While it is often difficult to categorically identify perpetrators of 
gross human rights violations, suspected UNITA forces have been 
implicated by the UN Observer Mission in Angola (MONUA) in attacking 
and burning villages, detaining individuals, engaging in acts of 
banditry, harassing people at roadblocks, and other acts of 
intimidation. UNITA also has conducted extra-judicial killings, forced 
conscription of able-bodied men, and torture, and is responsible for 
disappearances. The U.S. has also had reports that Savimbi detains 
family members of UNITA officials in areas under his control as 
insurance against defections.
    Answer. In addition to restricting freedom of movement, UNITA under 
Savimbi also restricts freedom of speech, assembly, and association. It 
also has refused to cooperate with UN human rights monitors 
investigating allegations of human rights violations.
    Question 9. The press has reported rumors that Angolan President 
Eduardo dos Santos is seriously ill. What information do you have on 
the president's health? What effect would his death have on prospects 
for the completion of the peace process in Angola?
    Answer. The U.S. is aware of periodic speculation about the 
declining health of President dos Santos but has no basis on which to 
attest to the credence of such reports. President dos Santos continues 
to receive foreign dignitaries, including US Secretary of State 
Albright in December 1997, and travels abroad quite regularly. Were dos 
Santos to die, Angola's constitution provides for the President of the 
National Assembly to replace him. The U.S. has no reason to belie that 
a successor to President dos Santos would renege on the government's 
commitment to complete implementation of the peace process.
    Question 10. What is your estimate of the probability that civil 
war will resume in Angola over the next several months? Have you seen 
indications that the MPLA might be planning an offensive against UNITA? 
Has UNITA made preparations for an offensive of its own?
    Answer. The almost four years since the signing of the Lusaka 
Protocol in November 1994 has provided Angola with its longest period 
of peace since Angola's struggle for liberation in 1961. More than two 
decades of civil war following independence in 1975 have left the 
country deeply divided, and left a legacy of human and material 
devastation that will take generations to overcome. Although the peace 
process has faltered in recent months, we should not forget the 
tremendous strides that UNITA and the government have made since 1994 
in moving Angola toward peace. As tensions began to build in May, both 
UNITA and the government began to mobilize, and both sides have engaged 
in forced conscription in recent weeks. Yet, we believe that neither 
side has an interest in returning to war, and the Angolan people 
themselves are tired after decades of conflict. We believe that with 
the continued involvement and support of the international community, 
Angola will be able to prolong the peace and begin the urgent task of 
rebuilding a battered society.
    Question 11. In your view, how effectively has the United Nations 
peacekeeping force in Angola performed? What are its principal 
achievements? What are the principal obstacles it has faced?
    Answer. The United Nations peacekeeping force has been very 
effective in investigating cease-fire violations, supporting the 
humanitarian assistance efforts of U.S. and international NGO's, and 
overseeing the registration, quartering, and demobilization of over 
60,000 UNITA fighters. It continues to investigate reports of violence, 
whether committed by UNITA or by members of the Angolan National 
Police. Its principal achievement has been in helping to facilitate 
effective implementation of the Lusaka Protocol, including the all-
important task of restoring government control to areas of the country 
formerly under UNITA control. In so doing, it has helped to create 
conditions for Angola to experience almost four years of peace.
    Answer. UN peace keepers have encountered several obstacles in 
carrying out their mandate. Problems include failure of the Government 
to keep MONUA informed of all its troop movements (as required under 
the Lusaka Protocol); frequent attempts by UNITA, in particular, to 
deny MONUA access to UNITA-held territory to conduct investigations; 
attacks on MONUA patrols; and the failure of UNITA to demobilize.
    Question 12. The Organization of African Unity (OAU) recently voted 
to ease African observance of the United Nations sanctions against 
Libya. How did Angola vote on that resolution? What has been the 
Administration's reaction to the OAU vote? Has this reaction been 
communicated directly to the Angolan regime?
    Answer. The OAU decision to ease compliance with United Nations 
sanctions on Libya was a consensus decision taken at a recent OAU 
meeting. No formal vote by Angola or other member states was required. 
The administration is deeply concerned by the OAU resolution, and has 
informed the government of Angola and those of other OAU member states 
of the importance of maintaining the integrity of UN resolutions. The 
recent OAU action, in fact, makes it less, rather than more, likely 
that the Lockerbie matter will be resolved quickly. As with other 
African states, we have also informed the government of Angola that any 
violation of UN sanctions against Libya will be referred to the 
Sanctions Committee of the UN Security Council for appropriate action.
    Question 13. What is the overall status of the Angolan economy 
today? Are there indications that the improved security situation, 
however tenuous, has begun to spark economic recovery?
    Answer. In 1996 and 1997 there were some positive aspects to the 
performance of Angola's national economy. Economic growth in 1996 was 
estimated at 8.6% and was expected to increase to nearly 9.5% in 1997. 
This economic growth was largely due to increased oil production and 
high world prices for crude. Despite additional oil production 
increases, growth is expected to decline sharply in 1998 due to the 
reduction in world oil prices.
    Inflation dropped from 84% per month in mid-1996 to levels 
averaging below 10% per month by the end of 1996, although they have 
subsequently risen. The gap between official and parallel exchange 
rates has narrowed. To reduce inflation and narrow the exchange rate 
gap, the Government stopped printing money to finance its expenditures. 
and ceased paying salaries and bills, thus building arrears. Although 
not a sustainable practice, it has continued since early 1997.
    There has been some progress in other areas. To improve 
transparency, an oil account has been established to record the 
disposition of all oil export receipts and all claims that arise as a 
result of the Government's use of future export receipts to guarantee 
its borrowing.
    Much remains unchanged. Government arrears continue to mount, and 
salaries have remained unpaid for months at a time. When portions of 
them are eventually paid, much of their value has already been eroded 
by inflation. At an estimated 18% of GDP, the budget deficit remains 
high. There has been little or no change in expenditure patterns which 
favor the military over the badly needed social sector. Changes have 
been made in import licensing and in procedures for acquiring foreign 
exchange, which strengthen Government control over illicit exchange 
profiteering. A complicated price regime remains in place which limits 
the flow of imported items to the interior of the country.
    Despite very dangerous conditions on most highways in Angola, late 
1997 and early 1998 brought distinct signs of increased economic 
activity. Much of this was evident from significantly increased truck 
traffic. A substantial trade in South African products is now carried 
on, most of the transactions taking place initially at the Namibian 
border, with trucks transporting a wide range of products to Luanda and 
other major cities. Further, small entrepreneurs started up operations 
purchasing local agricultural production in the countryside as much as 
100 kilometers from Luanda to bring products for sale in Luanda's 
markets. Increased stability and the removal of barriers to land 
transportation would bring immediate growth to the Angolan agricultural 
sector, the area most able to absorb the significant excess in labor 
supply.
    Question 14. Please describe the Angolan oil sector. What is the 
current level of production? What are the prospects for increased 
production? What firms are involved in producing and exporting oil from 
Angola?
    Answer. The Angolan offshore oil sector is currently one of the 
most rapidly growing in the world. Major oil firms are engaged in major 
exploration efforts, and are planning multi-billion dollar investments 
to bring recently discovered oil fields into production. In recent 
years when the Angolan government opens bidding for new oil 
concessions, as it did in May of this year for the first of the ultra-
deep water blocks (water depth from 1000 to 2000 meters), the 
competition from major oil firms has been intense. Oil firms indicate 
that the initial results from seismographic studies off major areas of 
the Angolan coast show very promising geological structures that merit 
the expense of acquiring concessions and initiating exploratory 
drilling. Angola currently produces more than 725,000 barrels per day 
(bpd), and that rate is expected to reach 1 million bpd by the end of 
2000. Recent finds in northern deep water blocks by Chevron, Exxon, and 
ELF-Acquataine have led industry experts to predict that current 
production levels will double in five to seven years, and that Angolan 
oil reserves may exceed those of Nigeria. Major U.S. oil firms now 
producing and exporting oil from Angola are Chevron and Texaco. Exxon, 
Amoco, and Mobil all have concessions in which they are currently 
conducting exploratory seismographic and drilling work. Additional U.S. 
firms indicated their intention to submit bids in the latest concession 
round.
    Question 15. According to the FY1999 Congressional Presentation of 
the U.S. Agency for International Development, ``the U.S. gets nearly 
7% of its petroleum from Angola; this level is expected to increase to 
15% within ten years.'' Why is our reliance on oil from Angola 
increasing?
    Answer. Oil from Angola is a relatively light low-sulphur oil which 
meets the needs of U.S. east coast refineries. Transportation costs 
from Angola to the east coast of the U.S. are significantly less than 
that of oil from the Mideast, and the production of African offshore 
oil has not been significantly affected even during periods of 
political instability in countries where the oil is produced. Therefore 
increased Angolan production is likely to also be purchased by U.S. 
importers. Angola currently exports nearly 75% of its oil to the U.S.
    Question 16. In your view, what priority should Angola's oil wealth 
have in the making of U.S. policy toward Angola? Has Angola's oil 
restrained U.S. policy makers in their advocacy of democracy and 
respect for human rights in Angola?
    Answer. Ensuring fair access for U.S. firms for investment and 
export opportunities in the Angolan economy is one of the key tenets of 
our policy toward Angola. This includes the oil industry, and 
recognizes the strategic U.S. need for access to new fuel sources in 
coming decades. However, we have an absolute commitment toward 
achieving a peaceful and stable solution to Angola's more than three 
decades of violence and civil war. The need to stimulate democratic 
reform and international standards of human rights is a key element of 
our support for a stable and peaceful Angola, which is a necessity to 
permit the rebuilding of the Angolan economy. An economically vibrant 
Angola will be an increasingly valuable trading partner with multiple 
opportunities for investment and export for U.S. firms.
    Question 17. The wide dispersal of land mines in Angola is a 
significant hindrance to the recovery of its rural areas. What are the 
current estimates of the number of land mines remaining in Angola? What 
efforts are underway to remove these mines? What assistance is being 
offered by the United States?
    Answer. Recent reports suggest that there are 5 to 10 million 
planted land mines in Angola. While major arteries have been cleared, 
and large concentrations of mines demarcated, the location and removal 
of mines will remain a critical priority for Angola for years to come. 
U.S. assistance delivered this year (some of it authorized in previous 
years) will be approximately $5 million, much of it dedicated to 
demarcation and awareness training programs which have a significant 
dollar-for-dollar effect. The recent growth in levels of armed activity 
in a number of provinces has also brought an increasing number of 
remaining incidents. Mines have been laid by UNITA to limit access to 
regions of the country that they control, and also as an element in 
ambushes carried out against vehicles.
    Question 18. South African firms have been showing a strong 
interest in Angola's minerals and in other sectors of the Angolan 
economy. What contribution do you expect that South Africa will make to 
Angola's economic recovery? Do South Africa's economic interests in 
Angola compete with those of the United States, or are they 
complementary?
    Answer. South Africa is expected to be a major supplier of capital 
to Angola, and also a significant provider of consumer goods, and 
intermediate and finished products. South African commercial networks 
are currently active in South Africa and likely to increase their 
market share as the economy grows. However, these South African firms 
often distribute American products. South African-owned firms are the 
sole distributors in Angola for Caterpillar equipment, and for Xerox 
products, and are expected to hold the management contract for Coca 
Cola's new multi-million dollar production and distribution facilities. 
In these sectors of the economy the significant South African presence 
appears likely to assist U.S. export sales.
    South African firms do not have a significant presence in the oil 
sector, where the bulk of current U.S. commercial and investment 
interests are concentrated. However, De Beers is one of the key players 
in commercializing and producing diamonds, and will be an extremely 
active competitor for American firms in this sector. Smaller South 
African firms and consultants are also active in the diamond sector. 
When security considerationspermit resumed mining activity for other 
minerals, South African firms are also likely to play important roles.
    Question 19. What is the current status of Angola's diamond 
industry? What portion of the diamond rich area is in UNITA hands? What 
progress has been made in restoring diamond production?
    Answer. We have no firm information on current production levels of 
Angolan diamonds nor on the proportions of that production controlled 
by UNITA and by the Government. There is some speculation that the most 
easily accessible alluvial diamond deposits in the Cuango River valley 
in Lunda Norte Province had already begun to play out when UNITA gave 
up that area at the beginning of the year. The Government now controls 
that portion of the country, at least nominally, but a number of recent 
clashes and attacks have taken place there. We understand that new 
diamond workings are being developed by UNITA in other parts of the 
country, including the Cuanza River valley in central Angola, and areas 
in Cuando Cubango Province but have no information about production 
levels. There continues to be some activity in the capital-intensive 
development of several of the most promising kimberlite pipes, all in 
areas of Government control, but current levels of insecurity in the 
northeast will likely slow down the pace of these projects.
    Question 20. Please discuss the progress of Angola's economic 
reform program. In your view, is the MPLA, which was once a Marxist 
movement, firmly committed to free market principles?
    Answer. The government's current economic management team has 
remained in place since June, 1996. The team has announced a number of 
fairly significant economic reform measures, which, if fully 
implemented, the IMF and the IBRD believe could provide the framework 
for launching a comprehensive structural adjustment program which the 
Fund and the Bank could conceivably support. An IMF mission visited 
Angola in May, and proposed a flexible, post-conflict adjustment model 
as the basis for a ``shadow'' agreement between Angola and the IMF. The 
mission had productive discussions at ministerial and technical levels, 
a significant departure from earlier visits. The Angolan Finance 
Minister is expected to visit Washington next month for follow-on 
consultations with the IMF.
    The MPLA has abandoned its Marxist rhetoric, and key leaders do 
appear to understand the necessity of completing transition to a free-
market economy. However, implementation of this transition will bring 
substantial changes for many in Angola's political and economic elite, 
increasing the difficulties faced by the economic team in their 
attempts to carry the process out.
    Question 21. What is the extent of corruption in Angola? To what 
degree does corruption hinder U.S. investment?
    Answer. Most observers, in and out of Angola, would agree that 
corruption and the perception of corruption, has been a critical burden 
on the economy. The full extent of corruption is unknown, but 
significant amounts of oil revenues are suspected to be diverted before 
ever becoming government revenue. Further, over-invoicing on government 
contracts is a regular occurrence. The combination of military 
expenditures, mismanagement, and corruption has ensured that spending 
on social services and development is far less than required.
    Contracts and concessions in the oil industry have been managed 
professionally by the state oil company, SONANGOL. This relatively 
level playing field has thus served well for U.S. firms with 
significant financial assets and proven technological capacity to carry 
out the type of advanced exploration and production required for deep 
water Angolan oil reserves. The Government has also been careful to 
avoid in the oil industry the type of excess and piecemeal regulation 
that hampers investment in other sectors of the economy, and creates 
additional opportunity for corruption. A far more significant barrier 
to U.S. investment in Angola has been the instability of the security 
situation.
    Question 22. The Clinton Administration is requesting $13 million 
in development assistance for Angola in FY1999, the same level as 
estimated assistance in FY1998. Aid under the security-oriented 
Economic Support Fund program (ESF), however, is slated to decline from 
$10 million to $2 million. What are the objectives of our assistance 
program in Angola? What successes can you point to? Why is the 
Administration requesting a lower level of ESF aid for the coming 
fiscal year?
    Answer. The two primary objectives of our assistance program for 
Angola are the increased resettlement, rehabilitation and food-crop 
self reliance of war-affected communities, and increased national 
reconciliation through strengthened civil society and political 
institutions.
    As part of the first objective, resettlement and rehabilitation, 
USAID supported mother-child health programs which resulted in 
vaccinations of 870,000 children and mothers; it also trained 2,300 
adults to provide clinical and occupational therapy to 71,000 war 
traumatized children. Food security levels increased in communities 
with significant numbers of resettled persons, and more than 340,000 
people were able to phase off USAID-funded feeding programs. USAID also 
supported 668 village and agricultural infrastructure projects, 
rehabilitated 1600 kilometers of rural roads and 74 bridges. and 
rehabilitated irrigation canals and reservoirs to serve an estimated 
68.000 people, primarily through food-for-work programs.
    Under the second objective, strengthening civil society and 
political institutions, USAID is working to increase cooperation 
between the Government and UNITA as a political party. The 
International Republican Institute continues its work with Parliament 
and with political parties. Its nine programs have won unqualified 
praise from all political parties, and extensive media coverage. As a 
result, several political parties have undertaken significant 
restructuring, and the formation of a coalition to increase 
effectiveness in Parliament. In each of the programs the participants 
took part in activities to enhance reconciliation and dialogue. The 
National Democratic Institute focussed on a project to train new local 
administrators destined for areas where state administration has 
recently been reestablished. Other NGO projects worked to strengthen 
local NGOs and train journalists and lawyers in human rights.
    USAID has also strengthened its coordination and cooperation with 
the major U.S. oil companies operating in Angola. Cooperation 
agreements are under discussion with two major oil firms, and USAID 
staff have provided guidance on social investment options to other 
firms, including organizing a forum bringing together NGOs and 
international assistance organizations with businesses active in Angola 
and interested in participating in social development projects.
    The Economic Support Fund program has been the primary source of 
funding for democracy and governance programs for FY 1998. Funding 
levels for 1999 and 2000 are expected to drop below current levels. due 
to competing needs in other African countries. However, those levels 
are under review at this time, and an increase in the level allotted 
for Angola is possible.

                               __________

Responses of Ambassador-Designate Joseph Sullivan to Questions Asked by 
                            Senator Feingold
    Question 1. Given recent attacks on UN personnel, what is the 
status of the UN mission in Angola? Has the UN peacekeeping force in 
Angola performed effectively? If so, what are its principal 
achievements? What kind of obstacles is the UN mission facing in 
Angola?
    Answer. The UN Observer Mission in Angola (MONUA) has a UN Security 
Council mandate to be in Angola through August 15. This mandate is 
likely to be extended to allow for completion of the Lusaka Peace 
Process. The UN peacekeeping force has been very effective in 
investigating cease-fire violations, supporting the humanitarian 
assistance efforts of U.S. and international NGO's, and overseeing the 
registration, quartering, and demobilization of over 60,000 UNITA 
fighters. It continues to investigate reports of violence, whether 
committed by UNITA or by members of the Angolan National Police. Its 
principal achievement has been in helping to facilitate effective 
implementation of the Lusaka Protocol, including the all-important task 
of restoring government control to areas of the country formerly under 
UNITA control. In so doing, it has helped to create conditions for 
Angola to experience almost four years of peace. UN peace keepers have 
encountered several obstacles in carrying out their mandate. Problems 
include failure of the Government to keep MONUA informed of all its 
troop movements (as required under the Lusaka Protocol); frequent 
attempts by UNITA, in particular, to deny MONUA access to UNITA-held 
territory to conduct investigations; attacks on MONUA patrols; and the 
failure of UNITA to demobilize.
    Question 2. Please compare the human rights records of UNITA and of 
the Angolan government.
    Answer. The State Department's 1997 Human Rights Report notes that 
Angolan security forces were responsible for political and extra-
judicial killings, rape, intimidation of civilians, and other human 
rights abuses. The Report lists numerous serious human rights 
violations on the part of Angola's MPLA-dominated government. These 
include a large number of violent crimes committed by state security 
forces, credible reports that the police commit torture, routinely beat 
detainees in prisons, arbitrary arrest and detention, and the routine 
use of the security forces to serve the interests of the MPLA.
    With respect to UNITA, suspected UNITA forces have been implicated 
by the UN Observer Mission in Angola (MONUA) in attacking and burning 
villages, detaining individuals, engaging in acts of banditry, 
harassing people at roadblocks, and other acts of intimidation. UNITA 
also has conducted extra-judicial killings and torture, forced 
conscription of able-bodied men, and is responsible for disappearances. 
The U.S. has also had reports that Savimbi detains family members of 
UNITA officials in areas under his control as insurance against 
defections.
    In addition to restricting freedom of movement, UNITA under Savimbi 
also restricts freedom of speech, assembly, and association. It also 
has refused to cooperate with UN human rights monitors investigating 
allegations of human rights violations.
    Question 3. The Lusaka Protocol calls for UNITA to become part of a 
government of national unity. This includes getting Cabinet posts, 
ambassadorships and provincial government posts--some of which, I 
believe, have already been allocated to UNITA members. To what extent 
would you consider UNITA to actually be part of the Government of 
National Unity? Is UNITA a viable political party? What are the primary 
constraints to final implementation of the political aspects of Lusaka?
    Answer. UNITA's role in the Government of National Unity was set by 
the terms agreed to in the Lusaka Protocol. The agreement was very 
specific in laying out the positions to which UNITA officials would be 
entitled, and included four Ministerial portfolios, seven Vice 
Ministerial positions, three provincial governorships, and over one 
hundred positions at the municipal and local level. UNITA is already 
filling these positions in the Ministries and these Ministers have 
authority similar to other Ministers in their area of responsibility.
    UNITA is a viable political party which drew a considerable 
minority of votes in the 1992 elections, and has 70 delegates sitting 
in the National Assembly, as well as representation in the 
Constitutional Drafting Committee. It is extremely important for UNITA 
to participate fully in the political process and for the Angolan 
Government to encourage this participation and a full role for UNITA as 
leader of the opposition.
    The largest obstacle to the final implementation of the political 
aspects of the Lusaka Protocol is for UNITA to return to government 
control the four key towns that continue to remain under its control in 
the central highlands. UNITA set and then missed five deadlines for 
turning over these towns. It is also important that the Government 
assure that its behavior in areas returned to its control is fully 
consistent with the reconciliation objectives of the Lusaka Protocol.
    Question 4. To what degree, in your view, has UNITA demobilized its 
forces? Where are its principal deployments today? What territory does 
it control?
    Answer. UNITA reported that it was fully demobilized and was 
certified as demilitarized by the UN Observer Mission in Angola (MONUA) 
and by the Joint Commission in March 1998. However, in June, MONUA 
acknowledged--and UNITA has subsequently admitted--that UNITA continues 
to have forces under its control. Estimates of current UNITA strength 
range from 15,000 to as many as 40,000 troops. In addition, there are 
additional numbers of armed groups which remain loyal to UNITA but 
whose links to UNITA's central command are more tenuous. UNITA has 
conducted military attacks in at least 10 of the country's 18 provinces 
and is believed to have significant numbers of forces in the country's 
eastern provinces.
    Question 5. The Department's 1997 Human Rights Report notes that 
the MPLA government maintains extensive security forces. Please 
describe these forces. Do you regard them as an impediment to 
democratization in Angola? Please explain?
    Answer. Angola's security forces include the Angolan Armed Forces 
(FAA) consisting of approximately 90,000 men, and the Angolan National 
Police (ANP) consisting of some 60,000 personnel. The ANP includes 
para-military Rapid Intervention Police (PIR) numbering about 8,000 
men, used to provide VIP escort and reinforce ANP units as needed. The 
PIR were confined to barracks under the Lusaka Protocol until October 
1997, but are no longer subject to this restriction. About 12,000 UNITA 
troops, including nine UNITA generals, have been integrated into the 
FAA under the Lusaka Protocol.
    The UN Observer Mission in Angola (MONUA) has uncovered frequent 
instances in which ANP members acted heavy-handedly in seeking to 
establish national government administration in former UNITA 
strongholds. The State Department and MONUA have condemned ANP abuses 
against civilians and reminded the Angolan government of its obligation 
to facilitate, rather than thwart, the reconciliation process. The U.S. 
and the UN Security Council continue to urge the Angolan government to 
exercise more effective control over the ANP in an effort to stem 
police abuses, and there has been some positive response to these 
urgings.
    I believe that in order to advance democratization and 
reconciliation in Angola, it is essential that police abuses are ended, 
and cooperation be forthcoming from both sides in the extension of 
state administration throughout the country.
    Question 6. What is the situation in Angola with respect to freedom 
of the press? What actions, if any, have been taken by U.S. diplomats 
to encourage the Angolan government to respect this freedom?
    Answer. Although Angola's constitution provides for freedom of the 
press, the Angolan government in practice does not tolerate media 
criticism and justifies its tight control over the media on national 
security grounds. It recently withdrew television coverage of National 
Assembly debate on the budget following unfavorable coverage of 
government ministers being criticized by art MPLA parliamentarian for 
not allocating more on social programs. The government runs Angola's 
only television station and its one daily newspaper. The Voice of 
America airs a highly popular 30-minute program each day that provides 
an alternative news and information source to Angola's major 
government-run radio station. Television programming by the BBC and CNN 
is accessible in Angola via cable, though the government prohibits 
direct retransmission. Journalists at the few weeklies and five private 
radio stations exercise self-censorship. While newsletters critical of 
the country's low socioeconomic development have been allowed to 
operate, the knowledge that the editor of one such publication was 
killed in 1995 after publishing an article on government corruption 
likely acts as a restraint against publication of overly provocative 
material. The U.S. has clearly identified restrictions on freedom of 
the press in its annual Human Rights Report on Angola, and actively 
supports the Voice of America's Angola-specific democracy programs
    Question 7. The U.S. gets nearly 7% of its petroleum from Angola; 
some estimates believe this level will increase to 15% within ten 
years. Some observers believe that Angola's oil wealth and the 
expanding opportunities for the U.S. in that sector has constrained 
U.S. policymakers in their advocacy of democracy and respect for human 
rights in Angola. Please comment.
    Answer. Ensuring fair access for U.S. firms for investment and 
export opportunities in the Angolan economy is one of the key tenets of 
our policy toward Angola. This includes the oil industry, and 
recognizes the strategic U.S. need for access to new fuel sources in 
coming decades. However, we have an absolute commitment toward 
achieving a peaceful and stable solution to Angola's more than three 
decades of violence and civil war. The need to stimulate democratic 
reform and international standards of human rights is a key element of 
our support for a stable and peaceful Angola, which is a necessity to 
permit the rebuilding of the Angolan economy. An economically vibrant 
Angola will be an increasingly valuable trading partner with multiple 
opportunities for investment and export for U.S. firms.
    Question 8. Please discuss the progress of Angola's economic reform 
program. In your view, is the MPLA, which was once a Marxist movement, 
firmly committed to free market principles? What steps is the 
government taking towards poverty alleviation?
    Answer. The government's current economic management team has 
remained in place since June, 1996. The team has announced a number of 
fairly significant economic reform measures, which, if fully 
implemented, the IMF and the IBRD believe could provide the framework 
for launching a comprehensive structural adjustment program which the 
Fund and the Bank could conceivably support. An IMF mission visited 
Angola in May, and proposed a flexible, post-conflict adjustment model 
as the basis for a ``shadow'' agreement between Angola and the IMF. The 
mission had productive discussions at ministerial and technical levels, 
a significant departure from earlier visits. The Angolan Finance 
Minister is expected to visit Washington next month for follow-on 
consultations with the IMF.
    The MPLA has abandoned its Marxist rhetoric, and key leaders do 
appear to understand the necessity of completing transition to a free-
market economy. However. implementation of this transition will bring 
substantial changes for many in Angola's political and economic elite, 
increasing the difficulties faced by the economic team in their 
attempts to carry the process out.
    There has been little or no change in expenditure patterns, which 
favor the military over the resource-deficient social sector. 
Government and international organizations are focusing their poverty 
alleviation efforts on self-help rehabilitation of war-torn 
communities. These initiatives encompass rebuilding of local 
infrastructure and agricultural extension efforts, including provision 
of tools and seeds.

                               __________

Responses of Ambassador-Designate Joseph Sullivan to Questions Asked by 
                            Senator Ashcroft
    Question 1. Do you think Haiti is establishing a political system 
that is credible, transparent and increasingly irreversible?
    Answer. I believe that Haiti is making slow, but clear progress 
toward establishing a credible and transparent democratic system which 
is increasingly irreversible. While some areas such as the institution 
of an efficient and well-trained police and privatization of state 
enterprises have progressed faster than others, such as judicial 
reform, I believe that Haiti has made substantial progress toward 
instituting the credible and transparent system the Haitian people want 
and deserve.
    Question 2. Has there been any organized electoral fraud in Haiti, 
and if so, in which elections?
    Answer. The only elections which took place during my year as Haiti 
Coordinator and of which I have any knowledge were the elections of 
April 6, 1997, for Senate and local authorities. As is frequently the 
case in Haiti, efforts to agree on electoral procedures were marred by 
political disagreements and absence of consensus. The provisional 
Election Council took many, but not all the preparation steps 
recommended by international advisers. The turnout on election day was 
very low, and the voting itself took place with some irregularities. 
Subsequent to the election, serious questions arose over the count and 
over election commission rulings, particularly as regards two Senate 
races. These disputes have prevented movement on the Senate contests 
and are among the issues being addressed in current efforts to resolve 
Haiti's 13-month political impasse.
                        Leroy-Fleurival Murders
    Question 1. Did any Haitian investigator assigned to investigate 
the Leroy-Fleurival cases quit out of fear for his life? Did any 
officials of the GOH express concern that their men would be put at 
risk by investigating the Leroy-Fleurival murders?
    Answer. Yes, I believe that an investigator quit the case, alleging 
such fears and that other officials expressed such fears. The alleged 
killers of Leroy-Fleurival were dangerous men, known to have killed 
before and one of them had broadcast warnings to his pursuers on 
private radio.
    Question 2. Were the directors of the government's security forces 
implicated in the murders of Leroy and Fleurival in August l996? Were 
these men appointed by Aristide and answerable directly to him?
    Answer. To my knowledge, the Director of the Palace Security Unit 
(PSU) was involved in sending members of the Unit to the scene of the 
Leroy-Fleurival murders and also had connections with one of the 
alleged murderers, Eddy Arbrouet. I believe the Deputy Director of the 
Unit was not in Port-au-Prince on the day of the murders, but was 
believed to be knowledgeable about the use of irregular operatives such 
as Arbrouet. The PSU Director and Deputy Director were appointed during 
Aristide's Presidency, although I do not have information that led me 
to believe they were answerable directly to Aristide at the time of the 
murders.
    Question 3. Were Leroy and Fleurival in the custody of the 
government's security forces when they were murdered?
    Answer. To the best of my knowledge, no officially authorized 
government security entity took Leroy and Fleurival into custody. 
Instead, the information I have seen suggests that irregular Operatives 
including Eddy Arbrouet seized Leroy and Fleurival and killed them. The 
Palace Security Unit (PSU) Director Moise was apparently in contact 
with the irregular operatives and dispatched a number of PSU members to 
the scene where they were near the scene of the murders.
    Question 4. By August 1996, how long had government hit squads been 
operating out of government security units? Did you receive information 
that the assassination plots within the palace security forces 
continued after the Leroy-Fleurival murders?
    Answer. To the best of my knowledge, the Leroy-Fleurival murders 
were the first such murders since President Preval had taken office and 
had dismissed a number of officials alleged to have connections to 
previous murders from his government. I do not recall receiving any 
credible information that assassination plots continued within the 
palace security forces after the Leroy-Fleurival murders.
    Question 5. Of the members of the President's security forces 
implicated in the murders of Leroy and Fleurival, were any dismissed, 
prosecuted or convicted? Which ones? For those security officers that 
were dismissed on otherwise disciplined for their involvement in these 
murders, did they receive a severance package worth several months of 
their salary? Were any of these suspects later placed back on the 
government payroll?
    Answer. At the time I left the Haiti Coordinator position on July 
21, 1997, the Palace Security Unit (PSU) Director Moise, his Deputy and 
a number PSU agents who had been at the scene of the murder had been 
suspended from the unit. No PSU official had been prosecuted or 
convicted. An arrest warrant had been issued for an alleged shooter, 
Eddy Arbrouet, who was not a PSU member. At the time I left in July, 
1997, the government had begun to discuss, but had not yet implemented 
a severance package for officials to be separated permanently from the 
PSU. I have no knowledge if any of them received government payments 
subsequent to receiving severance payments.
    The Department would be pleased to brief the Senator on subsequent 
developments.
                   Threat to President Preval's Life
    Question 1. Did you fear President Preval's life would be 
threatened by some members of his security forces if he took steps to 
remove and prosecute those officers implicated in political 
assassinations?
    Answer. I was concerned that the security arrangements for 
protecting the President could be disrupted in an unpredictable fashion 
if President Preval removed the Director and Deputy Director of the 
Palace Security Unit, as we were urging. For that reason, we sent in 
the enhanced protective unit in September, 1996, to assure that there 
would be adequate security at the time President Preval made these 
changes and until the Palace Security Unit was reorganized.
    Question 2. Was President Preval hesitant to remove and prosecute 
members of his security unit suspected of involvement in the Leroy-
Fleurival murders? Why was he hesitant? Did he fear his life might be 
in jeopardy from his own bodyguards?
    Answer. Yes, President Preval was hesitant to remove and prosecute 
members of his security unit suspected of involvement in the Leroy-
Fleurival murders. President Preval did not specify precisely why he 
was hesitant, as best I can recall, but did suggest the need for great 
care in moving in this security area. He took great comfort at the 
return of Jim Mcwhirter as chief of the Palace Security Advisory Unit 
while he removed the Palace Security Unit leadership and 
professionalized the unit.
    Question 3. Was the detachment of U.S. security personnel to Haiti 
after the Leroy-Fleurival murders to protect President Preval as he 
dismissed some members of his security forces?
    Answer. Yes, U.S. security personnel helped protect President 
Preval and supervise his security detail as he removed the Director and 
Deputy Director of the Palace Security Unit (PSU). U.S. security 
personnel also oversaw the professionalization and the retraining of 
the PSU and the recruitment of new PSU members.
    Question 4. Would Preval have dismissed members of his security 
forces without the presence of U.S. security personnel to protect him?
    Answer. I do not know the answer to what would have happened had we 
not made U.S. security personnel available. But, I do believe that the 
provision of such security personnel made it more possible for 
President Preval to act and to remove the Director and Deputy Director 
of the Palace Security Unit soon after the U.S. security personnel's 
arrival.

                               __________

Responses of Ambassador-Designate Joseph Sullivan to Questions Asked by 
                            Senator Ashcroft
    Question 1. While there is evidence that both sides are obstructing 
the peace process in Angola, delays in the peace process have been met 
with repeated UN sanctions on UNITA.
    Do you think pressure on UNITA alone has been one-sided?
    Has the MPLA government given UNITA a real stake in the government 
of national unity?
    How serious is the threat that Angola will return to war?
    What steps will you take as Ambassador to encourage BOTH sides to 
implement a sustainable settlement? When will the administration push 
for elections and what are our expectations for drafting a new 
constitution?
    Answer. The Administration has been even-handed in implementing the 
Lusaka Protocol, seeking to ensure that both sides live up to their 
commitments in helping to end Angola's long-runing civil war. The 
reason that UNITA has been the subject of a series of sanctions 
resolutions by the United Nations Security Council is that at various 
points in the process, it has failed to meet its obligations. Prior to 
the imposition of the latest set of sanctions on July 1, for example, 
UNITA had set--and then missed--five deadlines for turning over to 
government control four key towns that continue to remain under its 
control. We, and the Special Representative of the UN Secretary 
General, also have frequently pressed the MPLA government to cease 
behavior not consistent with the reconciliation goals of the Lusaka 
Protocol. The reason the UN has not imposed equivalent sanctions on the 
government is that the government has largely fulfilled its Lusaka 
obligations and has been responsive to urgings of the UN and the Troika 
to modify its behavior.
    UNITA's role in the Government of National Unity was set by the 
terms agreed to in the Lusaka Protocol. The agreement was very specific 
in laying out the positions to which UNITA officials would be entitled, 
and included four Ministerial portfolios, seven Vice Ministerial 
positions, three provincial governorships, and over one hundred 
positions at the municipal and local level. The biggest challenge in 
making this government of national unity work effectively is the deep 
mistrust that divides government and UNITA leaders. Indeed, achieving 
lasting reconciliation will involve a long and painstaking process. As 
tensions have increased over the last two months, we have urged the 
government repeatedly not to express its frustration with UNITA by 
expelling UNITA members of the unity government.
    We remain deeply concerned by the deterioration in the security 
situation in Angola over the past several months and have urged both 
UNITA and the Government not to provoke a return to civil conflict. 
Nonetheless, UNITA attacks in northeast and central Angola, the 
mobilization of forces by both sides, and forced conscription has 
increased. At the same time, both sides proclaim their adherence to the 
Lusaka Protocol and their opposition to renewed conflict. We remain 
hopeful that the government and UNITA will heed the appeals of the 
international community to get the peace process back on track.
    As Ambassador, I would seek to stress to both sides the clear 
benefits for themselves and the Angolan people of completing the Lusaka 
peace process, and engaging seriously in the essential task of 
democratic reconciliation. I would also stress the enormous 
disadvantages of any other course. I would plan to work closely with 
the United Nations mediator and with our Troika partners to find 
creative ways to push the peace process forward. I would seek new ways 
to ensure that the return of areas to government control is 
accomplished in a manner that promotes reconciliation and constructive 
dialogue at the local level.
    The administration will work with the United Nations, the Troika, 
and the Angolan parties to encourage that legislative elections be held 
at the earliest occasion when they can contribute to the consolidation 
of the peace process. The existence of a conducive political 
environment, and agreement of both UNITA and the government, will be 
critical to holding a second round of presidential elections. The 
National Assembly has begun the important task of beginning to draft a 
new constitution. We believe this is a positive step, especially if the 
multi-party drafting committee can find a way to work together 
constructively.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate George Staples testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate George Staples to Written Questions
    Question 1. An estimated 500,000-1 million died during the Rwandan 
genocide in 1994. What triggered the 1994 genocide? Are the leaders of 
the genocide in custody? Are governments cooperating in extraditing 
these individuals? Row many, if any, suspects of genocide crimes are 
currently in the United States?
    Answer. In 1990 civil war broke out in Rwanda between the ruling 
government and the Rwanda Patriotic Front (RPF), rebel movement. Peace 
talks were initiated and a power-sharing agreement was brokered in 
Arusha, Tanzania in 1993. Despite some problems with implementation, 
this agreement, known as the Arusha Peace Accords, generally held until 
April 1994 when the plane carrying the Rwandan and Burundian presidents 
was shot down. Although the downing of the plane was the catalyst which 
ignited the genocide, we now know that these killings were planned well 
in advance.
    The U.N. Security Council established the International Criminal 
Tribunal for Rwanda (ICTR) to prosecute those responsible for genocide 
and other violations of humanitarian law in Rwanda. Currently the 
tribunal has 31 suspects in custody, including many of the most senior 
and most culpable leaders of the genocide. The Tribunal has recently 
achieved a remarkable accomplishment by obtaining the confession of the 
former Prime Minister of Rwanda. The Tribunal expects that the former 
Prime Minister's testimony will be helpful in obtaining convictions of 
other senior leaders.
    Cooperation with foreign governments has improved since the 
Tribunal's inception, and is now quite good. Suspects have been 
transferred from several African countries and the Tribunal's 
investigations continue.
    There is one suspect indicted by the Tribunal in the United States. 
That suspect, Elizphan Ntakirutimana, was arrested in Texas by the FBI. 
His surrender to the Tribunal is currently under review by a U.S. 
District Court judge.
    Question 2. By some estimates 2 million people, including leaders 
of the 1994 genocide fled to neighboring countries. Almost all of these 
refugees returned in late 1996-early 1997. Some observers have argued 
that the leaders of the genocide used the refugee camps as a training 
ground for attacks on the survivors of genocide. Do you agree with this 
assessment?
    Answer. Yes, I agree that in many instances the real humanitarian 
purpose of refugee camps was subverted. It is clear that many of those 
guilty of having engineered and participated in the genocide were able 
to recreate leadership structures in the refugee camps and that these 
structures preached messages of hate and revenge. Through intimidation 
and violence these individuals often gained control over the supply of 
food and other humanitarian relief.
    The international community failed to respond in an effective 
manner to the militarization of the camps. The office of the UN High 
Commissioner on Refugees (UNHCR) requested assistance from the 
international community to help separate armed elements from legitimate 
refugees; but this call went unanswered. The United States responded by 
funding a force made up largely of Zairians that was effective in the 
keeping of day-to-day order but not effective in preventing these armed 
elements from launching cross-border attacks against Rwanda.
    In the aftermath of the Rwandan experience, the international 
community has taken a hard look at refugee camp militarization. The 
U.S. will be shepherding a Security Council working group on refugee 
camp security and neutrality to ensure that what happened in Rwanda/
Zaire is not repeated.
    Question 3. Animosity and mistrust between the Tutsi and Hutu are 
major sources of conflict in Rwanda. What is being done to address this 
problem? Are you satisfied with the government's reconciliation 
efforts? What can the United States do to help?
    Answer. Ethnic enmity has contributed to conflict in Rwanda in the 
past. One of the first things that the new government of national unity 
did upon coming to power was abolish the old colonial identification 
cards which branded individuals as Hutu or Tutsi. Now all Rwandans have 
national identification cards which simply list them as Rwandan. Other 
government programs designed to build a sense of national identity 
include town hall meetings and public education campaigns. In 
accordance with the Arusha peace agreement, the government has also 
recently established a National Commission on Reconciliation.
    Overall, the government of Rwanda has made significant progress in 
advancing national reconciliation. However, there is still work to be 
done. We are currently complementing the government's efforts through 
VOA programming in the region. We also plan to assist in a targeted 
public education campaign in the northwest where ethnic tensions are 
the most palpable.
    Question 4. In early April 1994, Presidents Juvenal Habyarimana of 
Rwanda and Cyprien Ntayamira of Burundi, both Hutus, were killed when 
their plane was shot down as it approached Kigali, the capital of 
Rwanda. Who shot down the plane? Why?
    Answer. There has never been a definitive investigation into the 
downing of the aircraft. The downing of the plane was a tragic event 
that proved to be the spark which ignited the 1994 genocide. We do not 
know who shot down the plane or what their motives were. Some have 
speculated that the plane was downed by hard-line Hutus who were 
unhappy with the concessions made by Habyarimana during the Arusha 
peace talks. Another theory has it that extremist Tutsis, who also 
wanted to scuttle the Arusha agreements were behind the crash. 
Recently, there were reports in the French press alleging that the 
missile bore markings from the U.S. and that we had passed it to the 
Ugandans following the gulf war. We can state, however, that the French 
press reports are false and that the United States government was in no 
way involved.
    Question 5. With the return of over one million refugees from Zaire 
and Tanzania, instability has increased in parts of Rwanda. How would 
you describe the security situation in Rwanda? What is the government 
doing to end the violence in the northwest part of the country? Who is 
behind these attacks? Do they have outside support?
    Answer. The security situation throughout most of Rwanda is good. 
However, insurgents continue to launch destabilizing attacks in the 
northwest. The insurgents generally attack ``soft'' civilian targets 
such as buses, taxis, hospitals, and refugee camps. In a particularly 
heinous attack only a few weeks ago, the insurgents targeted a school 
bus killing several children.
    The insurgency is composed of members of the former Rwandan army--
the ex-FAR, and the genocidal militia--the Interahamwe. The rebels lack 
an articulated political platform and do not have a clear command and 
control structure. We do not know the extent of any outside support 
being provided to the rebels.
    Our concern over the insurgency led us to urge the Security Council 
to reestablish the U.N. Arms Flow Commission. This commission is 
charged with investigating the flow of arms and ammunition in the 
region and is scheduled to report its findings to the U.N. Security 
Council in November. During his March trip to Africa, President Clinton 
and regional African leaders also pledged to establish an International 
Coalition against Genocide in the Great Lakes. Through this coalition, 
governments will cooperate to stem the flow of arms and monies to 
extremists and will also coordinate efforts to bring suspected war 
criminals to justice.
    The government of Rwanda addresses the security problems in the 
northwest through both political and military means. Senior members of 
the government travel to the northwest regularly to hold town meetings 
with the villagers. Their message is one of peace and reconciliation. 
The Rwandan Patriotic Army (RPA) is mobilized to respond to individual 
attacks. In responding to the insurgency, the RPA has at times used 
excessive and indiscriminate use of force. We will continue to stress 
the sanctity of non-combatants in our discussions with the government.
    Question 6. Inadequate housing has emerged as a major economic and 
political problem for the government. What is the United States doing 
to address this problem?
    Answer. When the government of national unity assumed power in 
1994, millions of Tutsis who had been exiled since 1959 were once again 
able to return to their homeland. An estimated 2 million of these 
individuals, referred to as ``old caseload'' refugees returned. In late 
1996, early 1997 with the breakup of the refugee camps another million 
or so ``new caseload'' refugees returned. As a result, for the first 
time since independence, most Rwandans are at home.
    This phenomenon while positive for national reconciliation has 
placed enormous economic pressures on the government to provide 
adequate housing, schooling, health care, etc. The United States has 
played a significant role in housing construction in Rwanda via the 
efforts of our AID mission and our bureau of Population Refugees and 
Migration..
    On the political side, many of the old caseload were squatting in 
the homes of the new caseload from 1994-1996. The government pledged to 
return these homes to their rightful owners upon their repatriation to 
Rwanda. This has been happening gradually and we will continue to 
encourage the government in this effort.
    Question 7. In July 1998, the U.N. released a report substantiating 
claims that the current Rwandan government participated in the 
massacres of Hutu refugees in the former Zaire. The Rwandan government 
rejected the study as biased and incomplete, claiming the investigators 
only interviewed anti-government Hutu extremists. Do you agree with the 
conclusions of the report? Do you share Rwanda's view that the report 
is incomplete? What next steps do you expect from the United Nations? 
What measures, if any, will the United States government take?
    Answer. The U.N. Investigative team outlined clearly the 
limitations of their report and the circumstances which prevented them 
from a more complete investigation. The team stated that many of the 
allegations of serious violations of human rights and international 
humanitarian law remain unconfirmed, but that they were able to confirm 
that serious violations did occur in eastern Congo, including attacks 
by the ADFL and Rwandan army on refugee camps.
    The U.S. government agrees that the report is incomplete and that 
additional investigation is necessary. The U.S. strongly supported the 
unanimous Security Council presidential statement issued on July 14 
condemning these grave violations of human rights and humanitarian law 
and calling on the governments of the DROC and Rwanda to bring the 
perpetrators to justice. The council requested that the two governments 
provide a progress report on their action by October 15. The council 
warned of its readiness to take further steps as necessary to ensure 
that those responsible for human rights violations are held 
responsible. Both governments have pledged to comply with the Security 
Council's recommendations in a constructive and cooperative manner.
    Question 8. Please comment on the work of the Rwanda genocide 
tribunal in Arusha, Tanzania. How well or poorly are foreign 
governments cooperating with the tribunal? What assistance is the 
United States providing to the tribunal?
    Answer. After a difficult beginning, the International Criminal 
Tribunal for Rwanda (ICTR) is making significant headway. The ICTR now 
has 31 people in custody, including several of those considered most 
culpable in the 1994 genocide such as former Primer Minister Kambanda 
and former military leader Bagasora.
    Other governments are cooperating well with the ICTR. Several 
African countries (Mali, Benin, Togo, and Cote d'Ivoire) recently 
cooperated with the Tribunal in the arrest of four suspects in a six-
day period in June 1998.
    There is still work to be done, however. We have concerns about the 
administration of the Tribunal. Specific areas of improvement as noted 
in a recent report by the U.N. office of Internal Oversight Services 
include the witness protection unit and the registrar's office.
    The United States provides considerable diplomatic and material 
support for the work of the ICTR. Total U.S. financial support, 
including the value of voluntary contributions, has totaled more than 
$46 million.
    Question 9. The Clinton Administration has requested $7.5 million 
in development aid for Rwanda in FY 1998. How does our effort compare 
with aid being given by other countries? Are donor governments 
providing enough to give Rwanda some hope of economic recovery in the 
near future?
    Answer. The United States government provides roughly 15 percent of 
the bilateral development aid being received by Rwanda. In addition, we 
are assisting Rwanda through multilateral fora such as the World Bank 
and IMF.
    Rwanda has made substantial progress in rebuilding its severely 
damaged economic infrastructure. Real GDP growth for 1997 was estimated 
at 11 percent. Just last month, Rwanda signed an Enhanced Structural 
Adjustment Facility with the IMF. This month, the Paris Club agreed to 
reduce Rwanda's debt by 67 percent.
    We and other donors will continue to support these broad 
macroeconomic efforts. We also hope to provide additional bilateral 
support through the President's Great Lakes Justice and Education 
Initiatives.
    Question 10. In March 1998, President Clinton met with survivors of 
genocide in Kigali and publicly apologized for inaction on the part of 
the U.S. and the international community, claiming that the U.S. was 
not aware of the gravity of the situation during the genocide. Do you 
support calls for an investigation into the role of the United States 
and the United Nations? If so, who should conduct the investigation? A 
congressional committee? An independent commission?
    Answer. The U.S. and the U.N. have both conducted ``lessons 
learned'' exercises following the failure of the international 
community to prevent or stop the genocide in Rwanda in 1994. Much of 
the historical record has been clarified, with enough blame to go 
around. Through speeches made by both Secretary Albright and President 
Clinton, the United States has acknowledged its shared responsibility. 
In the near future, the Organization for African Unity (OAU) also plans 
to examine the role of the international community in the 1994 
genocide. The OAU has composed a panel of distinguished individuals to 
carry out this review.
    I do not believe that we need further investigation beyond those 
initiatives outlined above. Further studies might help elaborate what 
went wrong, but our energies would be better focused on how to prevent 
another such tragedy in the future.
    Question 11. Secretary of State Madeleine Albright announced in 
March that the U.S. government will undertake a Great Lakes Justice 
Initiative in Central Africa, and President Clinton pledged $2 million 
to the Rwanda Genocide Survivors Fund. What is the current status of 
these initiatives? Do we have plans for additional support?
    Answer. The Great Lakes Justice Initiative was part of the 
Administration's FY 99 budget request. We have already consulted with 
governments in the region and plan to build a program which will 
strengthen national judiciaries and instill a greater respect for human 
rights and the rule of law.
    By the end of this fiscal year, we will provide our $2 million 
contribution to the Genocide Survivor's Fund. This fund is managed by 
the government of Rwanda and it is used for a number of activities. 
Some examples of the fund's use include the provision of prosthetics 
for the maimed, microenterprise loans for genocide widows, and school 
uniforms for orphans.
    We plan to increase our direct development assistance to 11.4 
million in FY 99. We also hope to provide additional help to Rwanda 
through the President's Education initiative.
    Question 12. Commander of UNAMIR, Canadian Major General Romeo 
Dallaire in February 1998 testified that if the U.N. had given UNAMIR 
sufficient troops and the authority to pursue those organizing the 
genocide, the tragedy could have been halted. Do you agree with his 
assessment? If so, should the United Nations take full responsibility 
for its inaction? Is Annan at fault for rejecting Dallaire's request to 
disarm the extremists?
    Answer. It is very difficult to judge in hindsight whether General 
Dallaire's assessment that additional troops could have halted the 
genocide is correct. No one comprehended the scale of the slaughter at 
the time, and even now there are no accurate numbers on how many people 
were killed.
    General Dallaire made recommendations to the UN headquarters in New 
York which were reviewed by a number of people including Kofi Annan who 
was then Under-Secretary General for Peacekeeping and then-Secretary 
General Boutros Ghali. The Security Council did not authorize a more 
robust mandate or troop strength for UNAMIR prior to April 1994, and it 
unanimously approved the withdrawal of the UN troops after the Belgian 
peace keepers were killed in the early days of the genocide. The 
Council authorized additional troops for UNAMIR in May 1994, but by 
then the genocide had already claimed hundreds of thousands of lives.
    Question 13. The French weekly Le Journal du Dimanche has reported 
that U.N. headquarters had authorized Dallaire to pass on a fax to 
French, Belgian and U.S. embassies in which advance warning of the 
preparations for the genocide were disclosed. The United Nations 
rejected Dallaire's request to disarm the extremists. Did the U.S. 
Embassy receive the reported fax? If so, what measures were taken by 
the U.S. government as a result of the advance warning? What did the 
U.S. government know of Hutu plans to incite violence in January of 
1994?
    Answer. General Dallaire briefed the U.S., French, and Belgian 
ambassadors in January 1994 about the report he had received on Hutu 
extremist arms caches and an assassination plan. We have no record that 
he actually gave us a copy of his faxed report to UN headquarters. At 
the time, there were numerous rumors of assassination plots and 
conspiracies. The political environment was volatile: new government 
structures were being put into place per the Arusha accords.
    Unfortunately in this charged atmosphere of disinformation and 
suspicion, no one recognized the import of this particular report of 
extremist activity. In January 1994, our efforts were still 
concentrated on consolidating the Arusha peace accords. We did not know 
then of plans for widespread ethnic killings.

                               __________

Responses of Ambassador-Designate George Staples to Questions Asked by 
                            Senator Feingold
    Question 1. Now that the UN Human Rights Field Operation in Kigali 
is being closed, how will the Embassy follow human rights developments 
in the country, especially in the areas of combat? In particular, how 
actively would you envision the Embassy following events in the 
northwest?
    Answer. We regret that the government of Rwanda and the Office of 
the U.N. High Commissioner for Human Rights (UNHCR) were unable to 
reach agreement on a new mandate for the human rights field office. We 
believe that the UN field office played an important role in ensuring 
the protection of human rights in Rwanda and in advancing national 
reconciliation.
    It is extremely difficult to monitor human rights in zones where 
there is active fighting. As proof of this, in 1997, five UN Human 
rights monitors were ambushed and killed by insurgents. Following their 
tragic deaths, the U.N. determined that it was too dangerous to keep 
its personnel permanently stationed in the Northwest and issued a 
series of regulations regarding future travel to the area.
    Human rights is a key issue in our bilateral relationship with the 
government of Rwanda. The embassy draws on a variety of sources--local 
NGO's, private American citizens, other diplomatic contacts, to keep 
informed of human rights developments. Our defense attache travels to 
the Northwest periodically. Recently our Food for Peace officer has 
taken several trips to the region to deliver food aid. This fall we 
will be adding an additional political officer to the embassy who will 
have substantial human rights responsibilities.
    Currently, our Ambassador in Rwanda reviews each instance of 
Embassy staff travel to the Northwest on a case-by-case basis. Travel 
is approved provided there is a serious need and the government of 
Rwanda is able to provide a military escort. While it is important to 
have first-hand information on the Northwest, this need must be 
balanced against the real security risks posed to our personnel.
    In our bilateral relationship with the government of Rwanda, we 
will continue to stress the importance of respect for human rights in 
general, and the sanctity of non-combatants in particular. We will also 
encourage the government of Rwanda to ensure that its newly formed 
National Human Rights Commission evolves into an independent body, 
responsive to the human rights challenges facing Rwanda.
    Question 2. The U.N. Security Council has given the Rwandan and 
Congolese governments three months to investigate members of their 
militaries who may be implicated in the massacres of Hutu refugees in 
Congo. What can or should the US do to effectively pressure the Rwandan 
government to follow through on its responsibility to investigate those 
responsible?
    If the Rwandans do not comply, what next steps would you recommend 
to determine responsibility for the massacres?
    Answer. The U.S. condemns the serious violations of human rights 
and international humanitarian law committed by all parties in Zaire/
Democratic Republic of the Congo (DROC).
    We strongly endorse the balanced UN Security Council presidential 
statement which inter alia, calls upon the governments of Rwanda and 
DROC to investigate the report's allegations and to hold all 
responsible parties accountable.
    On July 24, the Government of Rwanda issued a press release taking 
note of the Security Council's recommendations and pledging to examine 
the mechanisms for their execution in a positive and cooperative 
spirit. We have already communicated the importance that the USG 
attaches to this issue to the Government of Rwanda. In keeping with the 
spirit of the presidential statement, we have also informed both 
governments of our willingness to assist them in complying with the 
Council's recommendations. A senior Department official plans to 
consult with the Rwandan government in Kigali on this issue in 
September.
    The Security Council has left open the options which will be 
considered in the event that the governments of Rwanda and DROC do not 
comply with the recommendations.
    Question 3. There has been much discussion of a new generation of 
leaders in Africa. How would you describe these new leaders, and where 
would you situate Vice president Kagame among them?
    Answer. In the early 1990's following the fall of communism, a wave 
of democratic sentiment swept across Africa leading to unprecedented 
national conferences and broad-based dialogue. In some African 
countries, this initial breakthrough was strengthened and consolidated; 
while in others progress was thwarted. In Africa, as elsewhere around 
the world, the United States encourages leaders to be accountable to 
the people they govern, to have sensible economic policies, and to 
promote civil liberties and respect for human rights.
    Vice President Kagame is generally considered to be one of the most 
decisive and intelligent of Africa's younger leaders. We have found him 
to be a serious, responsible leader who is intent on rebuilding his 
country and who would like to do so in close cooperation with the 
United States.
    The Rwandan leadership has achieved significant progress in 
bringing Rwanda back from utter disaster. The refugees are home, social 
services function, and the government has begun looking for ways to 
increase political participation. However, there are still many 
challenges ahead.
    The Arusha Peace Agreement accorded the Government of National 
Unity a five-year mandate. We hope to work with the government, civil 
society, and others as Rwanda takes the next steps in its transition 
process.
    Question 4. There are continuing concerns about the lack of due 
process in the Rwandan judicial system, in particular but not limited 
to the Rwandan national genocide trials. The United States has launched 
the Great Lakes Justice Initiative in part to deal with this issue. 
Please comment on this initiative and on how you see your role in 
continuing to press for improved standards of justice?
    Answer. Impunity has been one of the key underlying causes to the 
cycles of violence which have plagued Rwanda and the Great Lakes region 
as a whole. The question of due process in Rwanda is a very complex 
issue. Clearly, the survivors of genocide have a right to justice. 
Those guilty of having perpetrated such unimaginable crimes simply must 
be held accountable.
    At the same time it is equally important not to ascribe ``group 
guilt'' to an entire section of the population. The accused deserve to 
know the nature of the charges against them, to have access to legal 
counsel, and to receive a fair and impartial trial.
    We launched the Great Lakes Justice Initiative in response to these 
formidable, but not unsurmountable challenges. Through the initiative 
we will help build strong, independent, national judiciaries in the 
region. The initiative will include training for local lawyers, police, 
and judges. It will also have a significant public outreach and 
education component.
    If confirmed, I will continue to discuss with the government ways 
to improve the standards of justice in Rwanda. I will also build upon 
the good work already being done in the justice sector by our USAID 
mission and seek rapid implementation of our new Great Lakes Justice 
initiative.
    Question 5. To what degree do you feel that the International 
Criminal Tribunal for Rwanda and the national trials have had an impact 
on violence in Rwanda?
    Answer. We believe that the International Criminal Tribunal for 
Rwanda (ICTR) and the national trials have had a positive impact in 
deterring violence in Rwanda. The rule of law and the existence of 
effective, fair legal institutions is not only a fundamental right but 
a necessary requirement for sustainable peace. The cycles of violence 
in Rwanda will not be broken until the reign of impunity is ended. The 
ICTR and the national trials have been important in creating the 
conditions for peace in Rwanda.
    We are pleased that the USG is financing radio and TV coverage of 
the ICTR's proceedings in Arusha, Tanzania to the population in Rwanda. 
It is important not only that justice be done, but that justice be 
visible to those most affected.
    National trials continue in Rwanda and have improved markedly as 
the government has begun rebuilding its technical and human capacity in 
the judicial sector. We hope to increase our assistance to the Rwandan 
judiciary through the new Great Lakes Justice Initiative.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate Kathryn D. Robinson testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

   Responses of Ambassador-Designate Kathryn Dee Robinson to Written 
                               Questions
    Question 1. Ghana is aiming at a GDP growth rate above 5% in 1998 
and at even higher rates in future years. In your view are such rates 
achievable? What are the principal obstacles to more rapid growth in 
Ghana?
    Answer. These growth rates are achievable if Ghana takes the 
necessary steps to deal with its energy crisis, continues to address 
its difficult macroeconomic situation, and continues to implement 
policies that will make Ghanaian companies competitive in international 
markets.
    Principal obstacles to growth include large government budget 
deficits, high inflation, tight credit, and high interest rates. In 
addition, an energy crisis that grew out of long term mismanagement of 
Ghana' energy sector, combined with a long-term drought that reduced 
Ghana's hydroelectric capacity, has temporarily dampened Ghana's 
economic productivity. Ghana also needs to create a more favorable 
environment to attract significant private investment, including the 
development of transparent and effective regulatory and legal 
frameworks.
    Question 2. What opportunities has Ghana's expanding market 
provided for U.S. business? What sectors of the economy are most 
attractive for additional U.S. investment? What steps have been taken 
by the Department of State, the Department of Commerce, and the U.S. 
Agency for International Development to strengthen U.S. economic 
relations with Ghana?
    Answer. Ghana's expanding market contains significant opportunities 
for U.S. business in the areas of heavy equipment, vehicles, generators 
and other energy production equipment, food processing equipment, 
agricultural products, building materials and wood products, oil 
services and supply. Construction, energy production, and food 
processing are particularly active sectors. In addition, there are 
opportunities for U.S. business in the areas of tourism, banking, and 
financial services.
    The Departments of State and Commerce have encouraged Ghana through 
dialogue to undertake market reforms leading to an expansion of the 
private sector, and to develop regulatory and legal frameworks that 
encourage private investment. They have also urged Ghana to open up and 
expand its energy sector, utilizing private sector resources. The 
Embassy has encouraged the establishment and progress of the American 
Chamber of Commerce in Accra. Commerce has supported exhibits of U.S. 
products at numerous trade fairs in Ghana. USAID has encouraged new and 
better ways of doing business, promoted market-led investments in 
private enterprises, stimulated innovation in support services, and 
urged the Government to withdraw from businesses and services that can 
be better operated by the private sector.
    Question 3. Ghana has recently been affected by drought. What have 
been the consequences of the drought for agriculture and power 
production.
    Answer. A prolonged drought has affected crops in Ghana's three 
northern regions. Early millet crops were especially hard hit, yielding 
only 18,000 metric tons versus a consumption need of 50,000 metric 
tons. Maize was also badly affected, yielding only 1300 metric tons, 
versus a consumption need of 34,000 metric tons. High temperatures 
associated with the drought have also contributed to epidemics of 
yellow fever and meningitis in the three northern regions.
    The drought severely inhibited the ability of Ghana's principal 
hydroelectric facility, the Akosombo Dam, to produce power. At present, 
the facility is producing only about 60 percent of its normal average 
output. Because of the crisis, energy supplies to manufacturers, mines, 
and other consumers have been reduced by as much as 70 percent for 
limited periods of time. Ghana is attempting to improve the energy 
situation by adding thermal capacity preparing higher rates for 
electricity to reduce demand.
    Question 4. How is Ghana dealing with the problems of inflation and 
high unemployment?
    Answer. Ghana is attempting to stem high levels of inflation by 
taking greater care to monitor government expenditures; by instituting 
more restrictive measures for government borrowing, particularly on 
loans from the Bank of Ghana; and by revising the manner in which the 
budget is formulated. Formerly, the ``narrow'' budget did not include 
capital projects jointly financed by the government and donor project 
aid. This contributed to the government's deficit.
    The major thrust of the Ghanaian effort to alleviate high 
unemployment has been to improve the enabling environment that will 
provide for a market-driven expansion of the private sector, thereby 
creating more jobs in all sectors. Studies show that the growth in non-
traditional exports since 1991 has created some 50,000 new jobs in that 
sector, and has also produced numerous additional indirect employment 
growth.
    Question 5. Ghana is one of the leading sub-Saharan recipients of 
U.S. aid, and the Administration is requesting $36.5 million in 
development assistance for Ghana in FY 1999. Please outline our aid 
program in Ghana. What are its principal objectives? What successes can 
you point to?
    Answer. USAID's strategy aims to support Ghana's goal of achieving 
middle-income status within 25 years by promoting broad-based 
sustainable economic growth. USAID's principal strategic goals are as 
follows:

  <bullet> increase private sector growth;
  <bullet> increase the effectiveness of the primary education system;
  <bullet> improve family health through family planning, AIDS/HIV 
        prevention, and child survival interventions, and;
  <bullet> enhance civic participation and accountable governance.

    USAID programs to boost non-traditional exports in horticulture, 
handicrafts, processed foods, and textiles have helped these sectors 
grow from $68 million in exports in 1992 to $300 million in 1997. 
Tourism, also a USAID-assisted sector, has grown from $237 million in 
1992 to $300 million in 1997 and is now Ghana's fourth largest foreign 
exchange earner. The growth in non-traditional export earnings has 
generated significant increases in employment and incomes, especially 
for women. USAID's education programs have provided training in 
improved teaching delivery methods to 84% of Ghana's primary school 
teachers. Books have been provided to 71% of all primary school 
children. Ghana's family health programs have helped lower fertility 
rates to 5.2% in 1997 from 6.4% in 1988. Contraceptive use is up 46% 
since 1995. HIV awareness has reached 95% of the population. USAID's 
programs in democracy and governance have contributed to the 
modernization of Ghana's electoral registers, with the registration of 
over 95% of eligible voters.
    Question 6. Please discuss the prospects for the gold mining 
industry in Ghana. Some environmentalists have been concerned about the 
consequences of gold mining for Ghana's' forest reserves. Are such 
concerns justified? What steps have been taken by the Ghana government 
to deal with such concerns?
    Answer. Ghana's mining policies as stipulated by the 1986 Minerals 
and Mining Law have increased prospects for the mining industry in 
general and for gold mining in particular. The policies have brought 
about sustained private sector-led growth in the production and export 
of minerals, especially gold. Earnings from minerals have risen from 
$124.4 million in 1986 to about $641.3 million in 1996, representing an 
increase of over 400% in one decade. The mining sector continues to 
dominate merchandise exports, contributing about 45% of export earnings 
and providing employment to over 50,000 people. Gold alone counts for 
over 85% of mineral exports. As a result of a recent decline in gold 
prices, total exports have also declined. In spite of this, it is 
expected gold will continue to be an export leader as more efficient 
mining technologies are brought on stream.
    The concerns of environmentalists and others about the consequences 
of gold mining for Ghana's forest reserves are justified. For many 
years, the impact of mining was ignored and land was degraded or 
deforested. More recently, Ghana's Environmental Protection Agency and 
other GOG entities have promulgated regulations that require mining 
companies to carry out environmental impact assessments and to put in 
place plans for monitoring, evaluating, and mitigating negative 
environmental impacts of mining. Environmental offenses have been made 
criminal offenses with strict penalties, including prison terms.
    According to the World Bank, in recent years large scale mining 
operations have generally adhered to internationally accepted 
environmental practices and adopted improved technologies to minimize 
environmental damage. Small scale mining, much of it illegal, continues 
to create damage. There is active collaboration between District 
Assemblies and Ghanaian security services to arrest and prosecute 
illegal operators.
    Question 7. Ghana is home to Ashanti Goldfields Corporation, Ltd., 
a successful African multinational and the only one listed on the New 
York stock exchange. What are the sources of this company's success? To 
what degree can it serve as a model for private companies elsewhere in 
Africa?
    Answer. The sources of this company's success lie in their access 
to extremely valuable resources, high-level political support for their 
operations, and a talented and experienced management team. Ashanti 
Goldfields' leadership have long experience in the mining field and 
their staff are well trained. Ashanti Goldfields operates in fair 
competition with foreign rivals and yet manages to generate 
considerable wealth, which it effectively reinvests. The company has 
also learned through time to work with Ghana's bloated and often 
inefficient bureaucracy. Recognizing that the company is an important 
employer and revenue earner, the Ghanaian government is supportive of 
most of the company's initiatives.
    Question 8. Why did President Clinton make Ghana his first stop on 
his March-April l998 Africa journey? How would you characterize 
President Clinton's discussions with President Rawlings? What was 
agreed?
    Answer. President Clinton made Ghana the first stop on his African 
journey to underline our increasingly close bilateral relationship. 
This relationship is based, in part, on Ghana's progress in recent 
years in developing democratic institutions and improving its human 
rights record. Our close relationship with Ghana is also based on 
growing bilateral commercial ties and on cooperation in the 
peacekeeping arena. Ghana's decision to join the African Crisis 
Response Initiative is an important step forward for this initiative, 
given the strong reputation of Ghana's peacekeeping forces. Lastly, the 
President's visit underlined the strong emotive ties that bind Ghana 
and the U.S., built by long years of Peace Corps activity, cultural and 
scientific exchanges, and by the fact that many AfroAmericans can trace 
their origins to Ghana.
    President Clinton's discussions with President Rawlings were 
cordial and covered considerable ground. During the meeting, President 
Rawlings signaled his intention to abide by constitutional strictures 
and not run for a third term. Touching on Ghana's ongoing energy 
crisis, President Clinton indicated the U.S. was prepared to examine 
ways to assist Ghana with its energy problems. As a result, loan 
guarantees were provided for the construction of two U.S. origin power 
barges and an energy assessment team composed of energy experts from 
USAID, the Departments of Energy and Transportation, and the Trade 
Development Agency has visited Ghana to provide advice.
    Question 9. In your estimation, how secure is Ghana's democracy? 
How high is the risk of another coup?
    Answer. Support for democracy in Ghana is widespread. It is backed 
by the government, the leading opposition parties, the military, and 
leading sectors of the civil society. The public at large regularly 
express their support for democracy and have eagerly participated in 
1992 and 1996 elections Similarly, Ghana's thriving independent press 
is almost universally supportive of democratic ideals. The U.S. 
Embassy's view is that democracy is here to stay. To prevent 
backsliding, the Embassy regularly engages the Government, parliament, 
political parties, the military, and other leading institutions on 
democracy issues
    The risk of another coup is low. Embassy and other USG officials 
meet frequently with members of Ghana's military and political parties 
and report that virtually all interlocutors regret Ghana's past 
tendency to resort to coups and express a determination that this will 
not happen again. The Ghanaian military appears genuinely supportive of 
the Constitution and determined to play a subordinate role in the 
political process.
    Question 10. President Rawlings is prevented by the Constitution 
from running for a third term in 2000, and he has endorsed Vice 
President J.E.A. Mills, a tax law professor, to succeed him. What is 
your assessment of Professor Mills? What policies would you expect him 
to pursue, if elected? How do you rate the chances of the opposition in 
2000?
    Answer. The Constitution forbids Rawlings from running for a third 
term in 2000 and he has privately and publicly stated his intention not 
to do so. President Rawlings is viewed as sincere in his desire to be 
succeeded by Mills who is a respected, pro-democracy academic with a 
solid knowledge of free market economics. Mills suffers, perhaps, from 
a lack of charisma and limited political experience, but President 
Rawlings has sought opportunities to raise Mills' public profile. As an 
example, Mills was tasked to lead a high-level delegation to the U.S. 
in May to discuss Ghana's energy crisis and seek private investment. 
Mills is viewed by diplomats and knowledgeable Ghanaians as non-
corrupt, hardworking, knowledgeable, and eager to work on building 
Ghana's economy and strengthening its democracy.
    Although fairly new to the political scene, Mills has friends in 
opposition parties as well as in the ruling National Democratic 
Congress (NDC) party. He has drawn little criticism from any quarter on 
the conduct of his Vice Presidency. If nominated as the NDC's 
candidate, as he likely will be, Mills' chances of election are quite 
good. Ghana's opposition parties have no generally accepted flag bearer 
and suffer from divisiveness and the lack of a clearly articulated 
platform. In addition, the ruling NDC party has greater financial and 
logistic resources than the opposition and is better organized, 
particularly in rural areas. Opposition parties' chances of winning an 
election in 2000, including a free and fair one, appear slim at this 
time.
    Question 11. There has been some press speculation that President 
Rawlings will himself run for the Vice Presidency in 2000 in an attempt 
to maintain a hold on power in Ghana. Would you advise him to pursue 
this course? Please explain.
    Answer. It is true that there has been speculation that Rawlings 
might run for the Vice Presidency in 2000 in an attempt to maintain a 
hold on power, but he is unlikely to pursue such a course of action. I 
would certainly advise him against pursuing this course. Much of 
Rawlings' present popularity is directly linked to the public 
perception that Rawlings is sincere in his effort to build viable 
democratic institutions. An attempt by Rawlings to maneuver around 
Constitutional restrictions against running for a third term would be 
viewed negatively by the international community, by leading segments 
of Ghana's civil society, and by much of the public as an affront to 
the democratic values Rawlings has espoused Pawlings' party, the 
National Democratic Congress (NDC) , wants to use Rawlings' popularity 
to enhance party chances in the 2000 elections, but few party members 
truly are ready to see a third Rawlings candidacy. Leading members of 
the NDC believe they need to select a new flag bearer if their party is 
to have future credibility. A ticket with John Mills as Presidential 
candidate and a northerner for Vice President to provide ethnic balance 
is a possible scenario that many Ghanaians believe would be popular.
    Question 12. On June 1, 1998, just before Nigerian military ruler 
Sani Abacha died; one of his top advisers accused Ghana of attempting 
to destabilize the Nigerian government. In your view, what did Nigeria 
mean by this accusation? What was Ghana's reaction?
    Answer. The accusation appears to have been a misguided attempt by 
members of the Abacha regime to discredit a human rights seminar that 
took place on Ghanaian soil. There appears to be no substance to the 
accusation that Ghana was attempting to destabilize the Nigerian 
Government. The Ghanaian Government issued a statement denying the 
allegations and any role that Ghana was alleged to have played. We 
understand that two days after the accusation, the Nigerian Government 
sent an emissary to Ghana to apologize for the allegation and express 
regret over the incident. Nigeria's present leader, Abubakar, 
subsequently dismissed the official who had accused Ghana of seeking to 
destabilize the Nigerian Government, and relations between the two 
countries have been restored to their previous level.
    Question 13. What consequences will Nigeria's current political 
instability have for Ghana?
    Answer. Ghana will be required to keep a close eye on developments 
in Nigeria. An ever-present concern for Ghana is the potential impact 
on the region of an influx of refugees if Nigeria were to suffer 
serious civil disorder. Nigeria also has significant influence on 
Ghana's economy, providing one-third of Ghana's oil. A severe breakdown 
in Nigeria would have negative economic consequences for Ghana. Ghana 
will continue to work closely with Nigeria within the framework of 
ECOWAS, an organization to which the two countries are principal 
contributors and supporters. We anticipate that Ghana will continue to 
encourage moderation and stability in Nigeria and will not seek to take 
advantage of Nigeria's current fragile situation to strengthen its own 
role in the region.
    Question 14. Military units from Ghana have recently received U.S. 
training under the Administration's Africa Crisis Response Initiative. 
What are the objectives of this initiative? Why was Ghana chosen as a 
participant? Please describe the training that took place in Ghana. Do 
you foresee additional training?
    Answer. The objective of the Africa Crisis Response Initiative is 
to enhance African peacekeeping capacities, particularly with respect 
to the ability of African countries to respond quickly and effectively 
to humanitarian crises. The initiative aims to strengthen peacekeeping 
capabilities within selected African militaries through training, 
exercises, and the provision of limited amounts of nonlethal equipment, 
particularly communications equipment. ACRI-trained militaries will 
have the potential to draw from their forces elements that can be used 
in peacekeeping situations together with similarly-trained forces from 
other African nations. The focus is on harmonizing practices and 
enhancing interoperability. The Initiative does not, however, seek to 
create a standing African peacekeeping force.
    Ghana was selected as a participant because it is a democratic 
state with a strong human rights record. In addition, Ghana's military 
has participated in over sixteen peacekeeping operations worldwide over 
the past three decades and enjoys a first-rate reputation for 
professionalism and competence.
    The training that took place in Ghana in April-May 1998 emphasized 
basic soldier skills, communications skills, and small group 
peacekeeping skills.
    There has been discussion about training a second Ghanaian 
battalion and a brigade-level command and control unit. The two sides 
are examining some of the issues related to such a decision.

                               __________

   Responses of Ambassador-Designate Kathryn Dee Robinson to Written 
                               Questions
    Question 1. Ghana is one of the leading recipients of U.S. aid in 
Africa, and the Administration is requesting $36.5 million in 
development assistance for Ghana in FY 1999. Please outline the primary 
objectives of our aid program in Ghana. What are its principal 
objectives? What successes can you point to?
    Answer. USAID's strategy aims to support Ghana's goal of achieving 
middle-income status within 25 years by promoting broad-based 
sustainable economic growth. USAID's principal strategic goals are as 
follows:

  <bullet> increase private sector growth;
  <bullet> increase the effectiveness of the primary education system;
  <bullet> improve family health through family planning, AIDS/HIV 
        prevention, and child survival interventions, and;
  <bullet> enhance civic participation and accountable governance.

    USAID programs to boost non-traditional exports in horticulture, 
handicrafts, processed foods, and textiles have helped these sectors 
grow from $68 million in exports in 1992 to $300 million in 1997. 
Tourism, also a USAID assisted sector, has grown from $237 million in 
1992 to $300 million in l997 and is now Ghana's fourth largest foreign 
exchange earner. The growth in non-traditional export earnings has 
generated significant increases in employment and incomes, especially 
for women. USAID's education programs have provided training in 
improved teaching delivery methods to 84% of Ghana's primary school 
teachers. Books have been provided to 71% of all primary school 
children. Ghana's family health programs have helped lower fertility 
rates to 5.2% in 1997 from 6.4% in 1988. Contraceptive use is up 46% 
since 1995. HIV awareness has reached 95% of the population. USAID's 
programs in democracy and governance have contributed to the 
modernization of Ghana's electoral registers, with the registration of 
over 95% of eligible voters.
    Question 2. Ghana was President Clinton's first stop on his March-
April Africa trip What is the significance of this in terms of U.S.-
Ghana relations? How would you characterize President Clinton's 
discussions with President Rawlings? Were any commitments made by 
either government?
    Answer. President Clinton made Ghana the first stop on his African 
journey to underline our increasingly close bilateral relationship. 
This relationship is based, in part, on Ghana's progress in recent 
years in developing democratic institutions and improving its human 
rights record. Our close relationship with Ghana is also based on 
growing bilateral commercial ties and on cooperation in the 
peacekeeping arena. Ghana's decision to join the African Crisis 
Response Initiative is an important step forward for this initiative, 
given the strong reputation of Ghana's peacekeeping forces. Lastly, the 
President's visit underlined the strong emotive ties that bind Ghana 
and the U.S., built by long years of Peace Corps activity, cultural and 
scientific exchanges, and by the fact that many AfroAmericans can trace 
their origins to Ghana.
    President Clinton's discussions with President Rawlings were 
cordial and covered considerable ground. During the meeting, President 
Rawlings signaled his intention to abide by constitutional strictures 
and not run for a third term. Touching on Ghana's ongoing energy 
crisis, President Clinton indicated the U.S. was prepared to examine 
ways to assist Ghana with its energy problems. As a result, loan 
guarantees were provided for the construction of two U.S.origin power 
barges and an energy assessment team composed of energy experts from 
USAID, the Departments of Energy and Transportation, and the Trade 
Development Agency has visited Ghana to provide advice.
    Question 3. What consequences will Nigeria's current political 
instability have on Ghana?
    Answer. Ghana will be required to keep a close eye on developments 
in Nigeria. An ever-present concern for Ghana is the potential impact 
on the region of an influx of refugees if Nigeria were to suffer 
serious civil disorder. Nigeria also has significant influence on 
Ghana's economy, providing one-third of Ghana's oil. A severe breakdown 
in Nigeria would have negative economic consequences for Ghana. Ghana 
will continue to work closely with Nigeria within the framework of 
ECOWAS, an organization to which the two countries are principal 
contributors and supporters. We anticipate that Ghana will continue to 
encourage moderation and stability in Nigeria and will not seek to take 
advantage of Nigeria's current fragile situation to strengthen its own 
role in the region.
    Question 4. Military units from Ghana have recently received U.S. 
training under the Administration's Africa Crisis Response Initiative 
an initiative that I have generally supported. Why was Ghana chosen as 
a participant? Please describe the training that took place in Ghana. 
Do you foresee additional training?
    Answer. The objective of the Africa Crisis Response Initiative is 
to enhance African peacekeeping capacities, particularly with respect 
to the ability of African countries to respond quickly and effectively 
to humanitarian crises. The initiative aims to strengthen peacekeeping 
capabilities within selected African militaries through training, 
exercises, and the provision of limited amounts of nonlethal equipment, 
particularly communications equipment. ACRI-trained militaries will 
have the potential to draw from their forces elements that can be used 
in peacekeeping situations together with similarly-trained forces from 
other African nations. The focus is on harmonizing practices and 
enhancing interoperability. The Initiative does not, however, seek to 
create a standing African peacekeeping force.
    Ghana was selected as a participant because it is a democratic 
state with a strong human rights record. In addition, Ghana's military 
has participated in over sixteen peacekeeping operations worldwide over 
the past three decades and enjoys a first-rate reputation for 
professionalism and competence.
    The training that took place in Ghana in April-May 1998 emphasized 
basic soldier skills, communications skills, and small group 
peacekeeping skills.
    There has been discussion about training a second Ghanaian 
battalion and a brigade-level command and control unit. The two sides 
are examining some of the issues related to such a decision.
    Question 5. A recent Financial Times article placed Ghana as not 
only the ``best performing market in Africa but also as one of the 
sharpest risers within the emerging markets sector worldwide.'' 
According to the article, the main index on the Ghana exchange has 
risen by 85% in dollar terms so far this year against a modest 8% 
advance in 1997. What can this sign of future economic health be 
attributed to? How likely is it that this trend will continue?
    Answer. This indication of economic health can largely be 
attributed to a surge in investor confidence sparked by Ghana's 
demonstrated adherence to economic reform policies agreed upon with the 
IMF and to visible evidence of investor opportunities. Ghana came back 
on track with its IMF program this year, an event which has boosted 
investor confidence. Improved Ghanaian fiscal discipline brought 
inflation down from 70% in 1996 to 27% in 1998 and resulted in an 
overall better environment for the private sector. Recent signs of 
economic health followed a bleaker period that began with massive GOG 
overspending on civil service pay hikes and infrastructure projects in 
1992. The government has demonstrated a readiness to correct these 
macroeconomic mistakes, and investor confidence in economic management 
has improved as a result.
    Investor confidence also reflects faith in Ghana's political 
stability. This confidence has developed continually since Ghana's 
first multiparty elections in 1992, and received a notable boost with 
the free and fair elections of 1996. Confidence now appears to be at an 
all-time high.
    Stock markets inevitably have their ups and downs, and it is not 
possible to predict whether Ghana's stock exchange will continue to 
rise at its present pace. Events such as Ghana's present energy crisis 
could temporarily dampen the pace. However, the prospects for continued 
growth are good as long as the Government stays with the economic 
reform agenda that it has agreed upon with its development partners.
    Question 6. Presently the immediate task of the IMF program in 
Ghana is to downsize the large budget deficits primarily through 
cutting public spending. However, the IMF is facing serious challenges 
from Ghana's leadership. There is contention from Vice President John 
Atta Mills and President Jerry Rawlings as to whether or not the 
conditionality of the IMF program are appropriate. What exactly is the 
substance of these concerns? Is the IMF program in Ghana working? Why 
or why not?
    Answer. A certain amount of tension between the IMF and a receiving 
country is probably inevitable. Vigorous discussion between the IMF and 
the Government of Ghana (GOG) is not unhealthy and represents the fact 
that both sides are engaged in a difficult and dynamic process. The 
fact is, Ghana is back on track with its IMF program and this suggests 
that there is broad agreement between the IMF and the GOG over the 
direction of the program. There is certainly a consensus within the GOG 
and leading sectors of Ghanaian society that the economic reform 
program as outlined by the IMF and others is appropriate. Debate is not 
over whether an economic reform program is needed, it is largely over 
the details. The IMF program in Ghana is working. President Rawlings 
has publicly committed his Government to staying with the program and 
we believe he will do so.
    Question 7. What opportunities has Ghana's expanding market 
provided for U.S. business? What sectors of the economy are most 
attractive for additional U.S. investment? What steps have been taken 
by the Department of State, the Department of Commerce, and the U.S. 
Agency for International Development to strengthen U.S. economic 
relations with Ghana?
    Answer. Ghana's expanding market contains significant opportunities 
for U.S. business in the areas of heavy equipment, vehicles, generators 
and other energy production equipment, food processing equipment, 
agricultural products, building materials and wood products, oil 
services and supply. Construction, energy production, and food 
processing are particularly active sectors. In addition, there are 
opportunities for U.S. business in the areas of tourism, banking, and 
financial services.
    The Departments of State and Commerce have encouraged Ghana through 
dialogue to undertake market reforms leading to an expansion of the 
private sector, and to develop regulatory and legal frameworks that 
encourage private investment. They have also urged Ghana to open up and 
expand its energy sector, utilizing private sector resources. The 
Embassy has encouraged the establishment and progress of the American 
Chamber of Commerce in Accra. Commerce has supported exhibits of U.S. 
products at numerous trade fairs in Ghana. USAID has encouraged new and 
better ways of doing business, promoted market-led investments in 
private enterprises, stimulated innovation in support services, and 
urged the Government to withdraw from businesses and services that can 
be better operated by the private sector.
    Question 8. The government's Vision 2020 goal is to have middle 
income status by 2020 implying a GDP growth rate of 8% or more 
annually, which relies on raising private sector investment. What are 
the prospects for Ghana to achieve this goal?
    Answer. The prospects for Ghana to achieve its Vision 2020 goal are 
good if it follows through with the economic reform agenda it has 
agreed to with the IMF and other development partners. The Government 
of Ghana is aware that it needs to make further improvements in its 
macroeconomic policies--particularly reducing the deficit and keeping 
inflation under control--and it appears poised to make the necessary 
critical adjustments. Ghana also needs to attract more investment to 
meet the Vision 2020 goal. While Ghana has an aggressive program to 
promote foreign investment, it will need to further streamline 
investment and regulatory procedures to attract the level of investment 
it needs. There appears to be a wide consensus within the Government to 
proceed with the needed reforms.
    Question 9. I understand that discussions are currently underway 
regarding a ``West Africa Pipeline'' which would involve the 
construction of a gas pipeline from Nigeria's Bonny Field, via Benin 
and Togo, to Ghana. This would allow access to the larger natural gas 
reserves of Nigeria. What is the likelihood of this project proceeding, 
and what is your opinion of it?
    Answer. Ghana, Benin, and Togo are in the throes of an energy 
crisis that began when water levels at Ghana's Akosombo Dam, the 
region's principal energy source, dropped well below normal levels. 
This event has clearly demonstrated that, due to capricious climatic 
conditions and rapidly growing consumer demand for electricity, Ghana 
and the region can no longer rely primarily on hydroelectric power to 
meet their energy needs. We believe that Ghana needs to examine a range 
of energy options to meet its needs and that most of these options lie 
within the private sector. We have urged Ghana to examine its energy 
policies and take serious steps to create an energy environment, 
including pricing structures, that will attract private sector 
investors. In an effort to assist Ghana with its energy problems, a 
team of U.S. energy experts is presently visiting Ghana to provide 
advice on a wide range of energy technologies, energy conservation 
techniques, and economic structures. We have consistently pointed out 
to the Government of Ghana the wealth of capital and expertise that is 
available through U.S. energy companies. We have also encouraged Ghana 
and its neighbors to work together to develop responses to the energy 
crisis within a regional framework.
    One of the options that has been proposed is the West African oil 
pipeline backed, in part, by a U.S. energy company. We have met with 
proponents of this project and have encouraged the Government of Ghana 
to examine this proposal, along with other pipeline and energy 
proposals by other U.S firms. A number of energy experts have indicated 
they believe this project offers a least-cost long-term solution to the 
energy requirements of Ghana and the region. The Government of Ghana 
has expressed strong interest in the project but has not yet taken 
definitive steps to move ahead with it. We continue to urge the 
Government to begin discussions with regional partners on optimal 
common solutions, and to move ahead expeditiously with a definitive 
plan of action.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate Robert C. Perry testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate Robert C. Perry to Written Questions
    Question 1. What are the prospects for the economy of the Central 
African Republic? Are there sectors of the economy, such as mining, 
where the U.S. private sector could make a contribution? Would you 
encourage U.S. companies to become involved?
    Answer. Prospects for the Central African Republic's economy are 
fair to good in the short-term. The Central African Republic is one of 
the world's poorest countries. Its already fragile economy was badly 
shaken by the mutinies of 1996 and 1997. At the end of 1997 it had a 
per capita GDP of $310. However, the Ministry of Finance, working 
closely with the IMF, has taken steps to improve revenue collection, 
begin the process of privatizing the petroleum and electricity 
parastatals and to meet military and civil service payrolls. The IMF 
executive board approved a new extended structural adjustment facility 
for the CAR on July 20. If the government maintains economic discipline 
and implements further necessary reforms, the CAR could enjoy a modest 
economic success. Already nearly self-sufficient in food production, it 
has potential for regional agricultural exports and for developing its 
mineral export sector.
    This is not a large economy. However, CAR does offer opportunities 
for American business in gold and diamond mining and/or export. While 
these areas have been and are still controlled mainly by CAR and French 
partnerships, there is room for American companies to enter the market. 
Privatization may offer opportunities for sales or service contracts as 
well.
    CAR's forest region is rich in varieties of flora and fauna and has 
real potential for ecotourism, export of wood veneers and possibly 
pharmaceutical discoveries.
    As Ambassador I would encourage US companies to invest in the CAR. 
I would work hard to promote American business, push for transparency 
in the awarding of contracts and make sure that opportunities for 
American business are identified promptly.
    Question 2. Please discuss the achievements and shortcomings of the 
African peacekeeping force, known as MISAB, that was deployed in CAR 
from February 1997 through March 1998. To what degree, in your view, 
was this force a model for peacekeeping in other African conflict 
situations? What support, if any, did the United States provide to 
MISAB?
    Answer. The six-nation MISAB restored and then maintained order in 
Bangui during its deployment. It collected and safeguarded weapons that 
had been used in the mutinies. I believe that the decision of the 
regional heads of state to deploy their troops and to assist in 
negotiations among the parties to the conflict was an important step 
forward for African peacekeeping MISAB troops were commanded by a 
Gabonese general and former Malian president Toure was a key figure in 
resolving political differences.
    MISAB's deployment helped keep a democratically-elected president 
in power, ended human rights abuses and violence against civilians by 
rebel forces, and restored security to a divided city. This effort did 
require financial and logistical support beyond the capacity of the 
regional states. France provided financing and logistics. There were 
some accusations, particularly during the first months, that MISAB 
troops had committed human rights abuses in their efforts to disarm 
rebels and dislodge them from their strongholds. This was a regrettable 
result of the rebels having barricaded themselves in the midst of 
civilian neighborhoods in various sectors of Bangui.
    U.S. support for MISAB was diplomatic rather than financial or 
logistical. Our then-Ambassador in Bangui was in constant touch with 
the various parties to the conflict as well as with regional mediators.
    Question 3. Why was MISAB replaced by a United Nations peacekeeping 
force? What assistance is being provided to this force, known as 
MINURCA?
    Answer. MISAB was an African multinational force, funded and 
provided with logistical assistance by France. The French indicated 
that, as part of their broader efforts to reform French Africa policy, 
they would cease funding MISAB and withdraw their permanent forces from 
the CAR by April 15 of this year. The international community 
recognized that without a force to replace MISAB for the short term, 
the unaddressed underlying economic and political causes of CAR's 
instability could quickly resurface; MINURCA was created to maintain 
that needed short term security.
    The US pays 25 percent of assessed costs for UN peacekeeping 
operations such as MINURCA. The UN estimates the costs of MINURCA's 
start-up and first six months of operations at $47.6 million. The US 
share would be $11.9 million. The assessed costs of the operation have 
been somewhat lessened as the French have made an additional voluntary 
contribution to MINURCA in cash and in kind. The French contribution 
includes virtually all of the equipment used by MISAB, including 
vehicles and communications equipment, as well as over $1 million in 
cash.
    Question 4. France has recently closed the bases it once used in 
CAR for deployments elsewhere in Africa and withdrawn its troops from 
CAR. What lay behind the French decision? In your view, does the French 
departure tend to undermine stability in the CAR and elsewhere in 
Africa? Please explain. How has the French withdrawal affected the 
operations of MINURCA, which were receiving French logistical support?
    Answer. While I cannot speak for the Government of France, I 
understand that the French decision to reduce its overall troop 
presence in Africa was based on a combination of budget considerations 
and increased military commitments outside Africa (such as Bosnia). 
Certainly the withdrawal of well-armed, well-trained French troops 
removes a security guarantee that helped to prevent instability in the 
CAR or elsewhere on the continent. This has been an important factor in 
international efforts to address the internal causes of instability in 
the CAR: so that it will not relapse into conflict when international 
forces are withdrawn. On the other hand, the absence of French troops 
obliges the CAR and other countries to take on responsibility for their 
own security.
    France funded the African multinational force MISAB, and French 
troops stationed in the CAR provided logistical support. As of April 
15, the date marking MISAB's termination and final transition to 
MINURCA, the French have not maintained an independent military 
presence in the CAR. The 200-soldier French contingent currently in CAR 
is an integral part of MINURCA and provides the logistics for the UN 
operation. MINURCA has the use of French-built military facilities in 
the CAR free of charge. The French voluntary contribution also defrays 
some of the salary costs of the French contingent.
    Question 5. In January 1998, UN Secretary General Kofi Annan 
expressed concern that certain aspects of the 1997 Bangui Agreements 
had not been implemented--particularly a parliamentary audit of persons 
suspected of misappropriating public funds, a reduction in the size of 
the presidential guard, and the dissolution of special security 
services. What progress has been made in these areas since January? 
What problems would be posed by a continuing failure to resolve these 
issues?
    Answer. I should clarify the first issue you have raised. The 
Bangui Accords called for a suspension of the parliamentary audit of 
persons suspected of misappropriating public funds. The parliamentary 
audit had been directed at members of the government of former 
President Kolingba, a number of whom had been jailed for months at the 
time of the May 1996 mutiny. Mutineers and opposition parties argued 
that the audit was a politically motivated effort to jail and tarnish 
the reputations of the Kolingba party. This audit was suspended by the 
CAR National Assembly early this year.
    There has been little progress on restructuring the CAR army into a 
genuinely multiethnic force. Presidential decrees renamed the 
presidential guard and special security services but made no genuine 
change. We, and others in the international community, have been 
pressing the CAR government hard over the past few months to take these 
crucial steps. A genuine restructuring of the army is critical to CAR's 
continuing stability after international peace keepers withdraw. A 
failure to resolve this issue could well result in renewed violence.
    Question 6. In your view, what were the principal causes of the 
military mutinies of 1996? To what degree did the mutineers have the 
support and the sympathies of the civilian population? Please explain.
    Answer. There was a complex of causes for the 1996 mutinies. In my 
view, the principal one was CAR's poverty, which arises from a mix of 
factors, including bad economic management and the country's landlocked 
position in the center of the continent. Historically, the party in 
power has used the country's resources for political patronage. In the 
case of the 1996 mutinies, the bulk of the army had not been paid in 
months while the president's personal guard received pay and 
promotions. Although the mutinies were conducted along ethnic lines, I 
see this as reflecting not so much deep animosity between groups as 
attempts by those in power to keep all of an overly small pie for their 
own supporters.
    The mutineers left barracks in May 1996 and set up strongholds in 
their own ethnic neighborhoods of Bangui. My strong impression of what 
then occurred was that the mutineers' popular support depended on the 
political sympathies of given civilian groups within whose 
neighborhoods they had barricaded themselves but that most of Bangui 
wanted nothing more than a quick end to the fighting.
    Question 7. Please discuss the ethnic makeup of the CAR army. What 
links exist between the army and the former military ruler, Andre 
Kolingba? To what degree do these links, if any, threaten democracy in 
the CAR?
    Answer. The CAR army is largely of the Yakoma ethnic group, to 
which former President Kolingba also belongs. There are both ethnic and 
political ties between members of the army and Kolingba's party; 
political allegiances in the CAR tend to follow ethnic lines. Although 
the mutineers did not overthrow the Patasse government, at one point 
they called for his resignation. Ethnic politics in the CAR center 
around competition for scarce resources rather than any traditional 
animosities. I believe that CAR does have a chance to move beyond 
potentially dangerous ethnic politics, and the key is sound management, 
giving all CAR citizens a shot at economic security.ZI11Question 8. 
What is your assessment of the quality of governance in the Central 
African Republic under President Patasse? To what degree have 
corruption and the misappropriation of public funds been a problem?
    Answer. There is no question that there has been mismanagement; 
there have also certainly been serious allegations of corruption 
against the Patasse government, as against earlier regimes. I am 
encouraged at the work being done by the Ministry of Finance in close 
cooperation with the IMF. The focus is now on budget transparency and a 
serious program of revenue collection. A sound economic program open to 
public scrutiny is essential.
    Question 9. Please describe the preparations being made for the 
legislative elections in CAR, scheduled for August/September 1998. In 
your view, are these arrangements adequate to assure a free and fair 
vote? What support, if any, is being given by the United States to the 
elections process?
    Answer. The elections will be held in two rounds, on September 20 
and October 11. CAR's Constitutional Court will announce the results on 
October 25, allowing two weeks for any recounts or challenges that may 
arise. President Patasse named former Prime Minister Michel Adama-
Tamboux, who is not affiliated with a political party, as President of 
the Independent Electoral Commission. All registered parties can 
participate in the Electoral Commission; most have chosen to do so. The 
Commission is organizing and will supervise the elections; putting this 
responsibility in the hands of a multiparty independent organization 
will ensure greater transparency in the process and results. UNDP is 
coordinating donor assistance.
    These arrangements should be adequate to permit free and fair 
elections. The CAR held free and fair democratic elections in 1993.
    The Department of State is working with AID to find funds for the 
National Democratic Institute to train national and political party 
monitors, which would give participating parties a stake in the outcome 
of the elections.
    Question 10. CAR is bounded by three countries that have seen a 
great deal of conflict and instability--Sudan, Congo Brazzaville, and 
Congo Kinshasa. In what ways, if any, has instability in these 
countries affected the situation in the Central African Republic?
    Answer. Refugees from all three countries have fled into the CAR, 
and required international assistance. There have been some reports of 
armed ex-FAZ in border areas. It is quite possible that bandits from 
one or more of these countries are contributing to the rise of violent 
crime reported throughout the CAR over the past two years; the CAR 
armed forces have neither the resources nor the personnel to adequately 
patrol remote areas of the country

                               __________

 Responses of Ambassador-Designate Robert C. Perry to Written Questions
    Question 1. In approving the deployment of new peacekeeping 
operations in CAR, the United Nations established a series of 
benchmarks that it will evaluate at 3 month renewal periods. One of 
these benchmarks concerns progress in the electoral process. Please 
describe the preparations being made for the legislative and 
presidential elections in CAR. Have dates been scheduled? In your view, 
are the arrangements for the elections adequate to assure a free and 
fair vote? Why or why not? Do you think the electoral process will meet 
the standards set by the United Nations?
    Answer. The legislative elections will be held in two rounds, on 
September 20 and October 11. CAR's Constitutional Court will announce 
the results on October 25, allowing two weeks for any recounts or 
challenges that may arise. Dates have not been set for the presidential 
elections, which will be held in 1999.
    President Patasse named former Prime Minister Michel Adama-Tamboux, 
who is not affiliated with a political party, as President of the 
Independent Electoral Commission. All registered parties can 
participate in the Electoral Commission; most have chosen to do so. The 
Commission is organizing and will supervise the elections; putting this 
responsibility in the hands of a multiparty independent organization 
will ensure greater transparency in the process and results. UNDP is 
coordinating donor assistance.
    These arrangements should be adequate to assure a free and fair 
vote and to meet UN standards. The CAR held free and fair democratic 
elections in 1993.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate John M. Yates testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate John M. Yates to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question 1. In October 1992, multi-party elections were held in 
Cameroon, and observers said the elections were deeply flawed. Do you 
agree with this assessment. What measures did the United States take as 
a result?
    Answer. I assume your question refers to the October 1997 
elections. I agree with the assessment of observers from the 
International Foundation for Election Systems (IFES), the British 
Commonwealth and the Francophone community that the October 1997 
legislative elections were flawed.
    Following the legislative elections, the United States urged the 
Cameroonian government to reach an agreement with the opposition 
parties on electoral reforms that would ensure that the subsequent 
October presidential elections would be free and fair. The State 
Department issued a statement on September 18 regretting that the 
government and opposition were unable to reach such an agreement.
    Question 2. President Paul Biya has been in power for over 15 
years. What can you tell us about Paul Biya? Do you consider him a 
democrat, a dictator?
    Answer. Trained as a lawyer, Paul Biya was a career government 
employee who rose through the ranks to become Prime Minister in 1975. 
He succeeded Cameroon's first president in 1982 in accordance with 
Cameroon's constitution. Biya inherited a rigid one-party state and 
exhibited little inclination for reform. Eventually, however, he 
allowed an opening of the political system and made modest improvements 
in human rights. While he has undertaken reforms grudgingly and is a 
democrat by necessity rather than conviction, he has come a long way in 
fifteen years. Based on what I have been able to determine in 
preparation for this assignment, I would not consider him a dictator.
    Question 3. There are a number of active opposition political 
parties in Cameroon. What can you tell us about SDF and UNDP? How about 
their leaders?
    Answer. The Social Democratic Front (SDF) was created in 1989 by 
John Fru Ndi, an anglophone businessman from the primarily anglophone 
northwest. The SDF is the largest opposition party, with a strong base 
in the anglophone northwest and among educated urban dwellers. The SDF 
boycotted the 1997 presidential elections. It recently broke off a 
dialogue that it had begun with the government following the 1997 
elections, largely because of the government's refusal to establish an 
independent electoral commission. There are splits within the party 
between moderates who seek dialogue with the government and hard liners 
who oppose dialogue and advocate SDF withdrawal from the parliament. 
The SDF Congress, scheduled for later this year, cold see challenges to 
Fru Ndi's leadership.
    The National Union for Democracy and Progress (UNDP is the French 
acronym) is headed by Maigari Bello Bouba. Bello Bouba, son of a well 
known northern chieftain, rose quickly through government ranks to 
become Prime Minister under Biya in 1982. When hostilities broke out 
along north-south lines, Bello Bouba was forced out of his position. He 
founded the UNDP in May 1990. After boycotting the 1997 presidential 
election, the UNDP subsequently joined the ruling coalition. Bello 
Bouba was named Minister of Industry and Commerce. Many UNDP supporters 
oppose the coalition arrangement, in part because they do not believe 
they have received their share of government positions or influence.
    Question 4. The second multi-party legislative and presidential 
elections were held in 1997. The ruling party won a majority in the 
National Assembly and President Biya was reelected. Were these 
elections free and fair? Why did the opposition boycott the 
presidential election.
    Answer. We do not believe the October 1997 legislative elections 
were free or fair. The major opposition parties, as well as observers 
from the International Foundation for Election Systems (IFES) the 
British Commonwealth and the Francophone community, had found 
deficiencies in the electoral procedures. The opposition parties sought 
electoral reforms before the presidential election. In particular, they 
wanted an independent electoral commission. They boycotted the 
presidential election because they were unable to reach an agreement 
with the government on electoral reforms.
    Question 5. The former Health Minister, Titus Edzoa, who defected 
to form his own party in April 1997, had been detained for over a year. 
What is the reason behind Edzoa's detention?
    Answer. Titus Edzoa is serving a 15 year sentence following his 
conviction on corruption charges. We have no reason to believe that 
Edzoa was not guilty of the charges brought against him, but we 
question whether the charges were brought for political reasons 
associated with his opposition to Biya.
    Question 6. What is your assessment of the current political 
situation in Cameroon? What are the prospects for improved conditions? 
Are you optimistic about democracy in Cameroon?
    Answer. Cameroon's political system has evolved in the last ten 
years, but it has a long way to go before I would classify it as a 
democracy. A decade ago Cameroon was a one-party state with no private 
press or other means for people to express their views. There are now a 
number of political parties and an active private press; both can and 
do criticize government policies. Unfortunately Cameroon's elections 
have been flawed and the government has yet to establish the Senate and 
Regional Councils called for in the Constitution and implement the 
existing law allowing private broadcasting. Cameroon is moving in the 
right direction, just not very quickly. I am guardedly optimistic that 
it will continue to make progress on democratization and my task as 
Ambassador will be to try to accelerate that process.
    Question 7. What is the significance and basis of the English-
speaking and French-speaking split? Is this reflected in relative 
income? Social class? political parties?
    Answer. The split between English speakers and French speakers is 
primarily regional rather than economic or social. Formerly a German 
colony, Cameroon was into British and French administered territories 
following the First World War and then reunited at independence. The 
linguistic difference is largely regional: English is spoken primarily 
in the sections of the country that were under British administration 
(the northwest) and French is spoken primarily in the regions that were 
under French administration. Although Cameroon is officially bilingual 
and many people, particularly the more educated, speak both languages, 
French is the more widely spoken language and some anglophones believe 
that they are at a disadvantage. The SDF party is particularly strong 
in the English-speaking regions of the country, but draws considerable 
support among French-speakers as well.
    Question 8. Cameroon has one of the highest per capita incomes in 
Africa. What is your assessment of the economy? How would you rate 
Cameroon's privatization program? How are relations between the 
government and the international financial institutions?
    Answer. Cameroon enjoyed strong economic growth from independence 
until the mid-1980s when a combination of bad economic policies and 
declining commodity prices led to economic stagnation from which it has 
only recently begun to recover.
    Cameroon has made some progress on privatizing state-owned 
companies, but more needs to be done. I would give it a B- in 
comparison to other African countries.
    Following four failed IMF programs since 1987, the government 
signed an enhanced structural adjustment facility (ESAF) with the IMF 
in August 1997 and has so far adhered to its conditions. The World Bank 
also has an active program in Cameroon.
    Question 9. Cameroon owes an estimated $8 billion in external debt. 
How has this situation affected the economy? What are the prospects for 
debt cancellation?
    Answer. Although Cameroon's debt burden is not among Africa's 
heaviest, the government is not able to service its debt fully. Over 
the last ten years Cameroon has received five reschedulings from the 
Paris Club of bilateral creditor governments, including the United 
States. The most recent agreement, in 1997, reduced by 67% many of the 
payments coming due over the next three years and rescheduled those 
payments. If Cameroon continues to implement its current IMF program, 
we expect that in the year 2000 Paris Club creditors will agree to 
reduce by 50% or more the stock of debt Cameroon owes them. We believe 
that this reduction would leave Cameroon with a sustainable debt 
burden.
    Question 10. Critics accuse the government of widespread corruption 
in the civil service. How serious a problem is corruption? What steps 
has the government taken?
    Answer. Corruption is a serious problem in Cameroon. Although 
President Biya announced an anti-corruption campaign in June 1995 and 
the government initiated measures to combat endemic corruption by civil 
servants in September 1996, the efforts have had limited effect. 
Following the formation of a new government in December 1997; the Prime 
Minister renewed the anti-corruption campaign by creating an ad hoc 
committee to address the problem. Other than sensitizing the population 
on the problem, the anti-corruption campaign has yet to show 
significant concrete results.
    Question 11. Relations between the United States and the Biya 
government have deteriorated since the flawed elections of 1992 and 
poor human rights conditions. How would you characterize relations 
between the two countries? What is your assessment of human rights 
conditions? What are prospects for improvement?
    Answer. Bilateral relations have improved somewhat since the early 
1980s, but they remain limited. In the wake of the flawed 1992 
elections we closed our bilateral aid program, suspended the delivery 
of some military equipment and took other steps reflecting our concerns 
about the political and human rights situation. Since then, we have 
seen modest improvements in both areas and a significant improvement in 
press freedom. Following last year's elections, the government freed 
some political prisoners and initiated a dialogue with opposition 
political parties, which resulted in one party entering the government. 
In response to these measures, we allowed delivery of some military 
radios that had been blocked since 1992. Transportation Secretary 
Slater's recent visit to Cameroon the first by a cabinet secretary 
since the 1992 elections also reflects this slight improvement in our 
relations. Nevertheless, Cameroon's human rights record remains flawed. 
We have made it clear to the Cameroonian government that further 
improvements in bilateral relations will depend on its progress on 
political reform and human rights conditions.
    Question 12. What are your priorities as ambassador? What would you 
do specifically to help improve human rights and democracy?
    Answer. My priorities as Ambassador would be ensuring the safety 
and welfare of American citizens and seeking a favorable environment 
for U.S. businesses. As Ambassador, I would also continue our policy of 
linking improvements in bilateral relations to Cameroon's progress on 
democratization and human rights. I would consistently demonstrate my 
concern about these issues, and explain that this concern is shared by 
Congress, human rights organizations and others in the United States. 
My experience in the Republic of Benin over the past three years, where 
democracy and economic liberalism are achieving significant success, 
provides me with a considerable inventory of information about programs 
that have worked successfully. I would expect at least some of this 
experience to be transferable.
    Question 13. What is the current status of the Bakassi Peninsula 
dispute between Nigeria and Cameroon? Are you optimistic that the 
conflict can be resolved peacefully?
    Answer. On June 11 the International Court of Justice in The Hague 
found that it has jurisdiction to deal with the merits of the case 
brought before it by Cameroon against Nigeria concerning their boundary 
dispute. The Court will now address the merits of the case.
    There are continuing small scale skirmishes between Cameroonian and 
Nigerian troops on the Bakassi Peninsula, but there is some room for 
cautious optimism that large scale fighting can be avoided. Much will 
depend- on the new Nigerian government's policy on the dispute.

                               __________

 Responses of Ambassador-Designate John M. Yates to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question 1. Relations between the U.S. and the Biya government have 
deteriorated since the flawed elections of 1992 and poor human rights 
conditions. How would you characterize relations between the two 
countries? What is your assessment of human rights conditions? What are 
the prospects for improvement?
    Answer. Bilateral relations have improved somewhat since the early 
1990s, but they remain limited. In the wake of the flawed 1992 
presidential election we suspended most new aid obligations and later 
closed the AID mission in Yaounde. We also suspended the delivery of 
some security assistance articles. These actions were taken in response 
to the government's crackdown on opposition activities, including the 
declaration of a state of emergency in some regions, the arrest of 
opposition figures and credible reports of serious human rights 
violations by security forces, as well as the election itself. The 
government's modest efforts to open the political system and improve 
human rights have enabled us to make reciprocal gestures. We recently 
allowed the delivery of some military radios that had been suspended in 
1992. Transportation Secretary Slater's recent visit to Cameroon--the 
first by a cabinet secretary since the 1992 elections, also reflects 
the slight improvement in relations. We have made it clear to the 
government that further improvements in bilateral relations will depend 
on its progress on political reform and human rights.
    The Cameroonian government's human rights record is poor, although 
there have been improvements in recent years. Security forces have 
committed extra judicial killings and often abuse detainees. They 
arrest and detain arbitrarily opposition figures and human rights 
activists and harass citizens. Prison conditions are life threatening. 
(Details are available in the State Department's human rights reports.)
    The frequency and severity of the abuses do, however, appear to be 
diminishing. Perhaps more importantly, the government has begun taking 
action against human rights abusers. For example, Cameroonian courts 
recently sentenced several police officials to jail terms in two 
separate cases related to deaths in police custody.
    We are guardedly optimistic that Cameroon will continue to make 
progress on human rights and I will work to accelerate that process.
    Question 2. Cameroon's second multi-party legislative and 
presidential elections were held in 1997. The ruling party won a 
majority in the National Assembly and President Biya was reelected. 
Were these elections free and fair? Why did the opposition boycott the 
presidential election? What is the extent, if any, of U.S. contact with 
the opposition and with civil society in general?
    Answer. The assessment of observers from the International 
Foundation for Election Systems (IFES), the British Commonwealth and 
the Francophone community that the May legislative elections were not 
free and fair is an accurate one. The three major opposition parties 
sought electoral reforms before the presidential elections. In 
particular, they wanted an independent electoral commission. They 
boycotted the presidential elections because they were unable to reach 
an agreement on electoral reform. Biya won the boycotted elections 
against several minor candidates with over 9O% of the vote. The 
government claimed that voter turnout was 80%. Opposition puts the 
figure at closer to 30% The opposition figure is probably closer to 
reality.
    The U.S. Embassy in Yaounde has extensive and regular contact with 
the opposition and with civil society in general, including with 
opposition party leaders, human rights activists, non-governmental 
organization officials, and journalists.
    Question 3. Is there a free press in Cameroon?
    Answer. Cameroon's constitution provides for freedom of the press, 
and the press has enjoyed increased liberty following the 1996 repeal 
of a law that authorized press censorship. Even though the government 
continues to impose some limits on those rights, there is a vibrant 
private press which can and does criticize the government. 
Nevertheless, the government continues occasionally to prosecute 
journalists under libel laws that specify that defamation, abuse, 
contempt, and dissemination of the false news are offenses punishable 
by prison terms and heavy fines. The government has not implemented a 
law aimed at opening the electronic media to private interests and it 
continues to control radio and television.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate James V. Ledesma testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate James V. Ledesma to Questions Asked 
        by Senator Helms, Senator Ashcroft and Senator Feingold

    Question 1. Would you describe Gabon as a democratic 
nation? In your answer, please comment on the elections that 
have taken place in Gabon during the 1990s.
    Answer. Democracy in Gabon is a work in progress. Its 
presidential elections in 1993 were flawed. In 1994, President 
Omar Bongo accepted the Paris Accords, a series of political 
and electoral reforms designed to make Gabon multi-party. In 
1996, Gabon witnessed municipal and legislative elections, with 
mixed results. In the municipal elections, opposition parties 
won the mayors' office in the country's two largest cities, but 
the legislative elections were conducted in an unsatisfactory 
manner. Presidential elections re scheduled for this December 
and we are hopeful they will be fair, transparent, and 
internationally recognized as legitimate. It seems the Bongo 
government feels likewise, as it has sought and even offered to 
finance international election monitors and foreign technical 
assistance.
    Question 2. Gabon is to conduct presidential elections by 
the end of 1998. What preparations have been made for these 
elections? What electoral assistance, if any, is being provided 
by the United States?
    Answer. The Gabonese Government (GOG) has stated that it 
will conduct transparent and open elections in December and has 
invited observers and electoral assistance from the 
international community. The GOG constructed in Libreville a 
training center for election workers which will subsequently 
serve as a voter registration center for the Libreville and 
Owendo regions (Gabon's most populous area).
    Various opposition parties have held regional and national 
conventions in preparation for the December poll. Currently 
there are four declared opposition candidates. Each of the 
numerous political party newspapers have been extolling the 
virtues of their candidate.
    The U.S. Embassy in Libreville has been closely monitoring 
these political developments. Embassy officials have observed 
each of the major party conferences and have met with the 
leaders of Gabon's major (and some minor) political parties. 
They have also met with the leadership in the GOG (President, 
Vice President, Prime Minister, Ministers of Interior, Defense, 
Planning, Foreign Affairs, etc.). In each and every meeting, 
the U.S. message has been clear: Gabon's standing in the 
international community depends on a transparent and open 
electoral process.
    This past May, the Embassy sent representatives from 
Gabon's two largest opposition parties on a USIA-funded 
International Visitor Program to examine the democratic process 
in the United States. However, the representative from the 
majority party dropped out of the program at the last minute.
    In June, Ambassador Raspolic and Gabon's Minister of 
Interior signed an agreement in which the Embassy will provide 
African election monitors under a Democracy and Human Rights 
Fund project valued at $87,000. The Embassy is currently in the 
process of selecting the Francophone African NGO who will 
manage the project. The Embassy is also in contact with other 
donors (Canada, France, Japan, EU, and UNDP) to explore ways to 
coordinate electoral assistance.
    Question 3. Do you expect President Bongo to be a candidate 
in the 1998 presidential vote? What benefits and liabilities 
would his candidacy have for Gabon?
    Answer. Although he has not formally announced his 
candidacy, President Bongo will almost certainly seek 
reelection as President. As he is the man to beat in these 
elections, his candidacy may help consolidate an already 
fractious opposition. The greatest liability that his candidacy 
poses is that it will likely dominate the electoral process and 
open the government to criticism of manipulation.
    Question 4. France has had a long and close relationship 
with Gabon and President Bongo, but the French Socialist 
government seeks to reduce French commitments in Africa. Please 
describe the current state of relations between France and 
Gabon. Are French troops currently based in Gabon? If so, are 
they expected to remain? To what degree will the changes 
currently underway in French Africa policy threaten the 
political stability of Gabon?
    Answer. Relations between France and Gabon remain close, 
cooperative, and friendly. France is Gabon's primary trading 
partner and donor. France maintains a 550-person military base 
in Libreville and there are no plans to reduce the size of this 
garrison. The changes in French African policy have resulted in 
a diminution of economic assistance relative to previous years. 
The change in French policy has encouraged the Gabonese 
Government to look for other markets and donors and, thereby, 
has reinforced the importance of open markets and the 
democratic process.
    Question 5. Gabon uses the CFA franc, which is linked to 
the French franc at a fixed exchange rate guaranteed by France. 
Yet France is a founding member of the European Monetary Union 
(EMU) and its currency will be replaced by the Euro in 2002, 
after a 3-year transition. What impact will the emergence of 
the Euro have on the CFA franc? What preparations have France 
and its EMU partners made to accommodate the needs and 
interests of the CFA countries?
    Answer. The governments of France and the CFA franc 
countries have indicated their intention to preserve the 
existing CFA franc zone arrangements, including the French 
Treasury's guaranteed convertibility of the CFA franc, during 
and after the transition to the Euro. Such a commitment is 
allowed under the Maastricht Treaty, and the European Union 
(EU) has recognized that France can maintain this pre-existing 
agreement, with no obligation on the part of the EU. The French 
franc-Euro conversion rate to be established as of January 1, 
1999, will determine the new fixed parity between the Euro and 
the CFA franc. However, it is not yet clear whether EMU 
countries will agree that the guarantee is a budgetary 
arrangement purely between France and the CFA countries, as 
French officials have characterized it, or that it is an 
exchange rate arrangement that affects all EMU countries and in 
which France's EMU partners should also have a voice.
    The transition to the Euro offers advantages for the CFA 
countries at the same time that it poses some risks. Europe is 
the leading export market for the CFA franc zone. A fixed 
exchange rate between the Euro and the CFA franc will stimulate 
trade with EMU countries and encourage higher inflows of EU 
foreign direct investment in the CFA franc zone. It should also 
improve access by CFA franc countries to the European money 
market. European demand for exports by CFA franc and other 
African countries is likely to increase if the Euro leads to 
higher growth in EMU countries. As to the risks, any volatility 
during the transition to the Euro could have an adverse impact 
on the CFA franc zones' export earnings, as many of its key 
exports are priced in U.S. dollars. If the Euro emerges as a 
strong currency, CFA franc countries will be obliged to hold 
domestic price inflation to a lower level in order to keep the 
real value of the CFA franc at a level consistent with the 
fixed exchange rate.
    The fixed exchange rate between the CFA franc and the 
French franc has changed only once in the last fifty years, 
that being the fifty percent devaluation that occurred in 
January 1994. In general, the countries of the CFA zone will 
have to contend with increased uncertainty in the minds of 
investors until the transition to the Euro is complete. Private 
investors may be less willing to commit capital in these 
countries if they perceive increased risk of another 
devaluation because of the transition. The countries of the CFA 
zone can best instill confidence in their currency by 
rigorously holding to sound macroeconomic policies. The 
Government of France has taken great pains to reaffirm its 
commitment to the CFA franc zone and to allay the fears among 
African countries that the transition to the Euro might lead to 
a devaluation. French officials have voiced the opinion that 
economic fundamentals in the CFA zone do not now call for a 
devaluation. At the same time, some economic sectors in the 
zone have become less competitive since the onset of the Asian 
financial crisis, for example Gabon's forestry sector. Over 
time, there is clearly the possibility for adjustment in the 
CFA franc parity.
    Question 6. Please outline the dimensions of Gabon's oil 
wealth. What U.S. companies are active in the Gabonese oil 
industry? What additional opportunities do you see for U.S. 
business in Gabon, whether in petroleum or in other sectors?
    Answer. Gabon is presently the third largest oil producer 
in Africa, after Nigeria and Angola. It produces approximately 
400,000 barrels of oil per day, or 18.5 million tons annually. 
The U.S. is Gabon's largest customer, purchasing $2.2 billion 
in oil annually. Most observers believe Gabon's oil production 
has reached a plateau and may begin to decline within the next 
few years. Amerada Hess, ARCO, and Marathon are the main U.S. 
companies active in Gabon's oil industry.
    Although ELF and Shell are the largest operators in the oil 
industry, American companies are becoming more active. However, 
the Government of Gabon is interested in diversifying its oil 
company partners, increasing its reserves, and exploring deep 
water potential, and this offers good opportunities to U.S. 
companies.
    Air Gabon is considering replacing its aging (mostly 
Boeing) fleet in the near future and this represents and 
opportunity to the Boeing company (although the Airbus is 
offering stiff competition). Pratt and Whitney is interested in 
providing engines for any new aircraft acquisition (including 
Airbus). Sikorsky has been working on a helicopter sale for two 
years. There are also nascent plans to develop and build a 
regional aircraft servicing center in Franceville for Boeing 
737s.
    The telecommunications sector also offers opportunities for 
U.S. investors. Motorola, which is the main cellular supplier 
to Gabon's telecom operator, OPT, is close to closing a 
contract for expansion and conversion of cellular services to 
the GSM European standard. There is also potential for more 
U.S. business as the OPT seeks to privatize and the World Bank 
plan calls for a second operator.
    Question 7. Gabon's tropical rain forest is a rich economic 
resource for Gabon, but it is also important to the global 
environment because of its bio-diversity and as a source of 
oxygen. What efforts are underway to conserve and protect 
Gabon's forest. What contribution, if any, is being made to 
these efforts by the United States?
    Answer. There are several multilaterally and bilaterally-
funded projects dealing with forest research and protection in 
Gabon. At Gabon's national park at Lope the European Union (EU) 
funds research of protected areas as part of a larger effort in 
the Congo basin. It also has a program for the training and 
sensitization of decision-makers relating to forest 
conservation and management. The World Bank is also involved in 
two projects. It endows the Government of Gabon with $6-8 
million per year to promote positive forest management. It also 
funds a larger regional project involving mapping and sharing 
information on forest issues. The headquarters for this 
regional project is Libreville.
    The Dutch have a $2 million effort in Gabon supporting the 
management of two protected areas. The U.S., through the USAID-
funded regional CARPE program, is also supporting forest 
research and sound conservation and management practices, 
cooperating with most of the above-mentioned projects, as well 
as managing some of its own.
    Taken together, approximately $1O-12 million is spent 
annually in Gabon in these programs designed to protect this 
important natural resource.
    Question 8. In Congo Brazzaville, a neighbor of Gabon's, 
former military ruler Denis Sassou Nguesso seized power in 
October 1997, following a long internal conflict. What was 
Gabon's involvement, if any, in this conflict? What effect did 
the conflict have on Gabon? Please describe Gabon's current 
relations with Congo Brazzaville.
    Answer. President Bongo tried to mediate a peaceful 
solution to the conflict. His mediation effort had the 
diplomatic backing of the U.S., UNSC, EU, and OAU. Aside from 
the influx of refugees, the conflict has had little effect on 
Gabon. The Government of Gabon has expressed concern that the 
Congo's unsettled political and economic situation has raised 
security concerns along the Gabon/Congo border. Current 
relations between the two countries can best be described as 
cordial.
    Question 9. Please discuss Gabon's economic reform program. 
What progress has been made in privatizing state-owned 
enterprises? What opportunities, if any, has privatization 
opened for U.S. business?
    Answer. The Government of Gabon (GOG) has expressed its 
commitment to the international financial institutions to 
complete its economic reform program. However, Gabon has 
slipped against its agreed-upon list of accomplishments with 
the IMF. Although there has been some progress (implementation 
of VAT and some reduction and regularization of import duties, 
for example), there have been delays in putting into place 
administrative reform, investment reform, and privatization of 
parastatals.
    The only privatization to date has been the electricity and 
water company (SEEG), which was privatized by a long-term 
management concession in 1997. The French company, Compagnie 
Generale des Eaux (now Vivendi), in association with Electicity 
Supply Board International (ESBI) of Ireland, gained the 
management concession. The railroad (OCTRA) and 
telecommunications (OPT) companies are next in line for 
privatization by long-term management concession, but continue 
to face delays in implementation. The GOG expresses a desire to 
diversify its partners and gain U.S. investment, but French 
companies have much more experience, tradition, and interest in 
the Gabonese market. Aviation and telecommunications in 
particular offer potential for U.S. investors or exporters. Air 
Gabon, the rubber company (HEVEGAB), and the sugar company 
(SOSUHO) are other companies identified for privatization.
    Question 10. Can you tell us how many other U.S. 
ambassadors are accredited to two countries? What criteria are 
used by the Department of State in determining whether dual 
accreditation is appropriate? Would you recommend dual 
accreditation as a means of achieving economies elsewhere in 
Africa, perhaps in the case of Senegal and Gambia, for example, 
or South Africa and Lesotho?
    Answer. There are three ambassadors in Africa accredited to 
more than one country. In Yaounde, our ambassador is accredited 
to Equatorial Guinea. In Mauritius, our ambassador is 
accredited to the Comoros and Seychelles, and in Libreville our 
ambassador is accredited to Sao Tome and Principe.
    The criterion used to determine dual accreditation is when 
there is no American presence in a country we recognize. It is 
extremely unfortunate that in the case of Equatorial Guinea, 
Comoros and Seychelles, post closures due to budgetary 
constraints have meant we needed to pick up accreditation from 
a neighboring country.
    Dual accreditation as a means of achieving economies 
elsewhere in Africa could be considered if economics were the 
overriding factor. However, we have found that a ``universal 
representation'' and continued U.S. resident presence in 
African countries is critical to our ability to represent and 
advance U.S. interests there. Given the President's recent 
visit, commitments made and friendships forged, we project even 
greater demands on U.S. diplomacy in Africa. Having permanent 
U.S. resident presence, if even one officer, has given us the 
toe-hold so necessary in the Third World environment.
    Question 11. How will you divide your time between Gabon on 
the one hand and Sao Tome and Principe on the other? Do you 
have any concern that Sao Tome, which seems to have the greater 
economic problems, might' b9 neglected under the dual 
accreditation arrangement?
    Answer. Officers from the Embassy in Libreville frequently 
visit Sao Tome and Principe (STP), traveling there on the 
average of once every five to six weeks. Stays are generally of 
4-7 days in duration. Given STP's very small size, both in size 
and population, we have found that this allows us to adequately 
report on developments in the island nation and to sufficiently 
engage its leaders and represent our interests there.
    Question 12. According to the Department of State's 1997 
report on human rights practices in Sao Tome and Principe, 
``the economy is based on the export of a single product, 
cocoa, produced in an archaic state-Fun system of 
plantations....'' Does the Sao Tome and Principe government 
have a program to introduce a more efficient system of 
production? Please explain. What progress has been made in 
economic reform in other sectors of the economy?
    Answer. The economy of Sao Tome and Principe (STP) is 
almost exclusively based on the export of cocoa. Systematic 
nationalization of the plantations and declining cocoa prices 
have caused the economy to decline since independence. The 
Government of STP (GOSTP) has had an on-again/off-again 
relationship with international financial institutions (IFIs) 
and structural adjustment programs. Many of the cocoa 
plantations have been privatized by long-term management 
contracts or leases with foreign concerns. Under land reform 
programs, some of the plantation land has been redistributed. 
Production still remains well below the levels at independence.
    The GOSTP has expressed its desire to privatize 
parastatals, reform import duties, and liberalize prices, but 
has made little progress. The Government has been unable to 
control spending and inflation The po4icy of the U.S. 
Government will remain to urge the GOSTP to reach agreement 
with the IFIs, including restrictions on government spending, 
for a structural adjustment program in order to gain benefits 
under the Highly Indebted Poor Countries (HIPC) initiative.
    Question 13. An August 1995 military mutiny in Sao Tome and 
Principe was resolved only when the President granted the 
mutineers an amnesty. To what degree, in your view, does the 
military pose a threat to democracy in Sao Tome and Principe?
    Answer. Sao Tome and Principe's difficult economic 
condition and the lack of good governance pose a greater long-
term threat to that island nation's political stability than 
the military. The military's concern about unpaid salaries, 
inadequate social services, and supplies are concerns echoed by 
the civil service and general population. The Government of Sao 
Tome and Principe needs to implement an aggressive structural 
adjustment program in concert with the donor community in order 
to address these concerns effectively. Unfortunately, the 
Government remains fractured along political party lines and 
seems unable to effect any sort of economic reform. Hopefully, 
legislative elections in October may provide the mandate to 
implement an economic program.

                              ----------                              


Responses of Ambassador-Designate James V. Ledesma to Written Questions

    Question 1. Would you describe Gabon as a democratic 
nation? Please comment on the elections that have taken place 
in Gabon during the 1990s.
    Gabon is scheduled to conduct presidential elections by the 
end of 1998. What preparations have been made for these 
elections? What electoral assistance, if any, is being provided 
by the U.S.?
    Outside of the electoral process, how can the U.S. 
demonstrate support for Gabonese civil society?
    Answer. Democracy in Gabon is a work in progress. Its 
presidential elections in 1993 were flawed. In 1994, President 
Omar Bongo accepted the Paris Accords, a series of political 
and electoral reforms designed to make Gabon multi-party. In 
1996, Gabon witnessed municipal and legislative elections, with 
mixed results. In the municipal elections, opposition parties 
won the mayors' office in the country's two largest cities, but 
the legislative elections were conducted in an unsatisfactory 
manner. We are hopeful that the presidential elections 
scheduled for this December will be fair, transparent, and 
internationally recognized as legitimate.
    The Gabonese Government (GOG) has stated that it will 
conduct transparent and open elections in December and has 
invited observers and electoral assistance from the 
international community, even offering funding for this 
purpose. The GOG has already constructed in Libreville a 
training center for election workers which will subsequently 
serve as a voter registration center for the Libreville and 
Owendo regions (Gabon's most populous area) . Various 
opposition parties have held regional and national conventions 
in preparation for the December poll. currently there are four 
declared opposition candidates. Each of the numerous political 
party newspapers have been extolling the virtues of their 
candidate
    The U.S. Embassy in Libreville has been closely monitoring 
these political developments. Embassy officials have observed 
each of the major party conferences and have met with the 
leaders of Gabon's major (and some minor) political parties. 
They have also met with the leadership in the GOG (President, 
Vice President, Prime Minister, Ministers of Interior, Defense, 
Planning, Foreign Affairs, etc.) . In each and every meeting, 
the U.S. message has been clear: Gabon's standing in the 
international community depends on a transparent and open 
electoral process.
    This past May, the Embassy sent representatives from 
Gabon's two largest opposition parties on a USIA-funded 
International Visitor Program to examine the democratic process 
in the United States. However, the representative from the 
majority party dropped out of the program at the last minute.
    In June, Ambassador Raspolic and Gabon's Minister of 
Interior signed an agreement in which the Embassy will provide 
African election monitors under a Democracy and Human Rights 
Fund project valued at $87,000. The Embassy is currently in the 
process of selecting the Francophone African NGO who will 
manage the project. The Embassy is also in contact with other 
donors (Canada, France, Japan, EU, and UNDP) to explore ways to 
coordinate electoral assistance.
    As Embassy and other Department officials have been doing, 
the U.S. can continue to support Gabonese civil society by 
sending carefully selected leaders to the U.S. under the 
International Visitor Program or other training programs to 
expose them to American democratic institutions and processes. 
Projects funded by the Democracy and Human Rights Fund will 
also advance our goals in this area. Moreover, while the Peace 
Corps' goal is not primarily to support democracy, its Women In 
Democracy program does offer support. We can also support 
Gabonese civil society by continuing to exhort its leaders at 
every opportunity to strive for transparency and fairness in 
the electoral process, as well as to open up the Gabonese 
economy and spread economic benefits more broadly among the 
Gabonese people.
    Question 2. The State Department's most recent Human Rights 
Report for Gabon said that ``the government of Gabon generally 
respected the rights of its citizens in many areas; however, 
longstanding human rights abuses continued.'' What is your 
assessment of the human rights situation in Gabon?
    Answer. Gabon compares favorably to many of its neighbors 
in sub-Saharan Africa on human rights. Gabon enjoys freedom of 
speech and religion. Its constitution prohibits torture or 
cruel and inhuman punishment and it is not a conscious policy 
of the government to employ such practices. Nevertheless there 
are abuses by security forces: they mistreat prisoners and 
detainees either as punishment or to extract confessions. Also, 
prison conditions are abysmal. There is deep-seated societal 
discrimination against women and a tolerance of violence 
against them. Expatriate children are exploited as domestic and 
agricultural workers.
    Question 3. If confirmed, you will be accredited to two 
countries. How will you divide your time between Gabon on the 
one hand and Sac Tome and Principe on the other? Do you have 
any concern that Sac Tome, which seems to have the greater 
economic problems, might be neglected under the dual 
accreditation arrangement?
    Answer. Officers from the Embassy in Libreville frequently 
visit Sac Tome and Principe (STP) , traveling there on the 
average of once every five to six weeks. Stays are generally of 
4-7 days in duration. Given STP's very small size, both in size 
and population, we have found that this allows us to adequately 
report on developments in the island nation and to sufficiently 
engage its leaders and represent our interests there.
    Question 4. The U.S. Agency for International Development 
does not have a development assistance program in Sao Tome and 
Principe. In your view, should there be an assistance program? 
Please explain.
    Answer. Sao Tome and Principe (STP) is exceptionally poor 
and underdeveloped. In an ideal world, we would want to provide 
assistance to all such countries. However, under criteria used 
by USAID to determine which countries are most important to the 
U.S. and offer the highest potential for success, we are unable 
to provide aid to many countries which need it. USAID once did 
provide assistance to STP but, due to budget cuts, can no 
longer.

                              ----------                              


                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate Joseph H. Melrose, Jr., testified, 
additional questions were submitted for the record. Please find 
enclosed the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Response of Ambassador-Designate Joseph H. Melrose, Jr., to Question 
                         Asked by Senator Helms
    Question. Are there indications that the government of Liberia is 
supporting the RUF forces in Sierra Leone?
    Answer. Although there have been allegations of Liberian Support 
for the Revolutionary United Front (RUF), we have no proof that such 
support is being given. We nevertheless have ra8ised this issue 
directly with President Taylor, who has categorically denied any 
official Government of Liberia su9pport for the rebel forces. President 
Taylor and President Kabbah together met earlier this month in Abuja 
with the UN Secretary-General and Nigerian head of State Abubakar. They 
met again in Monrovia on July 20 in the presence of U.S. Special Envoy 
Jesse Jackson.
    President Taylor agreed to make a public statement condemning the 
atrocities and continued fighting in Sierra Leone. he and President 
Kabbah reaffirmed their commitment of non-aggression, and agreed to 
work to halt the flow of arms into Sierra leone in contravention of UN 
sanctions. Also, President Taylor agreed to the placement of ECOMOG and 
international observers along the border to monitor cross-border arms 
flows.

                               __________

 Responses of Ambassador-Designate Joseph H. Melrose, Jr. to Questions 
              Asked by Senator Helms and Senator Ashcroft
    Question 1. Sierra Leone came to independence in 1961 with a rich 
resource endowment and a strong civil society, including many well-
educated civil servants, teachers, and church leaders. How did this 
country sink into the state of lawlessness and violence, including 
horrible incidents of brutality against civilians, seen in recent 
years? To what degree, if any, was tribalism a factor? What lessons 
does Sierra Leone teach about the role of militaries in African 
politics? How high are the risks of another coup?
    Answer. After its independence in 1961, Sierra Leone was left in a 
state of political confusion due to the inexperience of the country's 
new political institutions and leaders. After his death, the first 
Prime Minister, Sir Milton Margai, was followed by his younger brother 
after his death in 1964. The government under Albert Margai fostered 
corruption and moved toward a one-party state. In a flawed election in 
1967, Albert Margai and Siaka Stevens faced off. After a short period 
of great political conflict, Margai was deposed by a military coup. In 
1968, a countercoup by a warrant officer brought Stevens to power. He 
then ruled for seventeen years in an increasingly corrupt government. 
In 1985 Stevens handed power to the military Force Commander, Major 
General Joseph Saidu Momoh, a move which garnered public support. This 
enthusiasm was misplaced, and faded as Momoh perpetuated the corrupt 
regime. In 1990 Momoh attempted to introduce multi-party democracy. 
Most of the parties that appeared, however, were led by corrupt former 
Ministers attempting to maintain their wealth.
    The planned 1992 elections never came to fruition. Momoh had become 
involved in ECOMOG efforts to intervene in Liberia's civil war. In 
retaliation, Liberian faction leader Charles Taylor supported an 
insurgency by the Revolutionary United Front (RUF) against the 
Government of Sierra Leone. Momoh was forced to recruit untrained, 
unsupported troops quickly to combat the Liberian rebels. In April 
1992, young military officers overthrew the Momoh regime and installed 
Captain Valentine Strasser as the Chairman of the National Provisional 
Ruling Council (PRC). Once again, the new government fell short of 
Sierra Leoneans' expectations. The NPRC rule turned into anarchy as 
young soldiers turned to looting and pillaging in towns and villages. 
The citizens of Sierra Leone stood up to both the soldiers and 
guerrillas and demanded elections. With election support from the 
international community, Sierra Leone chose in 1996 Ahrned Tejan Kabbah 
as the first democratically-elected civilian president in three 
decades.
    In May of 1997 the army temporarily seized power and invited the 
RUF to join them in a military junta. West African peacekeeping troops 
restored President Kabbah to power in May 1998, but the rebels continue 
to terrorize Sierra Leone. The conflict is not tribally motivated. 
Rather, factions and rebel leaders with nebulous political goals are 
motivated by the desire to control Sierra Leone's tremendous mineral 
and agricultural resources.
    The lesson that this situation carries for the Government reaches 
back to the precedent of Momoh. Without adequate training, logistical 
or medical support, or proper compensation, the military will become 
unstable and wreak havoc on the community it is intended to protect.
    The risk of a coup stemming from within the Sierra Leonean military 
at the present time is slight. The present instability in the country 
does pose security concerns and it is possible that a coup could arise 
from another source. Support for President Kabbah is strong both within 
Sierra Leone and from the international community; and it is unlikely 
that an attempt to seize power would be successful while ECOMOG troops 
are providing security in Freetown.
    Question 2. What contribution, if any, did Executive Outcomes, the 
South African security firm, make toward political stabilization and 
the democratic transition during the Strasser era? In your view, is 
there a legitimate role for such firms when African governments are 
facing security problems, or is it a mistake to turn to them? Was 
President Kabbah correct to agree to dismiss Executive Outcomes in 
1996?
    Answer. Executive Outcomes was critical in providing security and a 
stable political environment so that the democratic transition could 
take place. There may be a need for third party involvement in 
countries without well maintained and disciplined military forces. Such 
intervention can serve to monitor and to train and equip the military 
to ensure their functional and supportive role in governing. Whether 
that third party intervention should come from another nation, an 
international organization, or from a private security firm is a 
decision that must be made on a case-by-case basis depending upon the 
situation. The United States as well as the international community 
supported President Kabbali's decision to dismiss Executive Outcomes in 
1996 in accordance with the Abidjan Peace Accord between the Government 
of Sierra Leone and the RUF.
    Question 3. Press reports indicate that Executive Outcomes and 
other mercenaries have been granted mining concessions in Sierra Leone 
in exchange for their services. Can you confirm this? Are any such 
concessions still active? Are they likely to have positive or negative 
consequences for Sierra Leone's economy?
    Answer. Because the Government did not have access to funds to 
fully compensate the mercenary and security forces that had been hired, 
certain mining concessions were granted in lieu of monetary payments. 
We cannot confirm whether these concessions are still active. Sierra 
Leone's economic growth and prosperity will depend, in part, on the 
rational use of its mineral resources. Hopefully, these resources will 
generate revenues and employment to the benefit of the Government and 
people of Sierra Leone.
    Question 4. What are the principal interests of the United States 
in Sierra Leone? How will you promote these interests? What messages 
will you take to Sierra Leone's leaders with respect to their country's 
relations with the United States?
    Answer. The United States has several important interests in Sierra 
Leone: humanitarian, regional stability, and democracy. We are very 
concerned about the humanitarian crisis and face a compelling moral 
imperative to respond. We also have a strong interest in promoting 
stability in Sierra Leone to encourage an enabling environment for 
democratization, respect for human rights, economic growth and 
development. Finally, the benefits of a stable Sierra Leone are 
tangible in terms of an export market and direct U.S. investment in 
resources, specifically diamonds and rutile.
    We will continue to provide humanitarian assistance and non-lethal 
logistical support to promote our interests. My message to Sierra 
Leonean leaders, if confirmed, will be one of support for their efforts 
to work toward ending the humanitarian crisis, conflict resolution, and 
reconciliation.
    Question 5. Why did Nigeria, a country with a military government, 
decide to take the lead in ousting the AFRC and restoring President 
Kabbab's democratically-elected government in Sierra Leone? What is 
your assessment of the performance of the Nigerian troops? Have they 
been militarily effective? Have they respected the rights of civilians?
    Answer. Nigeria is the driving force behind ECOMOG, the 
peacekeeping arm of the Economic Community of West African States (ECO 
WAS). ECOMOG was instrumental in restoring peace to Liberia and 
returning President Kabbah of Sierra Leone to power. The Nigerians have 
a strong interest in maintaining regional security and stability, which 
are clearly jeopardized by the crisis in Sierra Leone. The majority of 
the ECOMOG troops now in Sierra Leone are Nigerian soldiers. They are 
supported by contingents from Ghana, Guinea, and The Gambia.
    The United States commends the Nigerian-led forces for their 
success and bravery in combating the rebels in Sierra Leone. Their 
efforts have kept the country from descending into total chaos. The 
restraints of ECOMOG's effectiveness lie in limited strength, mobility, 
and logistics. An increase in international support is needed to 
provide ECOMOG with the resources needed to oust the rebel forces.
    Question 6. Now that Nigeria has plunged into a political crisis of 
its own, will its mission in Sierra Leone be weakened? Please explain.
    Answer. The unexpected death of General Sani Abacha brought General 
Abdulsalam Abubakar to power as the Head of State of Nigeria. General 
Abubakar supports ECOMOG and its mission to promote regional stability. 
Nigeria's involvement in Sierra Leone is manifested primarily through 
ECOMOG, and its efforts to bring about peace have remained constant 
throughout the political transition. Abubakar has been a supporter of 
the peacekeeping mission in Sierra Leone before he assumed power, 
serving as the link between the Nigerian military and the ECOMOG Force 
Commander. Abubakar has continued to promote the peace process, and he 
hosted a July 2 meeting between UN Secretary-General Annan, President 
Kabbah, and Liberian President Taylor to promote transparency in Sierra 
Leonean- Liberian relations and cooperation between the two leaders.
    Question 7. Questions have been raised in Britain about the role of 
a security firm, Sandline International, in assisting forces loyal to 
President Kabbah after the 1997 coup, possibly in violation of a United 
Nations embargo on arms shipments to Sierra Leone. Please outline the 
issues and the evidence in this controversy. To what degree, if any, 
was the United States aware of Sandline's activities?
    Answer. Sandline International is a British private security firm 
that provides security for commercial mining and construction interests 
in Sierra Leone. In May of this year, United Kingdom Customs initiated 
an investigation to determine whether or not Sandline had violated the 
UN arms embargo by shipping small arms to BCOMOG and/or the Civilian 
Defense Force, which was providing resistance to the military junta. 
Sandline maintained that Foreign and Commonwealth Office officials gave 
verbal support of their actions.
    Sandline officials were among the few expatriates who remained in 
Sierra Leone after the coup, and their representatives occasionally met 
with working-level State Department officers to discuss events in the 
Sierra Leonean countryside, including the dire humanitarian situation 
and gross human rights abuses by the junta. The Department of State did 
not have advance knowledge of, implicitly or explicitly approve 
Sandline activities in Sierra Leone.
    Question 8. Please describe the assistance being provided by the 
United States to assist Sierra Leone now that the democratically-
elected government of President Kabbah has been restored.
    Answer. The United States is Sierra Leone's largest bilateral 
donor. The most pressing need in Sierra Leone is stability. We have 
provided $3.9 million in non-lethal logistical support to improve 
ECOMOG's operational capability, primarily by providing transportation 
and communications equipment. We are providing over $50 million in 
humanitarian assistance during Fiscal Year 1998. This assistance is 
likely to continue during FY 99 at a similar level. The Assistant 
Secretary for Population, Refugees, and Migration, Julia Taft, recently 
led a mission to Sierra Leone and Guinea. Her Bureau has funded $19.5 
million in relief funds to many humanitarian organizations for Sierra 
Leonean refugees, and continues in its efforts to publicize the crisis. 
USAID's Food For Peace program is providing 49,570 metric tons of food 
assistance, valued at $34.5 million for refugees, internally displaced 
persons, and other vulnerable groups. USAID's Office of Foreign 
Disaster Assistance has provided $6.8 million for emergency relief and 
is funding a helicopter to airlift mutilation victims to medical 
facilities. The Department of Defense has provided urgently needed 
medical supplies.
    Question 9. What is the current security situation in Sierra Leone? 
Where are rebels still active? Are the mining regions now firmly under 
control?
    Answer. The rebels are still active in many parts of Sierra Leone. 
Attacks are heaviest in the north and the east, although RUF and ex-
junta forces are operating in north-western and central parts of the 
country as well. Two dozen RUF fighters, mostly between the ages of 10-
14, were recently captured outside of Freetown foraging for food and 
water. ECOMOG is attempting to secure the mining areas. The majority of 
the mines is in the east of the country, which is the RUF's traditional 
stronghold.
    Question 10. The AFRC/RUF alliance has been widely accused of 
atrocities and other human rights violations during its struggle to 
hold onto power in Sierra Leone. In your view, are these accusations 
justified? What measures are being taken to bring those guilty of 
atrocities to trial?
    Answer. The atrocities committed by the AFRC/RUF have been 
confirmed by UN officials, NGOs, and USG officials. The United States 
and the international community have condemned the actions of the 
rebels. The remnants of the junta continue to murder, maim, and 
mutilate innocent civilians, including children as young as five years 
old. The terrible human rights violations committed in Sierra Leone are 
among the worst on the continent.
    The Department of State urges that those responsible for 
conceiving, planning, and ordering the horrible atrocities committed by 
the rebel forces be brought to justice for their actions. ECOMOG forces 
are doing their utmost to capture the rebel forces so that those 
responsible can be held and tried for their actions under Sierra 
Leonean law.
    Foday Sankoh, the RUF leader who had been in detention in Nigeria, 
was recently released to the custody of the Sierra Leonean Government.
    Question 11. What information do you have on the whereabouts of 
Johnny Paul Koroma, leader of the ousted AFRC? What efforts are 
underway to capture him?
    Answer. Johnny Paul Koroma's whereabouts are not known. There are 
numerous conflicting rumors about his movements. ECOMOG forces continue 
in their efforts to locate and capture RUF and AFRC guerrillas and 
their leadership, including Johnny Paul Koroma.
    Question 12. What is the current humanitarian situation in Sierra 
Leone? Are large numbers of people displaced by the conflict? What 
problems are being faced by refugees from Sierra Leone? How are donors 
of relief and refugee assistance, including the United States, 
responding?
    Answer. Sierra Leone is in the midst of a humanitarian crisis 
because of the ruthless attacks of the former Armed Forces 
Revolutionary Council/Revolutionary United Front (AFRC/RUF) junta. More 
than 300,000 refugees have fled into Guinea or Liberia this year, and 
there are tens of thousands of internally displaced persons. More than 
1,000 mutilation victims have been treated, including women and 
children as young as five years old. Victims have had arms, hands, 
legs, ears, and other body parts amputated. Attackers sometimes pin 
notes to the victims' bodies detailing future targets. The actual 
numbers of victims is suspected to be much higher, as many are presumed 
unable to reach the hospitals for treatment, and their whereabouts and 
conditions remain largely unknown.
    The 230,000-250,000 Sierra Leonean refugees in Guinea join 130,000 
Liberian refugees who have remained there since the end of the civil 
war in Liberia. Resources are scarce in poverty stricken Guinea, and 
the refugees there are already showing signs of malnutrition. Access to 
food is difficult. A lack of sanitation also presents the threat of 
epidemic disease.
    In Sierra Leone itself, the civil war has disrupted the planting 
season and depleted already short supplies of food. The harvest may be 
40 percent less than last year, and displaced persons, particularly 
children are severely malnourished. Some camps in Sierra Leone, 
Liberia, and Guinea are already unreachable due to heavy rains.
    Question 13. In early July 1998, President Ahmed Tejan Kabbah was 
reported to be in Libya with other African Presidents and U.S. Muslim 
leader Louis Farrakhan, to attend special Islamic prayers led by Libyan 
leader Muammar al-Quadhafi. Why did President Kabbah participate in 
these ceremonies? Did his presence in Libya herald the emergence of a 
Libyan alliance with Sierra Leone? To your knowledge, did President 
Kabbah travel to or from Libya by air, in violation of United Nations 
sanctions against Libya?
    Answer. President Kabbah traveled to Libya to appeal to Qadhafi, as 
a fellow Muslim, to end external support for the rebels. His presence 
in Libya did not in any way presage the emergence of a Libyan alliance 
with Sierra Leone. To our knowledge, President Kabbah did not violate 
UN sanctions.
    Question 14. At its June 1998 summit, the OAU voted to ease African 
participation in the United Nations sanctions against Libya. How 
exactly will African participation in the sanctions be modified? How 
did Sierra Leone vote on this issue? Has the United States expressed 
its displeasure to Sierra Leone? Please explain.
    Answer. We are uncertain about how the African participation in the 
UN sanctions will be modified. The international community has 
expressed concern over the issue, as any breach of the terms of the 
sanctions against Libya goes against the authority of the United 
Nations itself. We are unsure how Sierra Leone voted on the issue. The 
United States did not explicitly express its displeasure to the 
Government of Sierra Leone as operations at Embassy Freetown were 
suspended at that time.
    Question 15. According to Reuters, Sierra Leone police raided the 
offices of three newspapers on July 2, 1998, and arrested two editors. 
What were the reasons for this move? What is the overall record of the 
Kabbah government in respecting human rights, including the right to 
free speech?
    Answer. The Sierra Leonean Government's justification for the raid 
on the offices of the three newspapers, is unclear.
    Answer. Overall, the record of the Kabbah Government towards human 
rights has been very good. President Kabbah has made the human rights 
of his people a major priority. In the midst of the current crisis, 
there have been instances of certain violations. The United States has 
frowned upon these infractions and does not condone them in any way.
    Question 16. The United Nations has deployed a small mission to 
Sierra Leone to assist in the peace process. What exactly are the 
functions of this mission? How large is it? How much is it costing? 
What share of the expenses of the mission are being borne by the United 
States?
    Answer. The primary objective of UNOMSIL, the UN Peacekeeping 
Mission to Sierra Leone, is to monitor the disarmament and 
demobilization of former combatants. Disarmament and demobilization 
will begin with those individuals of the AFRC/RUF junta, estimated at 
7,000, who have surrendered. It will also focus on members of local 
civilian militias whose home villages are now secure. ECOMOG troops, 
under UNOMSIL oversight, will be responsible for disarming and 
demobilizing the former combatants The World Bank is developing a 
combination of individual assistance and community-based development 
projects to help the ex-combatants re-integrate into civilian society. 
UNOMSIL will be under the authority of the Secretary-General's Special 
Representative, which has additional responsibilities for advising the 
Government of Sierra Leone on restructuring the police force in 
accordance with international standards for policing democratic 
societies and reporting on violations of international humanitarian law 
and human rights.
    UNOMSIL is authorized up to 70 military observers with supporting 
civilian staff. However, we expect that about 40 military observers 
will be deployed initially, with the remainder deployed only as 
security conditions permit.
    Our Mission in New York worked closely with the UN's Department of 
Peacekeeping to identify cost savings in UNOMSIL's budget. The UN now 
estimates that the operation will cost $15.3 million for its initial 
six-month mandate. This is reduced from the original UN estimates of 
$18.3 million. The United States will provide $3.8 million for UNOMSIL.

                               __________

Responses of Ambassador-Designate Joseph H. Melrose to Questions Asked 
                          by Senator Feingold
    Question 1. The U.S. recently obligated $3.9 million in logistical 
and communications support for ECOMOG in Sierra Leone. How can the U.S. 
ensure that ECOMOG incorporates respect for international humanitarian 
law into its conduct toward civilians and as a component of its 
training of the new Sierra Leonean military?
    Answer. The United States is Sierra Leone's largest bilateral 
donor. The most pressing need in Sierra Leone is stability. We have 
provided $3.9 million in non-lethal logistical support to improve 
ECOMOG's operational capability, primarily by providing transportation 
and communications equipment. We are providing over $50 million in 
humanitarian assistance during Fiscal Year 1998.
    The United States continues to encourage ECOMOG to incorporate 
respect for international humanitarian law into its conduct toward 
civilians. ECOMOG forces have been commended by the United States and 
the international community for their efforts toward restoring peace in 
Sierra Leone. The aim of ECOMOG's troops is to preserve international 
humanitarian law, to protect innocent civilians and to support the 
democratically-elected government of President Kabbah. The United 
States has also strongly encouraged the training of the new Sierra 
Leone military by a third party.
    Question 2. The Liberian-Sierra Leone border is notoriously porous, 
and there have been many reports that the AFRC/RUF forces have been 
getting supplies and assistance from the Liberian side of the border. 
What can the U.S. do to effectively pressure the government of Charles 
Taylor to prevent Liberian territory from being used to assist the 
AFRC/RUF?
    Answer. We have raised the allegations about Liberian support for 
the insurgency directly with President Taylor, who has categorically 
denied any official Government of Liberia support for the rebel forces. 
President Taylor and President Kabban together met earlier this month 
in Abuja with the UN Secretary-General and Nigerian Head of State 
Abubakar. They met again in Monrovia on July 20 in the presence of U.S. 
Special Envoy Jesse Jackson.
    President Taylor agreed to make a public statement condemning the 
atrocities and continued fighting in Sierra Leone. He and President 
Kabbah reaffirmed their commitment of non-aggression, and agreed to 
work to halt the flow of arms into Sierra Leone in contravention of UN 
sanctions. Also, President Taylor agreed to the placement of ECOMOG and 
international observers along the border to monitor cross-border arms 
flows.
    The United States has maintained a steady dialogue with Liberian 
President Taylor on Sierra Leone. We have been in the forefront 
encouraging cooperation between the two Presidents. The meeting in 
Monrovia and the joint communique that was produced are positive proof 
that the United States has taken an active role in preventing the use 
of Liberian forces to support the rebels in Sierra Leone.
    Question 3. Why did Nigeria, a country with a military government, 
decide to take the lead in ousting the AFRC and restoring President 
Kabbah's democratically-elected government in Sierra Leone? What is 
your assessment of the performance of Nigerian troops? Have they been 
militarily effective? Have they represented the rights of civilians?
    Answer. Nigeria is the driving force behind ECOMOG, the 
peacekeeping arm of the Economic Community of West African States 
(ECOWAS). ECOMOG was instrumental in restoring peace to Liberia and 
returning President Kabbah of Sierra Leone to power. The Nigerians have 
a strong interest in maintaining regional security and stability, which 
are clearly jeopardized by the crisis in Sierra Leone. The majority of 
the ECOMOG troops now in Sierra Leone are Nigerian soldiers. They are 
supported by contingents from Ghana, Guinea, and The Gambia.
    The United States commends the Nigerian-led forces for their 
success and bravery in combating the rebels in Sierra Leone. Their 
efforts have kept the country from descending into total chaos. The 
restraints of ECOMOG's effectiveness lie in limited strength, mobility, 
and logistics. An increase in international support is needed to 
provide ECOMOG with the resources needed to oust the rebel forces.
    Question 4. Now that Nigeria has plunged into a political crisis of 
its own, will its mission in Sierra Leone be weakened? Please explain.
    Answer. The unexpected death of General Sani Abacha brought General 
Abdulsalam Abubakar to power as the Head of State of Nigeria. General 
Abubakar supports ECOMOG and its mission to promote regional stability. 
Nigeria's involvement in Sierra Leone is manifested primarily through 
ECOMOG, and its efforts to bring about peace have remained constant 
throughout the political transition. Abubakar was a supporter of the 
peacekeeping mission in Sierra Leone before he assumed power, serving 
as the link between the Nigerian military aid the ECOMOG Force 
Commander. Abubakar has continued to promote the peace process, and he 
hosted a July 2 meeting between UN Secretary-General Annan, President 
Kabbah, and Liberian President Taylor to promote transparency in Sierra 
Leonean-Liberian relations and cooperation between the two leaders.
    Question 5. What are the principal interests of the United States 
in Sierra Leone? How will you promote these interests? What messages 
will you take to Sierra Leone's leaders with respect to their country's 
relations with the U.S.? To what extent is the U.S. pursuing Nigeria-
related goals in Sierra Leone? How do U.S.-Liberian relations fit into 
the picture?
    Answer. The United States has several important interests in Sierra 
Leone: humanitarian, regional stability, and democracy. We are very 
concerned about the humanitarian crisis and face a compelling moral 
imperative to respond. We also have a strong interest in promoting 
stability in Sierra Leone to encourage an enabling environment for 
democratization, respect for human rights, economic growth and 
development. Finally, the benefits of a stable Sierra Leone are 
tangible in terms of an export market and direct U.S. investment in 
resources, specifically diamonds and rutile.
     We will continue to provide humanitarian assistance and non-lethal 
logistical support to promote our interests. My message to Sierra 
Leonean leaders, if confirmed, will be one of support for their efforts 
to work toward ending the humanitarian crisis, conflict-resolution, and 
reconciliation.
    The United States has also continued to pursue aims in Sierra Leone 
through relations with Liberia and Nigeria. The U.S. Government 
commends and supports ECOMOG the regional peacekeeping force that is 
manned, lead, and supported primarily by Nigerians. We have provided 
$3.9 million in non-lethal logistical support to ECOMOG.
    United States and Nigerian interests converge with regard to the 
promotion of peace and stability in Sierra Leone.
    The United States has also encouraged the Government of Liberia to 
support President Kabbah and to use its influence to bring a close to 
the conflict in Sierra Leone. Most recently, Liberian President Taylor 
and President Kabbah met in Monrovia at the request of U.S. Special 
Envoy Jesse Jackson and reaffirmed Liberian support for the 
democratically-elected government in Sierra Leone.
    Question 6. The AFRC/RUF alliance has been widely accused of 
atrocities and other human rights violations during its struggle to 
hold onto power in Sierra Leone? In your view, are these accusations 
justified? What measures are being taken to bring those accused to 
justice? What is your assessment of the judicial system in Sierra 
Leone? What is the U.S. doing to reinforce the Sierra Leonean judiciary 
and the rule of law in the country? How would you envision the embassy 
working to support civil society in Sierra Leone?
    Answer. The atrocities committed by the AFRC/RUF have been 
confirmed by UN officials, NGOs, and USG officials. The United States 
and the international community have condemned the actions of the 
rebels. Nevertheless, the remnants of the junta continue to murder, 
maim, and mutilate innocent civilians, including children as young as 
five years old. The terrible human rights violations committed in 
Sierra Leone are among the worst on the continent.
    The Department of State supports the efforts of the Government of 
Sierra Leone to bring those responsible for conceiving, planning, and 
ordering the horrible atrocities to justice for their actions. ECOMOG 
forces are doing their utmost to capture the rebel forces so that those 
responsible can be held and tried for their actions under Sierra 
Leonean law.
    Foday Sankoh, the RUF leader who had been in detention in Nigeria, 
was recently released to the custody of the Sierra Leonean Government.
    The judicial system in Sierra Leone is severely challenged by the 
current crisis. The majority of Third World countries have judicial 
systems strained by few resources and adequately trained personnel. The 
Sierra Leone judiciary is no exception and the problems are compounded 
by the current crisis. Many judges and lawyers have either fled the 
country or were killed in the coup and ensuing chaos. Those that remain 
staff a system that is extremely short of funds and lacking in even 
basic supplies. Despite the formidable challenges, the Sierra Leonean 
judicial system has made all attempts to ensure that its proceedings 
are fair and unbiased. An appeal has been sent to the British asking 
for judges to aid in trying cases.
    If confirmed, I will work to support civil society in Sierra Leone 
through Embassy self-help projects and USAID-funded activities.
    Question 7. The United Nations has deployed a small observer 
mission in Sierra Leone to assist in the peace process. What exactly 
are the functions of this mission? How large is it, and what share of 
the expenses of the mission are being borne by the United States. How 
can the U.S. ensure that the human rights component of the mission is 
fully integrated into its work?
    Answer. The primary objective of UNOMSIL, the UN Peacekeeping 
Mission to Sierra Leone, is to monitor the disarmament and 
demobilization of former combatants. Disarmament and demobilization 
will begin with those individuals of the AFRC/RUF junta, estimated at 
7,000, who have surrendered. It will also focus on members of local 
civilian militias whose home villages are now secure. ECOMOG troops, 
under UNOMSIL oversight, will be responsible for disarming and 
demobilizing the former combatants. The World Bank is developing a 
combination of individual assistance and community-based development 
projects to help the ex-combatants re-integrate into civilian society. 
UNOMSIL will be under the authority of the Secretary-General's Special 
Representative, which has additional responsibilities for advising the 
Government of Sierra Leone on restructuring the police force in 
accordance with international standards for policing democratic 
societies and reporting on violations of international humanitarian law 
and human rights.
    UNOMSIL is authorized up to 70 military observers with supporting 
civilian staff. However, we expect that about 40 military observers 
will be deployed initially, with the remainder deployed only as 
security conditions permit. The mission in Sierra Leone also provides 
for the international observers to monitor the practices of all parties 
with respect to human rights.
    Answer. Our Mission in New York worked closely with the UN's 
Department of Peacekeeping to identify cost savings in UNOMSIL's 
budget. The UN now estimates that the operation will cost $15.3 million 
for its initial six-month mandate. This is reduced from the original UN 
estimates of $18.3 million. The United States will provide $3.8 million 
for UNOMSIL.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate George Mu testified, additional questions 
were submitted for the record. Please find enclosed the 
responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

Responses of Ambassador-Designate George Mu Questions Asked by Senator 
                       Helms and Senator Ashcroft
    Question 1. Please discuss the place of the late President Felix 
Houphouet-Boigny in the history of Cote d'Ivoire. What were his 
principal contributions? What were his shortcomings?
    Answer. Felix Houphouet-Boigny led Cote d'Ivoire to independence 
from France on December 7, 1960. He largely put into place the state 
institutions which governed Cote d'Ivoire until his death in 1993, 
creating a virtual one-party state with himself at the head. Houphouet-
Boigny is still viewed today as the Father of the state of Cote 
d'Ivoire. Perhaps his greatest contribution was in molding a unified 
state out of numerous diverse ethnic groups, many of which had 
historically been in conflict with one another. In addition, Houphouet-
Boigny kept Cote d'Ivoire firmly oriented towards the West in its 
foreign policy, although he often pursued less than ideal economic 
policies. Houphouet-Boigny can also be credited with establishing the 
framework for a peaceful transition of power upon his death.
    In spite of his historical importance, Houphouet-Boigny had some 
shortcomings. He fell short of developing democratic rule, often acting 
in accordance with the ``l'etat est mois'' school of thought. He 
prevented the development of any political opposition, often 
imprisoning those whose beliefs differed from his own. He failed to 
institute basic freedoms, such as freedom of speech, the press, 
association, and assembly. In the economic arena, Houphouet-Boigny 
allowed the creation of large state owned enterprises, plantations, and 
marketing boards. He used the profits from these enterprises and at 
times money directly from the state budget for large prestigious 
building projects with no apparent development benefits for the 
majority of the population. Houphouet-Boigny also allowed the 
accumulation of a foreign debt well beyond Cote d'Ivoire's means and 
refused to devalue the CFA Franc, long after such action appeared 
critical.
    Question 2. President Houphouet-Boigny was noted for the grand--
some would say grandiose--construction projects he undertook, such as 
the building of the vast Basilica of Our Lady of Peace in his home 
village, Yamoussoukro. Does the current President, Henri Konan Bedie, 
show any tendencies along these lines? Please explain.
    Answer. President Bedie has shown no tendencies along these lines 
and has followed a rather disciplined fiscal policy in accordance with 
IMF and World Bank recommendations.
    Question 3. Alassane Ouattara, the former prime minister and author 
of Cote d'Ivoire's successful economic reforms, was disqualified from 
contesting the 1995 presidential election, which was won by Bedie. What 
were the grounds for his disqualification? In your view, was his 
disqualification justified?
    Answer. Clauses in Cote d'Ivoire's electoral code required that 
presidential candidates' parents be natural born Ivorians. Ouattara's 
mother is believed to have been born in southern Burkina Faso. If this 
is correct, Ouattara's disqualification would be in accordance with 
Ivorian law. However, if confirmed, I would encourage the Ivorian 
government to reexamine this requirement with a view towards allowing 
full participation by all opposition parties in the 2000 presidential 
elections.
    Question 4. Has the Cote d'Ivoire government made any move toward 
disqualifying Ouattara from the election scheduled for 2000? As 
Ambassador, would you advise the Bedie government to refrain from such 
a move. Please explain.
    Answer. On June 30, the Cote d'Ivoire Government passed 
Constitutional revisions codifying the electoral code requirement that 
a presidential candidates' parents both be natural born Ivorians. This 
requirement will likely disqualify Ouattara from the 2000 presidential 
elections. We believe that this provision should be applied 
prospectively, and I would advise the Government to allow for the full 
participation of all opposition parties and candidates. As Ouattara is 
a leading opposition candidate, his inability to participate could 
discredit the 2000 elections and damage Cote d'Ivoire's democratic 
transition.
    Question 5. France has long maintained a small military garrison 
near the Abidjan airport. What contribution has this French presence 
made to political stability in Cote d'Ivoire? The current Socialist 
Party government in France is scaling back on French commitments in 
Africa. What effect is this policy having on the French military role 
in Cote d'Ivoire?
    Answer. The role of France in West Africa has been critical to 
overall political and economic stability, especially in its ex-
colonies. While French military presence in the region, and in Cote 
d'Ivoire specifically, has been an important element in this equation, 
French commercial presence and political influence have been more 
important. The changes underway in France's Africa policy with relation 
to military presence have had no repercussion, thus far, in Cote 
d'Ivoire. We would expect the French garrison to remain at or near 
current strength.
    Question 6. Please outline the political orientations and main 
policy positions of the three major political parties in Cote d'Ivoire: 
Bedie's Democratic Party of Cote d'Ivoure (PDCI); the Ivorian Political 
Front (FPI), headed by Laurent Gbagbo; and the Rally of Republicans 
(RDR), which is loyal to Ouattara.
    Answer. While the FPI is a member of the Socialist International, 
and the PDCI and RDR are more conservative leaning parties, ideology 
and party platforms have not formed the essence of political activity 
in Cote d'Ivoire. Instead, much of the political competition has 
revolved around personalities and regional loyalties.
    Question 7. To what degree does the political party alignment in 
Cote d'Ivoire reflect ethnic, religious, or regional divisions in 
society? In your view, do these divisions threaten the political 
stability of Cote d'Ivoire? How successful has President Bedie been in 
surmounting these divisions and building a sense of national unity?
    Answer. As in most of Africa, ethnic allegiances and religious 
differences do play an important role in the political life of 
CoteQd'Ivoire. The FPI's base is in areas mainly populated by the Bete 
ethnic group, a sub-group of the Krou family. The RDR's best electoral 
showing has been in the north of the country among the Mandingo and 
parts of the area populated by the Senoufou. The PDCI, which has been 
in existence since before independence, is well represented throughout 
the country, but has very strong roots in the Akan ethnic areas. 
Compared to other countries in the region, tribal and religious 
differences are not now factors of instability. President Bedie is 
aware of the potential for instability which tribal and religious 
differences portend. He has tried to bring balance to the composition 
of his Government and to the distribution of resources throughout the 
country, although not to the satisfaction of all concerned. On balance, 
Cote d'Ivoire is one of the most stable and progressive countries in 
the sub-region.
    Question 8. President Bedie refers to Cote d'Ivoire as an ``African 
elephant,'' which he hopes will one day attain rates of growth 
comparable to those once seen in the countries called ``Asian tigers.'' 
Please describe Cote d'Ivoire's economic growth strategy. Does it show 
any of the weaknesses that are now causing so much difficulty for the 
former Asian tigers?
    Answer. Cote d'Ivoire is following an ambitious program of market-
led growth. At present, its growth is primarily fueled by 
privatizations of state owned companies and export of primary commodity 
products. This is complemented by government attempts to attract 
foreign investment in Cote d'Ivoire. In my view, the Asian Tigers' 
primary problem was over-capacity and over-building of the 
manufacturing for export sector and non-transparency in the banking 
sector. Cote d'Ivoire has yet to develop either an export manufacturing 
base or an international banking sector.
    Question 9. Please describe the progress made in Cote d'Ivoire's 
privatization program. What opportunities, if any, has this program 
opened for U.S. investors?
    Answer. By the end of 1997, proceeds from the sales of shares in 
privatized companies reached 240.5 billion Franc CFA with an additional 
17 projects yet to be finalized. On February 4, 1998, the Council of 
Ministers published a list of companies that the Ivorian Government 
plans to privatize by the year 2000. In 1998, there are twenty 
companies scheduled to be privatized including companies in oil 
exploration, production and sales; mining; textiles; agro-industry; 
radio and television; and telecommunications. This program will open 
opportunities for U.S. firms to invest in any or all of these sectors.
    Question 10. What are the best opportunities for U.S. exporters and 
investors in Cote d'Ivoire's expanding economy?
    Answer. U.S. exporters hold comparative advantages in the sale of 
farm equipment, fertilizers, processed foodstuffs, cosmetics, vehicles 
and apparel. Many are already exporting these products to Cote 
d'Ivoire. U.S. investors have found and continue to find opportunities 
in the petroleum, natural gas, telecommunications, power generation, 
and agricultural processing sectors.
    Question 11. French business people have long enjoyed a strong 
advantage in trade and investment in Cote d'Ivoire. How effectively are 
American firms able to compete with the French in Cote d'Ivoire today? 
As Ambassador, how could you help to open opportunities for U.S. 
business?
    Answer. Cote d'Ivoire's business laws continue to be modeled on the 
French and the language of business is decidedly French. Aside from 
these de facto advantages, there are no longer any legal advantages to 
French investors in Cote d'Ivoire. However, a lack of transparency in 
awarding government contracts and an inadequate judicial system 
continue to act in favor of the French. As Ambassador, I will encourage 
the Ivorian government to reform their court system to free it from 
political influence and will stress to them the importance of full 
transparency in business dealings. In addition, I will continue to push 
the Ivorians on market reforms to ensure that a climate favorable to 
U.S. investors is created.
    Question 12. Please describe Cote d'Ivoire's petroleum and natural 
gas sector and assess prospects for increased production in the years 
ahead. What role are U.S. firms playing in developing this sector?
    Answer. Cote d'Ivoire has sufficient petroleum and natural gas 
reserves to meet domestic demand and is able to export limited 
quantities to its neighbors--Ghana, Togo and Benin. With increased 
production likely in the coming years, it will be able to meet 
increased domestic demand and export additional amounts to neighboring 
West African countries. U.S. firms are actively involved in this sector 
both in production and in the provision of equipment and technical 
expertise. It is likely that this involvement will continue to grow.
    Question 13. Cote d'Ivoire has borne a large burden of foreign debt 
for many years. What is the scale of this debt today? On a per capita 
basis, how does Cote d'Ivoire's debt compare with the debt of other 
heavily indebted countries?
    Answer. Cote d'Ivoire currently has a foreign debt of around $19 
billion. On a per capita basis, Cote d'Ivoire is one of the more highly 
indebted countries.
    Question 14. Please discuss the progress that has been made in 
forgiving or rescheduling Cote d'Ivoire's debt. Has Cote d'Ivoire been 
unusually successful in winning debt forgiveness? If so, please explain 
why.
    Answer. Foreign debt has continued to slow Cote d'Ivoire's 
progress. Not until 1998 was agreement reached with the London Club on 
commercial debt payments, suspended since 1987. Under the agreement, 
Cote d'Ivoire will receive debt forgiveness exceeding $4 billion. 1998 
also brought a new agreement with the IMF and the World Bank on a 
three-year program, which should clear the way for Cote d'Ivoire's 
participation in the new Highly Indebted Poor Countries (HIPC) 
initiative. The U.S. continues to pursue bilateral debt forgiveness 
agreements with the Ivorian Government. We will most likely sign an 
additional agreement in the near future. Cote d'Ivoire's debt 
forgiveness has been in line with that of other highly indebted poor 
countries.
    Question 15. Cote d'Ivoire's currency, the CFA franc, has been 
guaranteed by France at a fixed exchange rate with the French Franc. 
Yet France is a founding member of the European Monetary Union (EMU), 
and its Franc will no longer be used when the three-year transition to 
a single European currency, the Euro, is completed in 2002. What steps 
have been taken by the EMU countries to accommodate the needs and 
interests of Cote d'Ivoire and of the other CFA franc users? What 
consequences will the adoption of the Euro have for Cote d'Ivoire?
    Answer. The French have committed themselves to continued support 
of the CFA Franc. The CFA Franc will in the future be tied to the Euro 
with the initial fixed rate determined by the rate at which the French 
Franc is converted to the Euro. The overall impact on Cote d'Ivoire 
will depend on the strength of the new Euro and the strength of the 
West African economies. Overvaluation of the CFA Franc is a concern 
should the Euro prove to be significantly stronger than the French 
Franc. The political will to move towards a devaluation on the part of 
the CFA Franc zone countries, should such become necessary, will 
largely determine the impact of the new Euro.

                               __________

Responses of Ambassador-Designate George Mu Questions Asked by Senator 
                       Helms and Senator Ashcroft
    Question 1. Is Cote d'Ivoire a democracy? Why or why not?
    Answer. Cote d'Ivoire has made important democratic reforms. 
Presidential and legislative elections in 1995 and municipal elections 
in 1996 were judged to be generally free and fair. This means the 
Ivorian Government at all levels was chosen through a democratic 
process. There are still important outstanding issues that need to be 
addressed as Cote d'Ivoire continues its democratic transition. The 
dominance of President Bedie's PDCI party at all levels of public life 
is a concern. Likewise, the opposition's boycott of the 1995 
Presidential elections was unfortunate. The set-up and conduct of the 
2000 Presidential elections will be an important benchmark of the 
country's democratic process. It is therefore distressing that the 
Ivorian Government appears determined to maintain the same laws which 
excluded certain opposition candidates from the 1995 Presidential 
elections by requiring both parents of a candidate to be natural born 
Ivorians. If confirmed, I intend to continue to encourage the Ivorian 
Government to interpret this requirement liberally so as to allow as 
many candidates and parties as possible to participate in the 
presidential election. In short, while Cote d'Ivoire has made important 
progress towards multi-party democracy, it still has many challenges 
ahead.
    Question. 2. Foreign debt remains one of the most vexing problems 
for many African countries. Please discuss the progress that has been 
made in forgiving or rescheduling Cote d'Ivoire's debt. Has Cote 
d'Ivoire been unusually successful in winning debt forgiveness? If so, 
please explain why?
    Answer. Foreign debt has continued to slow Cote d'Ivoire's 
progress. Not until 1998 was agreement reached with the London Club on 
commercial debt payments, suspended since 1987. Under the agreement, 
Cote d'Ivoire will receive debt forgiveness exceeding $4 billion. 1998 
also brought a new agreement with the IMF and the World Bank on a 
three-year program, which should clear the way for Cote d'Ivoire's 
participation in the new Highly Indebted Poor Countries (HIPC) 
initiative. The U.S. continues to pursue bilateral debt forgiveness 
agreements with the Ivorian Government. We will most likely sign an 
additional agreement in the near future. Cote d'Ivoire's debt 
forgiveness has been in line with that of other highly indebted poor 
countries.
    Question 3. What is the status of women in Cote d'Ivoire?
    Answer. Women in Cote d'Ivoire continue to face serious challenges 
in their attempts to gain equal treatment with men. Spousal abuse is a 
continuing problem, and police continue to be reluctant to intervene 
unless pressed to do so by the victim. A social stigma against this 
practice exists, however, and neighbors often intervene to settle 
disputes. Divorces based on spousal abuse are increasingly common and 
socially acceptable. Forced marriage is also an on-going problem, 
although the Government has officially outlawed it and is taking steps 
to end the practice. Female genital mutilation, although illegal, 
continues to occur among certain ethnic groups. The Government has 
undertaken a national campaign to end the practice.
    In the economic arena, Government law and action encourages the 
hiring of women on an equal basis with men. However, there remains 
strong resistance by employers towards hiring women who are seen as 
less dependable due to the possibility of pregnancy. Women are 
underrepresented in many sectors of the economy and are virtually 
absent from the managerial sector. Equal pay for equal work, however, 
is a legal requirement that is effectively enforced. Sexual harassment 
is a problem in the formal sector, and the Ivorian Government has 
outlawed it.
    Women are underrepresented in the political process. Only 14 of the 
169 deputies in the National Assembly are women. Women hold 3 
leadership positions in the National Assembly and 3 of the 29 members 
of the Presidential cabinet are women. In spite of these low numbers, 
there are no legal impediments to women participating fully in 
political life.
    Question 4. I understand USAID recently made the decision to close 
its regional hub in Abidjan. Why was this decision made?
    Answer. USAID's declining budget regrettably made the closure of 
its regional office a necessity. While the office performed important 
regional accounting and program management functions, USAID could no 
longer afford to keep it open. The office's regional accounting and 
oversight functions have been dispersed to other USAID missions in West 
Africa. USAID has taken actions to minimize the negative impacts of 
this closure by reassigning some regional staff to other bilateral aid 
missions.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate Robert C. Felder testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate Robert Felder to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question. 1. Nicephore Soglo, who was president of Benin from 1991 
to 1996, had been hailed by France's President Jacques Chirac as ``the 
artisan of democratic renaissance in Benin.'' During the Soglo 
presidency, the former Marxist military ruler, Mathieu Kerekou, 
reportedly lived in seclusion. How then do you explain Kerekou's 
success in defeating Soglo in the 1996 presidential election? To what 
degree were tribal or regional factors responsible? Were economic 
issues important? Please explain.
    Answer. There is no doubt that Soglo was a key architect of Benin's 
transition to an open democratic society. His role in the 1991 National 
Congress and afterwards as Prime Minister prior to the Presidential 
election helped to create the democratic environment which has allowed 
for two peaceful transfers of power. In spite of his electoral defeat, 
Soglo's role is gratefully and positively remembered in Benin.
    Kerekou's victory in the 1996 elections had more to do with 
charisma than politics. While Soglo throughout his time in government 
remained an aloof intellectual largely removed from Benin's majority, 
Kerekou is seen as a down-to-earth populist. He was able to connect 
with Benin's rural population during the campaign, a skill which eluded 
Soglo.
    In addition, the wave of euphoria which accompanied Soglo's 1991 
election ultimately worked against him in 1996. Benin's democratic and 
economic transition were expected to bring instantaneous results and 
immediate positive changes in the daily life of the population. The 
reality is that expectations were unrealistically high and even the 
most skilled reformer could not have fulfilled them.
    Given the highly controlled state economy which Soglo inherited, 
economic reforms were imperative. Soglo aggressively pursued IMF and 
World Bank reform packages with little concern for politics. These 
packages, which included privatizations of state owned industries, 
removal of price controls, lay-offs of civil service employees and a 
decrease in government expenditures, ultimately have led Benin towards 
economic growth. However, in the short-term these cuts were painful and 
resulted in higher prices, higher unemployment and a decreased 
government social safety net. While Soglo never waivered in carrying 
out these painful reforms, he was never able to adequately explain 
their necessity. By 1996 their benefits were clear; however, the 
earlier pain remained in the electorate's mind and at least in part 
contributed to Soglo's defeat.
    Tribal and regional divisions were of relatively less importance in 
Soglo's electoral defeat. Kerekou clearly enjoyed a dominant position 
in the rural north. However, this seems more to be due to his superior 
ability to connect with the average Beninese than any ethnic or 
regional rivalries.
    Question 2. What is your assessment of Kerekou's performance now 
that he is back in power?
    Answer. Since his election as President in 1996, Kerekou has shown 
himself committed to both economic and political reforms. Kerekou has 
taken no action contrary to the 1990 Constitution and has even 
fulfilled Constitutional requirements, such as the state of the nation 
address, ignored by his predecessor. The Kerekou administration has 
upheld respect for human rights, and in some areas, has made important 
progress. The approval of a new media law led to a vibrant private 
media which is at times highly critical of the Government. Kerekou has 
allowed the opposition to operate freely, has maintained good working 
relationships with them, and has attempted to reconcile with former 
opponents, even bringing some into the government.
    Answer. In the economic arena, Kerekou has maintained free market 
reforms and has been determined to remain on-track with the IMF 
Structural Adjustment Agreement negotiated by his predecessor. He has 
continued the program of privatizing state industries and has taken no 
actions to reinstate price controls. His budgets have followed IMF 
spending guidelines. In many ways, the Kerekou Government has been more 
willing to take responsibility for these sometimes difficult economic 
reforms than its predecessor. Kerekou has fought the unions over 
increased wages and has publicly supported the IMF's program even when 
politically risky.
    Question 3. Kerekou describes himself today as a born-again 
Christian. What effect, if any, are his religious views having on 
policy?
    Answer. Raised a Roman Catholic, Kerekou converted to Protestant 
Evangelical Christianity in the late 1980s or early 1990s. The 
President seems to have adopted wholeheartedly the tenants of his new 
faith, especially as they relate to high moral standards and the 
importance of forgiveness. Since reassuming office, Kerekou's speeches 
have often focused on the call to loftier morals in public life such as 
the need to forgive, to respect human rights and democratic principles, 
and to end corruption. His actions have coincided with these 
statements, and Kerekou appears to be setting his policy based on a 
desire to achieve forgiveness, reconciliation and a continued adherence 
to democratic principles in Benin.
    Question 4. Are you confident that Benin will remain a democracy? 
What concerns do you have, if any, about a possible return to 
authoritarian practices by the Kerekou government?
    Answer. Benin has already undergone two uneventful transfers of 
power in its short democratic history which already argues in favor of 
its continued adherence to democratic principles. The transfer of power 
is on its way to becoming a regularized part of Benin's national life. 
Even so, it is impossible to give absolute assurances that Benin will 
not backslide. It sits in a precarious position surrounded on three 
sides by Nigeria, Togo and Niger, countries which are far from 
democratic models. Benin has a relatively low education level, and its 
citizens still need a better understanding of democratic practices. At 
the same time, however, Benin does have a vibrant civil society which 
engages the government on issues at all levels. Its leadership 
continues to adhere to democratic principles as enshrined in its 
Constitution. Its military remains fully under civilian control. Based 
on these facts, I believe that the picture is a positive one and that 
democracy will continue in Benin.
    Mathieu Kerekou called the 1990 National Conference which created 
the democratic transition plan which ended his absolute hold on power. 
He accepted and implemented the conference's recommendations allowing 
political rival Nicephore Soglo to serve beside him as Prime Minister 
prior to elections. He presided over the 1991 presidential elections 
which were judged as free and fair. He handed over power freely and 
without incident when he lost those elections. Although he enjoyed the 
military's loyalty, he never used it to disrupt the transition process. 
Since being reelected to the presidency, Kerekou has continued to 
adhere to Benin's constitution and has upheld basic human rights, 
including political rights of the opposition. Based on this record, I 
have no evidence on which to assume that Kerekou will return to 
authoritarian practices.
    Question 5. Please comment on the economic reform program 
undertaken by Benin. How has this program contributed to the expansion 
of Benin's economy? Is the economy capable of growth rates that would 
exceed the rate of population by a wider margin? Please explain.
    Answer. Benin has undertaken a major restructuring of its economy 
based on a 1991 structural adjustment agreement with the World Bank and 
the International Monetary Fund. This program has concentrated on the 
privatization of state enterprises, the elimination and reduction of 
controls on commodity trade and prices, and an Investment Code designed 
to attract private investment. These activities were complemented by 
the 1994 CFA Franc devaluation which helped reduce the cost of labor 
and local goods. These factors have combined to create sustained growth 
rates of around 5 percent a year.
    Answer. While these growth rates can clearly be continued, how much 
they can be increased is uncertain. The Beninese economy remains 
largely dependent upon cotton production and cross border trade with 
Nigeria. Both of these activities are largely dependent upon factors 
outside Benjn's control (weather, political stability in Nigeria, 
etc.). At the same time, diversification of the Beninese economy is 
possible. The privatization of state vegetable oil extraction 
facilities should reinvigorate this industry. Benin's off-shore oil 
deposits have only just begun to be exploited. There are possibilities 
for tourism, off-shore fishing, and vegetable processing. If political 
stability and economic reforms continue, these activities should help 
Benin's economic growth rate to exceed the rate of population growth by 
a greater margin. In addition, family planning education programs and 
increased economic development should help decrease the population 
growth rate.
    Question 6. Please discuss economic relations between Benin and 
Nigeria. What influence does Nigeria's vast economy have over Benin's 
economic prospects?
    Answer. Benin has attempted to maintain a positive working 
relationship with Nigeria's successive governments largely because of 
its economic dependence on its large neighbor. A primary source for 
export earnings in Benin is the reexport of goods to the Nigerian 
market. A large section of Benin's GDP is dependent on this transit 
trade. A downturn in Nigeria's economy would have negative effects on 
Benin's overall economic growth. In fact, the poor performance of the 
Nigerian economy has been a factor in keeping Benin's growth rates from 
exceeding their average of 5% per year.
    Question 7. The Administration is requesting $15.6 million in 
Development Assistance (including assistance for Child Survival and 
Disease) for Benin in FY 1999. This represents a slight decrease from 
the estimated $17.1 million in aid in FY 998. What are the reasons for 
this decrease?
    Answer. USAID Benin has estimated that assistance of around $16 
million per year through the year 2003 is appropriate/sufficient to 
meet the development objectives laid down in the areas of education, 
health, and democracy and governance. The Administration's Development 
Assistance request is designed to attempt to provide the mission with 
the necessary resources to carry out this goal while at the same time 
taking into account Congressional desires to decrease foreign 
assistance. The current request, I believe, balances these two goals. 
The slight decrease in funding is in no way indicative of poor 
performance on the part of Benin.
    Question 8. Please discuss the U.S. economic assistance program in 
Benin. What specific program achievements can you point to?
    Answer. The assistance program in Benin focuses on three strategic 
objectives: education, health and democracy and governance. In the 
education sector USAID assistance is designed to facilitate the 
development of a basic education system in Benin that is equitable, 
efficient, effective and sustainable. The primary activity under this 
program has been technical and budgetary support for the Beninese 
government to implement a comprehensive reform of the primary 
educational system. In addition, USAID has provided financing and 
technical assistance for the development of new curricula and teacher 
training programs. It has also provided funding for local NGO's 
concerned about primary education to increase societal involvement in 
the education sector. In coordination with other donors, programs have 
been undertaken to increase girls' enrollment in primary education.
    The education program has had positive results. Both government 
officials and parent associations believe that substantial improvements 
have been made in the educational sector. Specifically, the program has 
strengthened the institutional capacity of the Ministry of Education, 
increased access to education, reduced gender inequality and regional 
disparities, and improved the availability of textbooks, training 
materials and teacher training. Civil society has been increasingly 
involved in the decision-making process in the education sector with 
local NGO's and parent associations providing input in creating the new 
curricula and in overall school management. Most importantly, overall 
primary education enrollment has increased from 50% to 69% since the 
program's inception in 1992 and girls' enrollment has increased from 
32% to 52% in the same time period.
    USAID's programs in the health sector attempt to support efforts to 
increase access to and quality of family health services in the areas 
of family planning, HIV prevention, and child survival. The mission 
works with the Ministry of Health to continue to improve the policy 
environment for family planning and to increase the Ministry's ability 
to effectively implement Benin's population strategy and to increase 
access to family planning information, services, and commodities. 
Included in this strategy is the social marketing of condoms and child 
survival products, as well as continued attempts to build the 
institutional capacity of government agencies and NGO's to provide 
sustainable family planning and HIV prevention services. USAID is also 
working to promote selected child survival practices and services.
    Results from the health program have been positive. Condom 
distribution rose from 355,000 in 1990 to 3,082,000 in 1997. Usage of 
oral rehydration salts in targeted villages has increased on average 
from 10% to 30%. While these results are largely preliminary, as the 
full program has only just begun, they do indicate that the program is 
on the right track.
    Since Benin's adoption of a multi-party democratic system of 
government, USAID has provided material, technical and financial 
assistance in support of the transition to democracy. Specifically, 
USAID provided indelible ink, ballot seals, funding for observers and 
civic education for voters in the 1991 and 1995 legislative elections 
and in the 1991 and 1996 presidential elections. Other activities 
financed by USAID include a national forum on the judicial system; 
seminars, conferences and assessments of the electoral process, 
decentralization, and the role of women in democracy; and institutional 
support and technical training to national audit institutions to 
improve their performance in the management of public finance. In 
addition, USAID has worked with local NGO's to reinforce their 
financial and managerial capacity and improve their advocacy skills.
    The best testament to the success of this program has been Benin's 
free and fair presidential and legislative elections and the peaceful 
transfers of power which accompanied them. In addition, the vibrant and 
active civil society in Benin is indicative of the success of our NGO 
assistance.
    Question 9. How have the Benin government and people reacted to the 
unexpected death of Sani Abacha, the Nigerian military ruler? What 
consequences would an era of political instability in Nigeria have for 
Benin?
    Answer. Benin always attempted to maintain a positive relationship 
with the Abacha military government owing to its common border and 
economic ties with Nigeria. Both the government and the people were 
shocked by his death. President Kerekou considers Abacha's death as the 
loss of a personal friend, in spite of their differing political views. 
While the Beninese government was concerned about the effects of 
Abacha's death on Nigerian stability, they remain cautiously 
optimistic. President Kerekou believes Gen. Abubakar is sincere and 
wishes to return Nigeria to civilian rule, and he believes Abubakar can 
maintain Nigeria's fragile stability.
    Should Nigeria experience political turmoil, it would negatively 
impact Benin. Likely refugee flows would be more than this small 
country would be able to absorb. In addition, given its economic ties 
with Nigeria, any political instability would decrease Benin's 
potential economic expansion. It is also conceivable that political 
destabilization in Nigeria could damage Benin's fragile democracy.
    Question 10. Benin uses the CFA franc, which is linked to the 
French franc at a fixed exchange rate guaranteed by France. Yet France 
is a founding member of the European Monetary Union (EMU), and its 
currency will be replaced by the Euro in 2002, after a 3-year 
transition. What impact will the emergence of the Euro have on Benin?
    Answer. The French have committed themselves to continued support 
of the CFA Franc. The CFA Franc will in the future be tied to the Euro 
with the initial fixed rate determined by the rate at which the French 
Franc is converted to the Euro. The overall impact on Benin will depend 
on the strength of the new Euro and the strength of the West African 
economies. Overvaluation of the CFA Franc is a concern should the Euro 
prove to be significantly stronger than the French Franc. The political 
will to move towards a devaluation on the part of the CFA Franc zone 
countries, should such become necessary, will largely determine the 
impact of the new Euro.
    Question 11. To what degree do investors from France hold an 
advantage over other potential investors in Benin? What opportunities, 
if any, do you see for U.S. business in Benin?
    Answer. Owing to its historical and linguistic ties with Benin, 
French investors enjoy an advantage over others. The Beninese 
commercial code and general business practices are largely modeled 
after the French and the language of commerce is decidedly French. 
Aside from these de facto ties, however, there are no de jure 
advantages for French businesses nor governmental discrimination 
against non-French investors.
    Benin offers opportunities for U.S. investment in several sectors. 
American firms already hold the service contract for Benin's petroleum 
operations and a large hotel. There is potential for American firms to 
sell equipment and provide maintenance services to the Seme oil field 
project. In addition, the privatization of large parastatals including 
insurance companies, the electric company, hotels and the petroleum 
products companies offer potential for investment.
    Question 12. In April 1998, Benin participated in military 
maneuvers known as Operation Kompienga '98 with seven other African 
countries. What were the purposes of these maneuvers? Did they have 
U.S. support?
    Answer. The maneuvers referred to were jointly formulated, set-up 
and directed by the eight African countries involved using their own 
logistics and equipment. The exercise was designed to assist in 
training the armies of the West African subregion in peacekeeping and 
humanitarian assistance operations. The U.S. supports the initiative of 
African countries in carrying out peacekeeping and humanitarian 
assistance activities on their own. Our participation in Operation 
Kompienga '98 was confined to an observer role.
    Question 13. What is the military relationship between the U.S. and 
Benin and what is the rationale for that relationship?
    Answer. The U.S. and Benin enjoy a close military relationship. 
Following Benin's participation in the Haiti peacekeeping operation, 
then Defense Secretary Perry and his Beninese counterpart established a 
Joint Military Commission (JMC). The JMC meets yearly in alternating 
capitals and has been the impetus for increased military ties. Benin in 
1998 received funding for 17 students to take part in IMET training 
designed to increase technical skills and understanding of the 
military's role in a democracy. In 1997, the U.S. and Benin 
participated in three JCET exercises. Two focused on commando and small 
boat training and one dealt with light infantry operations, leadership 
training, medical techniques, officer/NCO development and civil/
military operations. No JCET's are scheduled for 1998 as they will be 
replaced by African Crisis Response Initiative training for which Benin 
will provide a 650-man battalion. A MEDFLAG operation also took place 
in 1997 which established remote health clinics and performed basic 
medical treatment. Benin has received several ship visits over the 
years, the most recent in 1996.
    The reason for this close military relationship is Benin's early 
progress toward establishing a democracy with the military clearly 
under civilian control. It is also a result of Benin's decision to 
become one of the first West African countries involved in peacekeeping 
operations. Today, the relationship is designed to help improve the 
armed forces' morale, to give them a clear mission so as to keep them 
out of politics, and to reinforce democratic principles, respect for 
human rights and the military's appropriate role in a democracy.
    Question 14. On May 8, 1998, Prime Minister Adrien Houngbedji 
resigned from the Kerekou government, later explaining that he did so 
to preserve the hope he claimed his party embodies for ``unity, 
liberty, and democracy.'' In your view, what did the Prime Minister 
mean by this remark? What is Mr. Houngbedji's background?
    Answer. Houngbedji's remark was largely political rhetoric. There 
was no single event which prompted Houngbedji's withdrawal. His primary 
motivation seems to have been dissatisfaction with his lack of 
authority in the Kerekou government, as Benin's constitution does not 
provide for a Prime Minister and the President is both Chief of State 
and Head of Government.
    Houngbedji is a southern Yoruba who earned a doctorate in law in 
Paris in the 1960's. He returned to Cotonou in private practice and 
entered government service as legal advisor to then President Emile 
Zinsou in 1968. In 1975, Houngbedji was arrested for allegedly plotting 
a coup against president Kerekou. He escaped from jail and fled to 
Togo. He lived in exile from 1975 to 1989 primarily in Gabon as an 
attorney for the oil industry. Houngbedji returned to Cotonou in 1989 
to participate in the democratization. He won a seat in the Assembly in 
1990 and placed third in the 1991 presidential elections. Houngbedji 
was a leading opposition figure serving as Assembly President from 1991 
to 1995 and Assembly Speaker from 1995 to 1996. In the first round of 
the 1996 Presidential elections Houngbedji came in third. He entered 
into coalition with Kerekou in the second round and is credited with 
delivering crucial southern support. Houngbedji is a political moderate 
with popular support.
    Question 15. Has a new Prime Minister been appointed? If so, what 
information do you have on his or her background? Please comment on the 
background and policies of the recently-appointed defense minister, 
Pierre Osho, who was an associate of Kerekou during the Marxist-
Leninist era.
    Answer. No new Prime Minister has been appointed, nor is one 
required. The Benin constitution does not call for a Prime Minister, as 
it is a presidential system. The post was created by Kerekou for 
Houngbedji and came without any clear responsibilities which is the 
primary reason for Houngbedji's departure.
    Pierre Osho is a former professor who was pursuing a doctorate in 
history at the time that he left to pursue politics. Osho is one of 
Kerekou's closest allies and advisors having faithfully served with him 
during the dictatorial regime, Soglo's presidency, and since his 
reelection. During theprevious regime Osho was a member of the Central 
Committee of the People's Revolution and a Commissioner of the Republic 
(roughly equivalent to a deputy in the National Assembly). While 
Kerekou was out of power, Osho also largely dropped from public view 
serving as Kerekou's chief of staff. He served as campaign manager for 
Kerekou's successful 1996 presidential bid and is credited with gaining 
the backing of the third and fourth place finishers in the first round 
of voting for Kerekou. Following Kerekous reelection, Osho was 
appointed Foreign Minister. In that post, he attempted to further 
Benin's positive relations with the U.S. In the latest cabinet 
reshuffle, Osho was appointed Defense Minister. Since assuming that 
position, he has continued with programs which reinforce our close 
military relationship with Benin including approval of Benin1s 
participdtion in the African Crisis response Initiative.

                               __________

 Responses of Ambassador-Designate Robert Felder to Questions Asked by 
                            Senator Ashcroft
    Question 1. Do you think Haiti is establishing a political system 
that is credible, transparent and increasingly irreversible?
    Answer. Over the past few years, the Haitian political system has 
been characterized by vigorous, unrestrained debate of public policy 
issues. This is essential to the development of a modern, democratic 
political system. In addition, the Haitian Parliament and its leaders 
have asserted their independence and prerogatives firmly, thereby 
strengthening the separation of powers. However, Haiti's overall 
political development has been problematic: There are those in Haiti 
who have been far more interested in expanding and defending their own 
power than in building a successful political system. The April 1997 
elections were seriously flawed and participation was extremely low. In 
the aftermath of those elections, Haiti has been without a fully 
empowered government for over a year. The governmental crisis must be 
resolved quickly based on negotiations. Elections must be organized 
which are fair and transparent and attract broad participation by 
political parties and voters. Only when this is accomplished, will the 
Haitian democratic system progress toward irreversibility.
    Question 2. Has there been any organized electoral fraud in Haiti, 
and if so, in which elections?
    Answer. I arrived in Haiti in July, 1995, after the June elections. 
I, therefore, do not believe it appropriate for me to characterize 
those elections. My view is that Rene Preval was not seriously 
challenged in the Presidential election which took place in December, 
1995. He won by an overwhelming margin. None of his competitors 
attributed their defeat to fraud.
    With regard to the April, 1997 Parliamentary and local elections, I 
am convinced that these were marred by significant fraud in the vote 
counting phase, between the time the polls closed on April 6 and the 
announcement of the official results. Virtually all observers, foreign 
and domestic, concluded that approximately 5%, and in no case more than 
10%, of voters went to the polls. Yet, the official results declared a 
turnout of over 17%. While I am aware of many allegations that this 
vote fraud was organized, I have not seen proof of those charges.
    Question 3. Mr. Felder, did you have evidence available to you in 
August 1995 that some execution-style killings were politically 
motivated?
    Answer. There was strong reason to believe at that time that the 
Bertin killing was politically motivated. The failed plot involving 
Minister of Interior Beaubrun and the Moise brothers had been 
uncovered. The FBI investigation was pointing towards the involvement 
of one or another group associated with government security services. 
Given the fact that the FBI was not itself certain which of these 
groups (and precisely who within them) actually perpetrated the 
killing, I do not believe the information available to us at the time 
can reasonably be described as ``evidence'' of political motivation for 
execution-style killings.
                             Bertin Murder
    Question 1. During your tenure as DCM in Port au Prince, did 
President Aristide show support for a thorough investigation into the 
Bertin murder? Did you encounter resistance from Aristide to a thorough 
investigation after the murder?
    Answer. Mrs. Bertin was assassinated in March, 1995. I arrived in 
Port an Prince in July, 1995. Most of the conversations between U.S. 
representatives and President Aristide concerning the investigation of 
the Bertin case took place before my arrival. I cannot characterize 
President Aristide's approach in those meetings. During the time I was 
in Port au Prince, President Aristide did not show support for a 
thorough investigation into the Bertin murder.
    Question 2. Did the GOH ever investigate the Bertin murder? What 
evidence do you have that the GOH investigated the Bertin murder?
    Answer. I do not believe that the Government of Haiti has 
undertaken a serious investigation of the Bertin murder.
    Question 3. After the FBI's unsuccessful effort to investigate the 
Bertin murder, was there concern that the reasons for the FBI's 
withdrawal would become public?
    Answer. I believe that there was a concern in Washington about the 
likely political fallout both in Washington and in Port au Prince and 
the impact of that fallout on U.S. interests in Haiti.
    Question 4. By late summer 1995, was it the conclusion of senior 
Administration officials that the GOH could not be relied upon to 
conduct an adequate investigation of the Bertin murder? Is it accurate 
to say you did not have much faith in the ability of the Special 
InvestigativeUnit (SIU) to resolve the Bertin case? What is the state 
of the SIU at present? Has it produced any result on any political 
killing since early 1995?
    Answer. I cannot speak for senior administrative officials. I can 
say that those of us involved in establishing the Special Investigative 
Unit (SIU) were hopeful that the unit would conduct serious 
investigations of the Bertin and other execution-style killings. At a 
minimum, I considered it reasonable to believe that the investigative 
ability and perseverance of the American advisers to the unit might 
lead to one or more breakthroughs.
    As with other components of the Haitian National Police, the SIU is 
composed of individuals with limited investigative experience and 
minimal training. There is no appetite on the part of the Haitian 
leadership to resolve the execution style killings that have taken 
place since the return of former President Aristide to Haiti. 
Nonetheless, the SIU has obtained very important information related to 
a number of killings. The mere existence of the SIU with its American 
advisers has been, in my opinion, a major factor in the absence of 
politically motivated murders in Haiti since August, 1996.
                       Government Security Forces
    Question 1. By what date had it become apparent that security 
officers for the President Security Unit were being selected on a 
political basis? Which officers did Aristide entrust to manage the 
formation of the Presidential Security Unit? Did we have any concerns 
about these men? Were they implicated in the Bertin assassination?
    Answer. The recruitment of security officers for the Presidential 
Security Unit (PSU) took place well before my arrival in Haiti. I 
cannot comment on the basis for their selection or concerns which might 
have existed at the time. I do not believe that members of the PSU (as 
opposed to the National Palace and Presidential Guard) were suspected 
of involvement in the Bertin killing.
    Question 2. When did U.S. officials first start becoming concerned 
about the threat these politicized security units posed to future 
Haitian presidents?
    Answer. When we learned that members of the PSU were implicated in 
the murders of Leroy and Fleurival in August, 1996 and confronted 
President Preval with this information, he expressed concern that PSU 
members had not been selected by him personally and could represent a 
threat to his security should he move against those implicated in this 
killing.
    Question 3. Did any of these security officers have a record of 
political killings or other flagrant crimes before Aristide selected 
them for positions in his security detail? Did he remove these possible 
assassins from his security forces and prosecute them after you brought 
these concerns to his attention?
    Answer. Again, I was not in Haiti when the palace security elements 
were established and unaware of specific selection criteria or vetting 
procedures which were utilized. I am not aware that President Aristide 
removed anyone from his security forces as a result of expressions of 
concern by us. President Preval, however, did so.
    Question 4. Why did President Aristide select officials for his 
security details that had questionable records and reportedly were 
involved in political killings while in government service?
    Answer. I do not know the basis on which President Aristide 
selected members of his security details.
    Question 5. Was there evidence that these so-called hit squads 
operating out of government security forces met regularly to formulate 
strategies for monitoring opponents of President Aristide?
    Answer. These were reports that individuals associated with GOH 
security forces met to monitor the activities of political opponents. 
Individuals believed to have been involved in certain execution style 
killings reportedly participated in some of those meetings.
    Question 6. Of the opponents of Aristide the hit squads were 
monitoring, how many eventually were murdered?
    Answer. I do not know the answer to this question. Subsequent to my 
arrival in Haiti in July, 1995, the only killings of this nature were 
those of General Mayard, (Lavalas) Deputy Feuille and Leroy-Fleurival. 
Since August, 1996, there have been no further execution style killings 
with apparent political motivations.
                        Congressional Oversight
    Question 1. Chairman Gilman stated ``despite some ten hearings and 
briefings before the Committee on Haiti during 1995, the Administration 
failed to inform us until January 1996 that it was aware of these 
death-squads, which began a year earlier.''
    Why was the Congress not informed of these hit squads until January 
1996?
    Answer. I am not aware of any effort on the part of administration 
officials to withhold information from Congress. In my tenure in Haiti, 
the Embassy reported fully all information regarding execution style 
killings which came to its attention.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                     July 29, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the July 23, 1998 nomination hearing at which 
Ambassador-Designate William Swing testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate William Swing to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question 1. How would you rate Kabila's popularity among the 
Congolese people today as compared to May 1997, when he first seized 
power? What explains the contrast?
    Answer. In May 1997, there was broad popular euphoria at the ouster 
of President Mobutu by Kabila's Alliance of Democratic Forces for the 
Liberation of Congo (ADFL). This sentiment appeared to enhance Kabila's 
popularity at the time. His standing has probably diminished somewhat 
since the early days of his administration, although it's difficult to 
know with certainty in the absence of regular and reliable polling. 
Ultimately, the true test of the popularity of Kabila and other 
Congolese political figures will be the results of free and fair 
elections.
    Question 2. What is your own view of Kabila's performance since he 
took office?
    Answer. The Kabila Government's record remains mixed. The 
Government's performance in a number of areas has been disappointing. 
Negative developments have included the extremely serious allegations 
raised in the U.N. investigative report; detention of opposition 
figures; harassment of human rights organizations, the press, and other 
elements of civil society; and the continued ban on political party 
activities. We have repeatedly underscored our concerns about these 
developments through our Embassy, high-level bilateral meetings, and 
telephone calls by the Secretary. We are encouraged, however, by the 
recent release of prominent opposition figure Etienne Tshisekedi from 
internal exile, and hope this will be followed by other positive 
measures to open the political system. We have noted establishment of a 
Constituent and Legislative assembly and have urged the Government to 
ensure that it is broad-based and inclusive. The orderly introduction 
of the new Congo franc beginning July 1 has reinforced public 
perceptions of improved economic improvement by the new Government.
    Question 3. Please identify the major figures in the Kabila 
government and give us your assessment of their capabilities. Are Tutsi 
disproportionately represented in the regime? To what degree are non-
ADFL individuals and groups represented?
    Answer. Major figures in the Kabila government include members of 
the cabinet, senior advisors in the Presidency, and top military 
commanders. The capabilities of these figures vary. For example, the 
Ministers of Health, Justice, and Foreign Affairs, and the Governor of 
the Central Bank are particularly well-regarded. Ethnic Tutsis hold 
only one cabinet portfolio (Foreign Affairs). Although Tutsi forces 
played an important role early in the rebellion, they now represent 
less than five percent of the Congolese military forces. A non-Tutsi 
was appointed interim Chief of Staff of the Armed Forces in July 1998. 
Non-ADFL individuals hold important cabinet portfolios (including the 
Ministries of Mines, Health, and Post and Telecommunications), senior 
advisory positions at the Presidency (including Director of 
Communications), and military commands (including a number of billets 
held by former Zairian Armed Forces Officers who have been integrated 
into the new army).
    Question 4. What information do you have on the possible 
destruction of evidence of atrocities against Hutu refugees during the 
period the United Nations investigation has been delayed?
    Answer. We have seen allegations--including those in the report of 
the UN Secretary General's Investigative Team of destruction of 
evidence of human rights abuses. The allegations have focused on 
reported efforts to conceal or remove mass graves in the vicinity of 
Mbandaka and south of Kisangani. We take these charges very seriously, 
but, based on available information, cannot either confirm or refute 
the reports.
    Question 5. Both Kabila and Paul Kagame, the Rwandan vice president 
and defense minister, have strongly criticized the United Nations and 
others, including the United States, for failing to disarm the Hutu 
militants in Zaire before the rebellion broke out. In your view, could 
the international community have acted more decisively with respect to 
these militants between July 1994 and November 1996, where rebel troops 
broke up the refugee camps? What specifically might have been done?
    Answer. At the time of the massive Rwandan influx into eastern 
Zaire in the summer of 1994, the international community gave priority 
to responding to the immediate humanitarian needs of these people. Over 
the next two years, the controlling presence in the refugee camps of 
Hutu militiamen and officials of the former Rwandan government and 
military impeded the voluntary return of bona fide refugees, added to 
instability in already volatile areas of eastern Zaire, and fueled a 
brutal cross-border insurgency in Rwanda. We and other donors funded a 
camp security force of Zairian military, along with an international 
military liaison group. The camp security force kept day-to-day law and 
order but was not in a position to prevent the cross-border insurgency.
    By the summer of 1996, most international observers--including the 
United States--concluded that the situation was untenable. There was, 
however, no compelling U.S. security interest that could have justified 
putting American or other international forces at risk to separate 
dangerous Hutu militiamen form the camps.
    During 1995 and through the early fall of 1996, the United States 
worked closely with the office of the UN High Commissioner for Refugees 
and other Western and African governments to craft viable alternative 
solutions to the problems posed by the presence of the camps in eastern 
Zaire. These proposed efforts included relocating the camps further 
from the border with Rwanda, restructuring food distribution to reduce 
the militia forces' control, and expanding public affairs and other 
programs to encourage greater voluntary repatriation by refugees. These 
initiatives were overtaken, however, by the ADFL rebellion which began 
in October 1996.
    Question 6. In your view, what are the underlying causes of the 
profound economic and political problems Congo has faced since 
independence in 1960? To what degree should these problems be 
attributed to the Cold War and Congo's colonial legacy? To what degree 
were Zairians themselves responsible?
    Answer. There are many underlying causes of the political and 
economic problems faced by the Congo since independence. Belgium's 
colonial legacy--especially the inadequate education provided the 
Congolese left the new nation ill-prepared for self-governance. Cold 
War competition was intense in this volatile region, where Western 
interests were threatened by an active Soviet, Chinese, and Cuban 
presence. These conditions led Western governments--including the 
United States--to overlook shortcomings in democratic reform and 
economic management of the Mobutu government Even after the end of the 
Cold War and the suspension of U.S. and other Western assistance, 
however, the Mobutu government was characterized by chronic 
mismanagement and corruption. Lack of consensus among the Congolese 
political class on overdue democratic and economic reforms contribute 
to continued problems to the present day.
    Question 7. Please give us your overall assessment of the Mobutu 
era in Zaire. Did Mobutu make a contribution in terms of holding Zaire 
together and damping ethnic tensions? Please discuss the extent of 
corruption during the Mobutu era. What officials were principally 
involved? Where are they living now?
    Answer. Mobutu's legacy is, on balance, negative. His strong rule 
and efforts to inculcate a Zairian national identify helped keep the 
country together in the aftermath of Katangan secession and other rebel 
movements of the early 1960s. Yet, he also fanned the flames of ethnic 
rivalry by, for example, concentrating power in the hands of his own 
Ngbanda group, by abetting the expulsion of Luba-Kasais from Katanga in 
the early 1990s, and by tolerating repression of ethnic Tutsis in the 
Kivus.
    Mobutu's regime was notoriously corrupt. Corruption was pervasive 
at all levels of government. In the course of a thirty-two year regime, 
thousands of officials were involved to a greater or lesser degree. 
Today, many former Mobutu government officials remain in the Congo. 
Others are in exile in Europe or other African countries.
    Question 8. The new government in Congo is attempting to recover 
Mobutu's overseas assets. What was the source of these assets? What 
information do you have on their scale and their location? In your 
view, are the Swiss authorities cooperating adequately with Congo in 
the recovery effort?
    Answer. We do not have details regarding the source, scale, and 
location of Mobutu's assets. We have searched but are not aware of any 
assets in the United States. We understand some assets have been 
identified by the Swiss and Belgian governments. To date; however, the 
new Congolese government has been unable to recover assets due to lack 
of proof that they had been misappropriated. To our knowledge, the 
Swiss have been cooperating fully, according to their laws, with the 
Congolese government in its efforts to recover ill-gotten assets of the 
Mobutu family.
    Question 9. Congo Foreign Minister Bizima Karaha called for a 
``pure and simple'' cancellation of Congo's $14 billion foreign debt, 
arguing that the funds lent to the former Zaire had been diverted for 
foreign bank accounts by the Mobutu regime. What information do you 
have on the truth of this charge? What countries and international 
financial institutions are Congo's principal creditors? in your view, 
should they expect to be repaid for loans made to the Mobutu regime?
    Answer. There are many reasons for the large Congolese foreign debt 
and arrears. Some funds were siphoned off by corrupt officials. Some 
funds were allocated to large infrastructure projects that ultimately 
proved unsustainable. Many loans provided by the multilateral 
development banks were designed to provide budget support; these funds 
are difficult to track. The former Zairian government's accumulation of 
arrears was also a result of the decline in the mid-1970s of 
international prices for the export commodities that had provided much 
of Zaire's foreign exchange earnings.
    The Congo's total foreign debt is approximately $14 billion. We 
believe that most of this is owed to European donors and banks. 
Internatiorial Financial Institutions (including the IMF, World Bank, 
and African Development Bank) are owed approximately $1.2 billion. U.S. 
government agencies (principally Exim Bank) are owed approximately $2.4 
billion.
    The Congolese Government has indicated that it will honor its 
international obligations. The United States is prepared to participate 
in an appropriate debt relief package for the Congo once the government 
establishes a credible economic reform plan in the context of an 
approved IMF-monitored program.
    Question 10. The boundaries' of Congo were drawn by the colonial 
powers more than a century ago, and since that time, Congo has 
repeatedly experienced grave violence and instability. Looking to the 
future, do you believe that Congo can hold together as a territorial 
unit, or do you expect it to break up? Please explain. What interest, 
if any, does the United States have in seeing Congo's territorial 
integrity maintained?
    Answer. The Congo includes at least six distinct regions and 
numerous ethnic groups. A secessionist movement succeeded in 
establishing a separate Katangan government for a brief period in the 
early 1960s. Despite this threat to its unity, the Congo remained as a 
single entity. In the final years of the Mobutu regime, however, 
central authority had virtually collapsed, leaving many regions of the 
country with significant de facto autonomy.
    Crucial to the future of the Congolese state is the constitutional 
reform process currently underway. Given the ethnic and regional 
diversity of the country, some form of decentralized authority is 
likely to be the most effective system of government.
    With borders on nine other countries, the Congo's disintegration 
would have profound consequences for the entire Central African region. 
The United States has an interest in ensuring that any changes in the 
Congo do not lead to instability, cross-border conflict, refugee flows, 
or other humanitarian crises in the area.
    Question 11. Please discuss French-U.S. relations with respect to 
Congo and sub-Saharan Africa generally. What have been the principal 
sources of strain? Do you see the United States as engaged in a contest 
with France for political and economic influence in Africa?
    Answer. The United States and France cooperate in areas of mutual 
interest in Africa. Our two governments maintain a regular dialogue. at 
the highest levels on African issues. French and American analyses and 
policy choices sometimes differ--as they have, on occasion, with 
respect to the Congo. But generally relations are good. Over the past 
year, for example, we worked closely with the French on the 
peacekeeping mission in the Central African Republic and relied on the 
French military forces to evacuate American citizens from Congo-
Brazzaville. Similarly, we helped evacuate French nationals from Sierra 
Leone during this period.
    U.S. policy in Africa is not driven by competition with any other 
government. Rather, our efforts are devoted to promoting American 
interests--political, diplomatic, humanitarian, and economic--in the 
region. We have made it clear that we intend to play a role on the 
continent commensurate with these interests. Africa is not the 
``private hunting ground'' of the former colonial powers, as Secretary 
Christopher noted during his visit to the region in 1996.
    Question 12. What assistance has been provided to Congo since 
Kabila's takeover? What were the purposes of this aid? Please identify 
the obstacles to a more substantial assistance program.
    Answer. In FY 1997, we provided approximately $8 million to the 
Congo. These funds supported establishment of three regional hubs (to 
support local/regional development projects and conflict mitigation 
activities) and sponsored health sector activities in cooperation with 
UNICEF and WHO. The health sector program was a vaccination campaign 
that immunized more than 750,000 children in Kinshasa in early fall 
1997.
    The FY 1998 program is expected to total approximately $30 million. 
This includes:

  <bullet> approximately $10 million to continue the local/regional 
        development activities of the three AID regional hubs;
  <bullet> approximately $11 million for projects in the health, 
        environment, and private sector development fields;
  <bullet> $10 million for the World Bank Trust Fund for the Congo to 
        support health, education, and labor-intensive infrastructure 
        projects, and labor-intensive infrastructure projects;
  <bullet> $500,000 to support constitutional reform, election 
        preparations, and/or judicial reform projects.

    Several obstacles impede a more substantial assistance program. 
Legislative restrictions--including the Brooke and Faircloth 
amendments--make it necessary to obtain Executive Branch waivers in 
order to provide most types of aid. A further obstacle to an increased 
aid program is uncertainty regarding the absorptive capacity of some 
potential aid beneficiaries. Finally, the U.S. government continues to 
monitor progress on democratic and economic reform and respect for 
human rights in determining the structure of our aid program for the 
Congo.
    Question 13. Professor Robert Rotberg of Harvard and others have 
argued against imposing stringent conditions on aid to Congo with 
respect to the UN investigation and democratization. They are concerned 
that excessive conditionality will postpone the massive international 
effort needed for reconstruction in Congo, setting the stage for 
further conflict. What is your reaction to this view? As ambassador, 
what sort of assistance program will you advocate?
    Answer. The United States pursues a policy of cautious engagement 
with the Congolese government. While continuing to monitor government 
performance, we are proceeding with an aid program to promote 
democratic and economic reform and address critical needs of the 
Congolese people (e.g., health care). The United States has been at the 
forefront of efforts to mobilize appropriate donor resources through 
the Friends of the Congo process and World Bank Trust Fund.
    Answer. I strongly support the current U.S. assistance program for 
the Congo. If confirmed, soon after arrival at post, I will assess our 
aid activities and recommend any necessary modifications.
    Question 14. Congo has immense resources in minerals and 
agriculture. To what degree are the strains in relations between the 
United States and the Kabila government inhibiting the ability of U.S. 
firms to participate developing these resources? South African mining 
companies are reported to be active in mineral-rich Katanga province. 
Are you concerned that U.S. firms may be losing opportunities to south 
African competitors? What would you do, as ambassador, to promote U.S. 
investment in Congo, as well as U.S.-Congolese trade?
    Answer. U.S. firms are actively seeking business prospects in the 
Congo, but are appropriately wary about committing funds given 
prevailing political and economic conditions. In March, the Corporate 
Council on Africa organized a Trade and Outreach mission to the Congo 
that attracted some 40 U.S. firms. The mission was well-received in the 
Congo, including by President Kabila.
    South African firms remain active in the region, as they have been 
historically. In at least one case, a South African firm has formed a 
joint venture with a North American firm in which U.S. investors hold 
significant equity. U.S. companies remain competitive in the Congolese 
mining sector, in part due to their technological advantage in some 
areas.
    If confirmed as Ambassador, I would maintain close and direct 
contact with any and all U.S. firms interested in doing business in the 
Congo. And I would relentlessly press the Congolese Government to 
ensure fair treatment of those firms. Protection and promotion of 
legitimate American business interests has always been, and, if 
confirmed, will remain a top priority for me.
    Question 15. Do you expect the Clinton Administration to appoint a 
special envoy for Congo, as has been done in the case of Angola and 
other African trouble spots? Do you favor such an appointment? How 
would the work of a special envoy duplicate or complement your own 
efforts as ambassador?
    Answer. Former Congressman Howard Wolpe serves as Special 
Presidential envoy to the Great Lakes region of Central Africa. In this 
role, he has shared responsibility for regional diplomatic and security 
issues in the Great Lakes states, including parts of eastern Congo.
    Answer. If confirmed by the Senate, I, as the President's personal 
representative, will have overall responsibility for managing U.S. 
relations with the Congo.

                               __________

 Responses of Ambassador-Designate William Swing to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question 1. Since its establishment a year ago, the government of 
President Laurent Kabila has had a pretty poor record in the area of 
basic human rights, ranging from banning all opposition political 
activity to the arrest and harassment of independent journalists, human 
rights activists, and pro-democracy leaders. What is your assessment of 
these actions? To what extent has Kabila fulfilled the promises he made 
when he was first inaugurated?
    Answer. The Kabila Government's record remains mixed. The 
Government's performance in a number of areas has been disappointing. 
Negative developments have included the extremely serious allegations 
raised in the U.N. investigative report; detention of opposition 
figures; harassment of human rights organizations, the press, and other 
elements of civil society; and the continued ban on political party 
activities. We have repeatedly underscored our concerns about these 
developments through our Embassy, high-level bilateral meetings, and 
telephone calls by the Secretary. We are encouraged, however, by the 
recent release of prominent opposition figure Etienne Tshisekedi from 
internal exile, and hope this will be followed by other positive 
measures to open the political system. We have noted establishment of a 
Constituent and Legislative assembly and have urged the Government to 
ensure that it is broad-based and inclusive. The orderly introduction 
of the new Congo franc beginning July 1 has reinforced public 
perceptions of improved economic management by the new Government.
    At his inauguration in May 1997, President Kabila announced a two-
year timetable of constitutional reform leading to elections. The 
initial stages of the constitutional reform calendar have been 
completed: a constitution drafting commission was formed in fall 1997 
and presented a draft text to the President in may. The next stage in 
the process is for the Constituent Assembly to be named. The Government 
announced in June that it was soliciting candidates for the Assembly, 
but they have not yet been appointed. We have underscored through our 
embassy in Kinshasa that this Assembly should be broadly representative 
and participatory, and should operate transparently.
    Question 2. Please comment on the status of the World Bank Trust 
Fund. What commitments have been received from other donors? What 
procedures are in place for disbursement of this fund?
    Answer. World Bank officials are in the final stages of negotiating 
the Trust Fund agreement with the Government of the Congo. The Fund is 
projected to total $100 million over two years. The United States is 
committed to contributing $10 million. Including our pledge, donor 
nations have made commitments of $32 million so far this year.
    The Fund will provide project assistance in the health, education, 
and labor-intensive infrastructure sectors. No cash or salary payments 
will be funded. A donor steering committee that includes the U.S. has 
convened to establish policy and oversee the fund. The Trust Fund will 
be administered by a World Bank unit in Kinshasa working with the 
Congolese Office of the Presidency and Inter Ministerial Economic 
Committee. Expenditures for equipment, supplies, etc. will be monitored 
by a special consultant from an international accounting firm who will 
be resident in Kinshasa.
    Question 3. What is your assessment of the political climate in the 
Congo? What restrictions are currently in place regarding political 
activity?
    Answer. The ban on political party activities remains in effect in 
the Congo. Incidents of harassment of opposition figures, NGOs, and 
journalists have diminished over the past two months, however. A 
vibrant independent press continues to present a range of political 
views to the community. Prominent opposition figure Etienne Tshisekedi 
was released from internal exile July 1 and later gave a public press 
conference. Some of his supporters were subsequently detained briefly.

                               __________

 Responses of Ambassador-Designate William Swing to Questions Asked by 
                   Senator Helms and Senator Ashcroft
    Question 1. Administration officials testifying before the Africa 
Subcommittee in July 1997 stated that President Kabila's government 
would have to demonstrate its commitment to democratic and economic 
reform before U.S. assistance was provided.

  <bullet> Has President Kabila' met any of his self-imposed deadlines 
        for constitutional and electoral reform? Is he continuing to 
        suppress political dissent? Has he effectively blocked the UN 
        investigation into the killings of refugees in 1997?
  <bullet> Why is our government moving forward, then, with a $30.5 
        million aid program to DROC, $10.5 million of which will be 
        contributed through the World Bank development fund for Congo?
  <bullet> One UN official involved in the Congo investigation was 
        quoted as saying ``The U.S. just wanted to get on with its 
        relations with Congo and get this investigation behind it ... 
        the U.S. pushed us to play by Kabila's rules and to accommodate 
        him'' (News Day, July 1, 1998). Do you find such statements 
        troubling? Will the Administration consider supporting another 
        team to investigate the refugee killings or expanding the scope 
        of the Arusha tribunal to cover the killings or expanding the 
        scope of the Arusha tribunal to cover the killings?

    At his inauguration in May 1997, President Kabila announced a two-
year timetable of constitutional reform leading to elections. The 
initial stages of the constitutional reform calendar have been 
completed: a constitution drafting commission was formed in fall 1997 
and presented a draft text to the President in May. The next stage in 
the process is for the Constituent Assembly to be named. The Government 
announced in June that it was soliciting candidates for the Assembly, 
but they have not yet been appointed. We have underscored through our 
embassy in Kinshasa that this Assembly should be broadly representative 
and participatory, and should operate transparently.
    The ban on political party activities remains in effect in the 
Congo. Incidents of harassment of opposition figures, NGOs, and 
journalists have diminished over the past two months. Prominent 
opposition figure Etienne Tshisekedi was released from internal exile 
July 1 and gave a press conference, although some of his supporters 
were subsequently detained briefly.
    The Congolese Government did not fully cooperate with the UN human 
rights team investigating alleged abuses, including massacres, during 
the period 1993-1997. This accounts in part for the shortcomings of the 
UN investigation's results.
    Our assistance program is designed, first and foremost, to help the 
people of the Congo. Ongoing and planned activities emphasize local and 
regional development, conflict mitigation, support for children's 
health, promotional of the private sector, and protection of the 
environment. Our $10 million contribution to the World Bank Trust Fund 
for the Congo supports project assistance in the health, education, and 
labor intensive infrastructure sectors. We have identified $500,000 to 
support democracy/governance activities in the areas of constitutional 
reform, election preparations, and judicial reform.
    The remarks ascribed to a UN official do not accurately describe 
U.S. policy. Our government was at the forefront of efforts to ensure a 
thorough investigation into very serious charges of human rights 
abuses. U.S. Ambassador to the UN Bill Richardson made two trips to the 
Congo to attempt to resolve differences between the Government and the 
UN team that impeded the investigation.
    The Administration supports the position taken by the UN Security 
Council in its July 13 Presidential Statement on the Investigative 
Team's report. The statement calls on the governments of the DROC and 
Rwanda to investigate the serious allegations contained in the UN 
report and to bring those responsible to justice. The governments are 
requested to provide the Council with a report of progress in these 
efforts by October 15. The Council notes its readiness to consider 
additional steps to ensure that those responsible for violations of 
human rights and humanitarian law are brought to justice.
    Question 2. How secure is the Kabila government? Is he effectively 
in control of the country? What are the most important threats to 
stability in the country?
    Answer. Kabila's government has been in power only 14 months. 
Central Africa remains a volatile region, with many potential sources 
of instability. We are not aware, however, of any organized military 
elements that currently pose a significant threat to the new 
government.
    The new government has established at least as much control as the 
predecessor regime, and probably more. Nonetheless, the Congo is a vast 
country with underdeveloped infrastructure and communications. The 
impact of Central Government decisions on individuals at the local or 
village level is minimal, as it has been for years.
    Security threats posed by Rwandan Hutu militiamen in the Kivus tend 
to be localized and do not at this time appear to threaten overall 
stability of the government. The Congolese military includes integrated 
elements of ethnic Tutsi forces, Katangan gendarmes, former Zairian 
Armed Forces, and members of the ADFL. Deterioration in the 
relationship among these elements would be cause for concern and could 
pose a potential threat to stability.

                               __________

 Responses of Ambassador-Designate William Swing to Questions Asked by 
                            Senator Ashcroft
    Question. Ambassador Swing, in commenting on your quotations in the 
Robert Novak article in August 1995, you stated before the House 
International Relations Committee in September 1996: ``What I was 
saying, Congressman, was that based on knowledge we had to date we were 
not in a position to say whether they were politically motivated or if 
they were drug-related or anything else because at that point the FBI 
investigation was not complete...''
    1. By August 1995, had you sent any cables to the State Department 
describing various murders in Haiti, and which ones likely were 
committed for political reasons--thus ruling out other reasons for the 
killings, such as the narcotics trade?
    Answer. I do not recall whether by August 1995 any cables to 
Washington identified some of the murders as likely committed for 
political or other reasons. Some, such as the Bertin assassination, 
seemed more clearly to have a political motive, while others seemed to 
have occurred for other reasons such as settling scores, especially as 
regards former Haitian military or ex-FRAPH leaders. I believe that we 
informed Washington that the UN/OAS International Civilian Mission had 
reported in August 1995 several categories of individuals murdered, to 
wit, former FAd'H military, ex-FRAPH, members of the auto trade, and 
unrelated cases--among the killing over the previous nine months or so.
                             Bertin Murder
    Question 1. Who made the decision not to warn Mrs. Bertin directly 
of the assassination plot against her?
    Answer. Major General George Fisher, Commander of the Multinational 
Force (MNF), made the decision not to warn Mrs. Bertin directly of the 
assassination plot against her. (It was the MNF which first received 
word--through one of its Haitian contract interpreters--of an alleged 
assassination plot against Mrs. Bertin.) After consultation with 
General Fisher, I supported his decision.
    Question 3. In determining whether or not to inform Bertin or 
others of assassination plots against them, was fear of press exposure 
ever discussed as a reason not to inform potential targets?
    Answer. I do not remember that this was an issue at the time.
    Question 4. Do you believe Mrs. Bertin was Informed by the GCH of 
the plot against her? Do you find credible the claims by Bertin's 
family that she was not informed by the GOH?
    Answer. a. Clearly, at the time I believed that the GOH had 
informed Mrs. Bertin of the plot against her. First of all, Aristide 
confirmed to General Fisher in a letter dated March 25, 1995 (and 
Justice Minister Jean-Joseph Exume confirmed verbally) that the GOH had 
informed Mrs. Bertin of the assassination plot. Also, had I not 
believed them, we would have proceeded to inform her directly as it was 
our fall back position to inform her ourselves should the GOH not do so 
itself. In his March 25, 1995, letter, Aristide told General Fisher 
that the Minister of Justice had contacted the person in question to 
advise her of the possible threat so that she could take appropriate 
measures, and that the Minister of Justice would maintain open lines of 
communication with her.
    Earlier, in a March 22 meeting, I believe Aristide told the DCM and 
General Fisher that his government would provide protection to Mrs. 
Bertin. On March 23 or so, Aristide told me and General Fisher that 
Minister of Justice Exume had spoken with Mrs. Bertin and that he, 
Aristide, was prepared to speak with her at the Palace if she so 
wished. Just before that meeting, Exure confirmed to General Fisher 
that he had spoken by phone with Mrs. Bertin, told her of the plot and 
discussed with her whether she might wish to take temporary refuge out 
of Haiti. General Fisher told Aristide that the MNF would ensure that 
the GOH, or failing that the USG, informs Mirielle Bertin of the 
alleged plot against her.
    b. It is my belief that Justice Minister Exume contacted Mrs. 
Bertin about the plot. How detailed, clear or convincing his 
presentation was, I have no way of knowing. It is my recollection that 
Mrs. Bertin's family disputes far more the content of Exume's message 
than that he spoke with her at the time of the plot.
    Question 5. Did you ever report to the State Department that GOH 
obstructions to the FBI investigation were for political cover?
    Answer. While I cannot rule this out, I do not recall using the 
term ``political cover.'' I did inform Washington in August 1995, that 
further progress was unlikely unless the GOH facilitates the 
investigation. I then requested that a senior U.S. Department of 
Justice official brief Aristide on the results to date of the 
investigation and describe to him the risks to his credibility if it is 
perceived that his administration is protecting assassins. I 
recommended that if this then fails, the FBI should leave and the GOH 
be urged to conduct its own investigation.
    Question 6. Was there concern that the reasons for the FBI's 
withdrawal would become public?
    Answer. It is, generally speaking, easier and more effective terms 
of results, if disagreements between two governments can be handled out 
of the glare of the public spotlight. this sense, there was I believe 
some concern about the FBI's departure even though this was not my 
principal consideration. (I sought, until the very moment they 
departed, to keep the FBI in Haiti because I judged that they were at 
the time our best hope of solving the Bertin and other murders given 
the lack of investigative capacity on the part of the new civilian 
Haitian National Police HNP)
    Question 7. Did Minister of the Interior Beaubrun have a U.S. visa 
at the time of the Bertin murder? Has his visa suspended?
    Answer. I do not know whether or not Beaubrun had a U.S. visa at 
the time of the Bertin murder. Certainly, had he had a U.S. visa then, 
we would have canceled it. (My only recollection is that when Beaubrun 
left Haiti after the Bertin killing, he traveled to Germany.)
    Question 8. After the Bertin murder, did the embassy start 
informing potential targets of threats against them if the information 
came from credible sources?
    Answer. Yes. To the best of my knowledge, we received instructions 
from Washington in April 1995, shortly after the Bertin assassination, 
that we should henceforth directly inform potential targets whenever we 
had credible information of threats against them.
    Question 9. Did any sources who told you of threats against 
individuals--sources which you viewed to be credible enough to warn the 
potential target--also inform you of Aristide's links to these groups, 
either Aristide's direct management of the hit squads, GOH provision of 
assistance to the paramilitary groups, or Aristide's attendance at hit 
squad meetings?
    Answer. I do not recall any credible sources who linked Aristide to 
these groups.
                   FBI Investigation of Bertin Murder
    Question 1. Did President Aristide show support for a thorough 
investigation into the Bertin murder? Did you encounter resistance from 
Aristide to a thorough investigation after the murder?
    Answer. When I spoke with Aristide an hour or so after the Bertin 
murder, he immediately accepted with gratitude my offer to seek to get 
an FBI team of investigators to come to Haiti. Over the next months, 
however, President Aristide raised a number of constitutional and legal 
barriers to the FBI's access to witnesses and general ability to 
operate. Partial immunity we sought for the FBI was not granted. At 
several points, we thought we had arrived at an agreement on the issue 
of Haiti's legal requirements that Haitian nationals be provided legal 
counsel when being questioned. Access continued to be a problem. 
Sovereignty issues were also raised. The problems encountered did lead 
the Aristide government, however, to initiate the establishment of its 
own investigative unit, the Special Investigative Unit, which is 
continuing to investigate the Bertin and other murders and shows some 
modest promise.
    Question 2. Did you feel it might take high level pressure from 
Washington to get Aristide to move forward on the investigation? Did 
the GOH investigate the Bertin murder? What evidence do you have that 
the GOH investigated the Bertin murder?
    Answer. Yes. On a number of occasions senior Washington officials 
either met with Aristide in Haiti, phoned or wrote him to urge that he 
support the Bertin Investigation actively.
    In October 1995, a Special Investigative Unit (SIU) was formed 
within the Haitian National Police. The SIU is currently investigating 
the Bertin case and a number of others including those believed to be 
ballistically linked to the Bertin murder, directly or indirectly
    Question 3. A GAO report on the Bertin murder states that ``The 
only evidence that the government of Haiti investigated any aspect of 
the allegations of a plot to assassinate Mrs. Bertin is a letter from 
the Haitian President attesting to such an investigation.'' The GAO 
report goes on to state that the Justice Minister ``said he had no 
knowledge of what inquiries the President actually made'' into the 
Bertin murder. Is the GAO correct in its assessment of any 
investigative efforts by the GQH?
    Answer. I do not know whether Minister of Justice Exume had any 
knowledge of what inquiries the President actually made into the Bertin 
murder or whether the GAO is correct in its assessment of any GOH 
investigative efforts. The Special Investigative Unit (SIU), which is 
an integral part of the Haitian National Police, is currently 
continuing to investigate the Bertin murder.
    Question 4. In reference to the FBI investigation, you stated 
before the House International Relations Committee in September 1996: 
``I recall it was about August 1995 that we were beginning to realize 
that the FBI investigation was not proceeding as we had hoped it 
would...''
    a. Do you stand by that statement, that you first began to realize 
in August 1995 the Government of Haiti had little intention of 
cooperating with the FBI investigation?
    b. When did the embassy first send cables to Washington after the 
Bertin murder indicating the Government of Haiti had little intention 
of cooperating with the FBI?
    c. When did the FBI first signal it was ready to pull out of Haiti 
due to lack of Haitian cooperation?
    Answer. a. In general, yes. It was in August 1995 that I sent a 
cable to inform Washington that further progress in the investigation 
was unlikely unless the GOH facilitated it. asked that a senior U.S. 
Department of Justice official brief Aristide on the results to date 
and describe the threat to his credibility if it was perceived that his 
administration is protecting assassins. I recommended that the FBI 
leave if this approach fails, and that we urge the GOH to conduct its 
own investigation.
    b. Reports we made in June and July 1995 on discussions between FBI 
and DOJ representatives with OH officials, including President 
Aristide, identified a number of areas in which greater GOH cooperation 
was desired. I do not recall if we sent earlier cables on this subject.
    c. The FBI began expressing serious concerns about its ability to 
conduct and complete an effective investigation as early as June and 
July 1995 when Washington and Miami officials met with Haitian 
authorities.
    Question 5. Did the FBI feel that lawyers hired by Aristide were 
obstructing justice by providing alibis to witnesses? How much money 
did the GOH spend to hire lawyers in the United States that obstructed 
the Bertin investigation? Did any of those funds come from U.S. 
assistance provided to the GOH?
    Answer. a. On one or more occasions, visiting FBI officials 
expressed concern that one of the lawyers hired by Aristide was 
providing alibis to persons the FBI was interviewing. (The GOH, for its 
part, objected to what it considered the FBI's improper use of U.S. 
military interpreters.) Lengthy discussions ensued on the issue of 
whether or not witnesses might have a lawyer present to represent them 
during the interviews.
    b. I do not know how much money the GOH spent to hire lawyers in 
the United States. I recall that Aristide had two, or possibly three 
U.S. legal firms on retainer. recall an article in an expatriate 
newspaper once which mentioned the sum of $600,000 annually for one of 
these, a Miami-based firm, but as far as know that amount has not been 
substantiated.
    Answer. c. None of the funds Aristide used to hire U.S. lawyers 
came from U.S. assistance to the GOH.
    Question 6. What rationale did lawyers hired by Aristide give for 
the Bertin murder?
    Answer. I have no knowledge or recollection of any rationale they 
may have offered for the Bertin murder.
    Question 7. Did security officials which answered to Aristide try 
to intimidate witnesses and FBI investigators? Did Aristide ever 
respond to your requests for partial immunity for FBI personnel 
operating in Haiti?
    Answer. I recall that FBI officials mentioned to GOH interlocutors 
their concern that GOH security officials such as members of the 
Interim Public Security Force (IPSF) positioned themselves immediately 
outside the interview room when the FBI was interviewing Haitian 
witnesses.
    Other than the responses received during our discussions, I do not 
recall that we ever received an official definitive response to our 
requests for partial immunity for FBI personnel in Haiti. Partial 
immunity was not granted.
    Question 8. Did the embassy or the FBI investigators obtain ``hit 
lists'' of individuals targeted for harassment or assassination by 
paramilitary groups operating out of President Aristide's palace?
    Answer. Over the years, at various times, hit lists have circulated 
in Haiti, including during the recent de facto period (1991-1993) and 
during much of my time in Haiti (1993-1998). I don't remember whether 
any of these ``hit lists'' specifically referred to paramilitary groups 
operating out of the national palace.
    Question 9. Did the GOH violate mutual understandings with U.S. 
officials concerning FBI access to witnesses in the Bertin case and the 
scope of the investigation? If he had so desired, could President 
Aristide have removed the obstacles to the FBI's investigation? Since 
the FBI ended up withdrawing from Haiti, Aristide did not remove the 
obstacles?
    Answer. I do not recall whether there were mutual understandings on 
FBI access to witnesses in the Bertin case and the scope of the 
investigation. By the summer of 1995, differences in understanding were 
emerging between the FBI and the GOH concerning the conditions which 
the GOH felt the Haiti an constitution and laws called on it to impose.
    In the conversations I recall, Aristide took the position that the 
Haitian constitution and laws required that certain conditions and 
limits be placed on FBI access to witnesses.
    Arlstide did not remove the obstacles.
    Question 10. In any correspondence with you, did Aristide ever 
threaten a public assault on the FBI investigation if the U.S. did not 
start cooperating on Haiti's terms?
    Answer. I recall two letters Aristide wrote to me in the summer of 
1995 on the subject of the FBI investigation, but I do not recall an 
implicit or explicit threat of a public assault on the FBI 
investigation.
    In one of these letters, Aristide underscored his continuing 
insistence that the FBI widen the scope of its investigation to include 
all high-profile assassinations since the coup of 1991. He also 
reminded me that the FBI is subordinate to the Haitian Ministry of 
Justice and must respect Haitian law. A later letter enclosed a letter 
from one of his lawyers which mentioned that the FBI should investigate 
the specific murder cases of Justice Minister Guy Malary, businessman 
Antoine Izmery, and Father Jean Marie Vincent. He also expressed 
concern about the improper use of U.S. military interpreters.
    Question 11. Was Dany Toussaint the head of President Aristide's 
Interim Public Security Force? Was Toussaint the main point of contact 
for the FBI in investigating the Bertin murder? Was he implicated in 
the plot to assassinate Bertin?
    Answer. Dany Toussaint headed the Interim Public Security Force 
(IPSF).
    Dany Toussaint was a point of contact for the FBI in investigating 
the Bertin murder, although I do not recall that he was their main 
point of contact.
    There have been serious allegations that ``hit gangs'' operated out 
of the IPSF's ``Anti-Gang'' unit during the period in which Toussaint 
was IPSF chief and at the time of the Bertin murder. These reports have 
not been fully substantiated, to my knowledge.
    Question 12. By late summer 1995, was it the conclusion of senior 
Administration officials that the GOR could not be relied upon to 
conduct an adequate investigation of the Bertin murder? Is it accurate 
to say you did not have much faith in the ability of the Special 
Investigative Unit (SIU) to resolve the Bertin case? What is the state 
of the SIU at present? Has it produced any result on any political 
killing since early 1995?
    Answer. By the late summer of 1995, no more than the first two 
classes of Haiti's new civilian police force had graduated from four 
months of training. None had more than a few months experience. 
Specialized training, such as investigations had not yet begun.
    In a letter dated October 11, 1995, Justice Minister Exume informed 
us officially of the creation of a Special Investigative Unit (SIU) 
which still had to be trained, equipped and headquartered. Over the 
past three years the SIU has made slow and irregular progress and 
increased its ranks. While no conclusive results are yet available, the 
SIU is actively pursuing a number of cases including that of Mrs. 
Bertin's assassination and those cases ballistically linked to her 
murder.
                            Electoral Fraud
    Question 1. Ambassador Swing, you were quoted in an article by 
Robert Novak on August 10, 1995 that although the June election was 
``seriously flawed with irregularities of a technical and 
administrative nature,'' there is ``no evidence that we have seen of 
organized fraud.'' (WP, August 10, 1995).
    a. Were you accurately quoted in the article? Do you still feel 
that there has been no organized electoral fraud in Haiti?
    b. Did all the major opposition parties charge electoral officials 
appointed by Aristide of managing the election to favor Aristide's 
Lavalas's party?
    c. Jeffrey Hirschberg, a member of the presidential delegation to 
observe the June 1995 elections, wrote to Sandy Berger, then Deputy 
National Security Advisor, states that ``there is credible evidence to 
suggest the election outcomes were managed and that President Aristide 
did not remain neutral through out the process.'' Is Mr. Hirschberg's 
statement incorrect?
    Answer. a. I believe that these quotes accurately reflect my 
assessment of the June 1995 election at the time. The International 
Civilian Mission and other observers have found isolated instances of 
efforts at electoral fraud, such as ballot box stuffing, and we at the 
Embassy have brought every such instance of which we are aware to the 
attention of the Provisional Electoral Council (CEP) , and in some 
instances to the attention of the President. The donors have also made 
numerous formal recommendations to the CE and the Presidency on 
remedial measures to address these irregularities,
    b. It is my recollection that most of the major opposition parties 
accused the CEP of manipulating the 1995 election results to favor the 
OPL (Lavalas) party, but had some difficulty in substantiating their 
claims.
    c. My assessment of the election is more closely reflected in the 
earlier quotes from the Robert Novak article.
    Question 2. After his return to power, did President Aristide ever 
manipulate the electoral council, either in its formation or subsequent 
duties?
    Answer. As far as I am aware, the Provisional Electoral Council 
(CEP) was selected as the constitution prescribes, i.e., three members 
each selected by the three branches of government--Executive, 
Legislative and Judicial.
    As far as I can remember, there were unsubstantiated charges of 
Palace manipulation of electoral officials, especially under the CEP's 
first president, Remy.
    Question 3. After his return to power, did President Aristide ever 
replace the Supreme Court in a manner contrary to Haiti's constitution?
    Answer. I am not aware that President Aristide replaced the Supreme 
Couret in an unconstitutional way.
    Question 4. Ambassador Swing, in early 1995, did President Aristide 
issue by decree a different electoral law than was passed by the 
Haitian parliament?
    I do not recall Aristide's issuing by decree a different electoral 
law than was passed by the Haitian parliament.
    Question 5. Do you think Haiti is establishing a political system 
that is credible, transparent and increasingly irreversible?
    Answer. Haiti is embarked upon a long-term process of building 
stable democratic institutions, a process which is more and more 
becoming irreversible. One of the most important of these is a 
credible, transparent electoral system. On the technical side, there 
has been considerable progress: e.g., many poll workers have been 
trained and now have experience as well. Haiti will continue to require 
financial and technical assistance, however. Despite the disappointing 
pace of judicial reform, the Haitian National Police show much promise 
as do some of the economic reforms such as privatization of the nine 
principal state entities.
                            Gonzalez Murder
    Question. Ambassador Swing, you testified before the House 
International Relations Committee in September 1996: ``There is no case 
that I considered to be more serious than that of the assassination of 
Michel Gonzalez. His widow, as you correctly noted, and his daughter, 
who was present at the time of the assassination, are both American 
citizens.''
    1. Ambassador Swing; do you still view the Gonzalez murder as the 
most serious of the political killings? Why was this case the most 
important? Did it have anything to do with possible direct involvement 
of President Aristide in the killing?
    Answer. My statement about the seriousness of the Michel Gonzalez 
case reflects the importance I attach to my responsibility for the 
protection of the lives and properties of American citizens. We have 
subsequently learned through the FBI investigation of the ballistic 
linkage of the Gonzalez murder to several others, including Bertin, 
thus adding a further element of importance to the Gonzalez case. My 
characterization of the seriousness of the Gonzalez case was unrelated 
to any possible direct involvement of President Aristide.
    Question 2. Did you raise the Gonzalez murder with President 
Aristide? What was his response -- was it adequate? Did Aristide 
demonstrate a genuine commitment to investigate and bring the assassins 
to justice?
    Answer. I raised the Gonzalez murder on a with President Aristide. 
He responded positively to the urgency of solving the Gonzalez case. In 
the end, he did not come to agreement with the FBI on access and other 
areas of cooperation.
    Question 3. Of any security official implicated in the murder of 
Michel Gonzale, how long did they continue to serve in their post and 
were they ever removed or prosecuted?
    Answer. To the best of my knowledge, security officials implicated 
in the Gonzalez murder continued to serve in their post for some months 
after the murder. President Preval did eventually have them removed 
from the Palace security guard once we were able to substantiate to his 
satisfaction that they were involved in the shooting death of Gonzalez. 
As far as I am aware, none of these security officials has yet been 
prosecuted, reflecting among other elements, the inconclusive state of 
the SIU investigation and the sad state of Haiti's courts.
    Question 4. Did the GOH ever conduct an investigation into the 
Gonzalez murder? What evidence do you have of these investigations? Did 
you ever ask the GOH to provide you with a report on the Gonzalez 
murder?
    Answer. The Special Investigative Unit's investigation of the 
Gonzalez murder is active and ongoing. The Embassy, particularly 
through its contract American investigator, maintains regular contact 
with the SIU on the status of the Gonzalez case. Apart from the SIU 
investigation, I am not aware of any other GOH investigation of the 
Gonzalez murder.
                  Government of Haiti Security Forces
    Question 1. By what date had it become apparent that security 
officers for the Presidential Security Unit were being selected on a 
political basis? Which officers did Aristide entrust to manage the 
formation of the Presidential Security Unit? Did we have any concerns 
about these men? Were they implicated in the Bertin assassination?
    Answer. The establishment and training of a Presidential Security 
Unit (PSU) goes back to 1993. Just after the signing of the Governors 
Island agreement on July 3, 1993, and the New York Pact of July 16, 
1993, the Department of State's Bureau of Diplomatic Security began 
training the first group of PSU agents -- a total of about 80, as I 
recall -- at its Virginia facility. Most if not all of these were 
either personally selected or approved, or both, by exiled President 
Aristide. Given his near loss of life in the September 30, 1991, coup, 
I believe it was important to Aristide that his security personnel be 
persons he knew and trusted Following his return to Haiti on October 
15, 1994, until the present time, increasing emphasis and priority have 
been assigned to selection of PSU personnel on the basis of competive 
merit exams.
    When Aristide returned, he placed Palace Security operations in the 
hands of Fourel Celestin and Major Medard Joseph, and the Interim 
Public Security Force under Dany Toussaint -- all three among his 
closest confidants following the coup. We had concerns about all three 
based on their record and involvement in subsequent negative 
developments including possible implication by two of them in the 
Bertin killings.
    Question 2. When did U.S. officials first start becoming concerned 
about the threat these politicized security units posed to future 
Haitian presidents?
    Answer. To the best of my knowledge, we had some concerns as early 
as 1995 as we sought to develop both a civilian, apolitical Haitian 
National Police (HNP) force as well as, similarly professional units at 
the Palace. Our goal of integrating the PSU and NPRG into the HNP 
required that these units be apolitical also and meet similar 
professional standards to those for HNP entry and retention.
    Our concerns were considerably heightened in August 1996 when 
evidence developed that PSU members were present at the scene of the 
murders of opposition MDN political figures Leroy and Fleurival.
    Question 3. Did any of these security officers have a record of 
political killings or other flagrant crimes before Aristide selected 
them for positions in his security detail? Did he remove these possible 
assassins from his security forces and prosecute them after you brought 
these concerns to his attention?
    Answer. As far as I am aware, the original PSU members who were 
selected and trained in Washington were vetted for criminal activity 
only. A number of NPRG guards were former Haitian military, as well. 
Subsequent PSU selectees were given a more thorough vetting, including 
for human rights violations.
    All of those removed from the Palace security forces based on our 
expressions of concern occurred under the Presidency of Preval.
    Question 4. Why did President Aristide select officials for his 
security details that had questionable records and reportedly were 
involved in political killings while in government service?
    Answer. Given his near loss of life during the 1991 coup, 
Aristide's primary consideration in selecting officials for his 
security detail, in my judgment, was likely that of their personal 
loyalty to him.
    Question 5. Was there evidence that these so-called hit squads 
operating out of government security forces met regularly to formulate 
strategies for monitoring opponents of President Aristide?
    Answer. While evidence from the FBI investigation pointed to 
existence of ``hit gangs'' possibly operating out of National Palace 
security units and the Interim Public Security Force's ``Anti-Gang'' 
unit, there was little detail available on any such meetings or 
monitoring strategies, to the best of my recollection.
    Question 6. Of the opponents of Aristide the hit squads were 
monitoring, how many eventually were murdered?
    Answer. I have not seen nor am I aware of any listing of Aristide's 
opponents for monitoring. I, therefore, do not know how many have been 
murdered.
    Question 7. Was there evidence that these hit squads had the 
support of the GOH? Did Aristide or Preval attend any of the meetings 
of these hit squads?
    Answer. It is as yet unclear from the evidence of which I have any 
knowledge that the GOH supported the hit squads, or that Aristide or 
Preval attended any meeting that hit squads might have held.
                   Threat to President Preval's Life
    Question 1. Did you fear President Preval's life would be 
threatened by some members of his security forces if he took steps to 
remove and prosecute those officers implicated in political 
assassinations?
    Answer. I was concerned that the removal of the top leadership, 
including the director, and a number of Palace security agents, might 
introduce an element of confusion which could seriously disrupt normal 
security operations at the Palace. This was an important consideration 
in the decision to augment substantially the number of our own US 
security agents at the Palace.
    Question 2. Was President Preval hesitant to remove and prosecute 
members of his security unit suspected of involvement in the Leroy-
Fleurival murders? Why was he hesitant? Did he fear his life might be 
in jeopardy from his own bodyguards?
    Answer. President Preval expressed an initial hesitancy to remove 
security agents suspected of involvement in the Leroy-Fleurival murders 
for several reasons, based on our talks as I recall them. At first, I 
believe that he was not convinced that they were involved, i.e., 
present at the scene of the murder. He also felt, in this regard, that 
without greater proof his credibility would be on the line with his 
security detail which in itself could result in a security problem for 
him.
    Question 4. Would Preval have dismissed members of his security 
forces without the presence of U.S. security personnel to protect him?
    Answer. It is difficult to know what Preval might have done in that 
hypothetical circumstance. It is my judgment, however, that he would 
have been far less likely to have dismissed members of his security 
forces without the presence of US security personnel
                        Congressional Oversight
    Question. Congressman Benjamin Gilman, stated in September 1996 
that ``despite some ten hearings and briefings before the Committee on 
Haiti during 1995, the Administration failed to inform us until January 
1996 that it was aware of these death-squads, which began a year 
earlier.''
    1. Why was the Congress not informed of these hit squads until 
January 1996?
    I am not aware when the Congress was first informed of hit squads 
in Haiti. To the best of my knowledge, the Administration has made 
every effort to keep the Congress informed on Haiti policy and 
developments.

                               __________

                 United States Department of State,
                                    Washington, D.C. 20520,
                                                   October 2, 1998.

The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.

    Dear Mr. Chairman:

    Following the October 1, 1998 nomination hearing at which 
Ambassador-Designate Joseph G. Sullivan testified, additional 
questions were submitted for the record. Please find enclosed 
the responses to those questions.
    If we can be of further assistance to you, please do not 
hesitate to contact us.
        Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosures: As stated.

 Responses of Ambassador-Designate Joseph Sullivan to Written Questions

    Question 1. Please provide for the Committee all the cable 
traffic between the State Department and the U.S. Embassy in 
Angola, which reference the acquisition of C-130 aircraft or 
Lockheed L-100-30 by Transafrik International or the Government 
of Angola.
    Answer. We are searching our cable traffic system and will 
provide the relevant documents as soon as they are available.
    Question 2. What is the relationship between Transafrik 
International and the Government of Angola? Is Transafrik a 
parastatal organization, or a private organization? Please 
describe all of the air Operations, which Transafrik 
International conducts in Angola. Does Transafrik undertake any 
air operations for the government of Angola or the Angolan 
military?
    Answer. Transafrik International Ltd. is a privately owned 
company incorporated in 1984 in the United Kingdom under the 
name of IMAC. The company is 95 percent owned by three 
individuals, Austrian Erich Franz Koch, Portuguese Joao Carlos 
Barao Rodrigues, and Mozambican-Portuguese Renato Herculano 
Herminlo. The company's 25 employees own the other five 
percent. The company's principal headquarters is in Luanda. The 
company has applied for incorporation of a subsidiary in 
Angola, but the Angolan authorities have not yet approved the 
application.
    Transafrik executives state that the company owns five 727s 
and eight Lockheed L-382s. In addition, Transafrik has a bill 
of sale from Southern Air Transport, dated August 8, 1998, for 
five Lockheed L-100-30s. Five 727s and one L-382 operate in 
Angola (six L-382s work for the World Food Program (WFP) and 
the US Agency for International Development in Kenya and 
Southern Sudan and one is working out of Bahrain for UNSCOM 
relative to Iraq.) All of the Transafrik aircraft are 
registered in Sao Tome. Transafrik operates one Hercules owned 
by the Angolan Diamond parastatal Endiama. This Hercules was 
purchased by Endiama in 1984 and is registered in Angola.
    Transafrik executives state that the company has an 
official policy of providing no air services for the Angolan 
Armed Forces or Defense Ministry and do not fly military 
equipment or troops. Its primary work in Angola is related to 
World Food Program relief flights, support for the United 
Nations Peacekeeping Mission (MONUA) and transport equipment 
for various diamond mining operations, including some work for 
the government parastatal diamond company, Endiama. Transafrik 
states that its aircraft has been leased occasionally by the 
Government of Angola for non-military purposes. For instance, 
they were used for the transport of vehicles for President Dos 
Santos' official visit to the province of Cunene last month and 
by MCNUA and the Ministry of Territorial Administration for the 
transport of materials to support the peaceful extension of 
state administration.
    Question 3. What legal requirements did Southern Air 
Transport have when conducting a transfer of Lockheed L-100-30 
aircraft to Transafrik International? Please list the U.S. laws 
which govern these legal requirements. What legal requirements 
does the United States Government have concerning such a 
transfer? Please list the U.S. laws which govern these legal 
requirements. Is there a requirement for the State Department 
to be notified of such a transfer if it is conducted by any 
other U.S. Government agency? Please list the U.S. law which 
states this requirement.
    Answer. Legal requirements applicable to Southern Air 
Transport's transfer of Lockheed L-100-30 aircraft deal with 
certificates related to airworthiness. The transaction carried 
no requirement to notify a U.S. government agency of the 
transaction or to seek an export license.
    There have been no U.S. export licensing requirements 
applicable to the civilian L-100-30 since 1991, following a 
1990 decision by NATO members to abandon these controls on 
civilian cargo planes were under the purview of the Commerce 
Department. These controls are governed by the Export 
Administration Act. (Export controls for military cargo craft 
were and continue to be the responsibility of the State 
Department.)
    Export airworthiness documents are issued by the Federal 
Aviation Administration (FAA). The FAA also publishes an 
Advisory Circular (AC) 21-2, entitled Export Airworthiness 
Approval Procedures. This document defines other countries 
import requirements for U.S. vendors. This AC does not contain 
specific provisions for Angola. Nevertheless, the Government of 
Angola issued a certificate. noting that Transafrik is 
authorized to operate its existing and future fleet in Angola, 
and also determined that Transafrik was not in contravention of 
UN sanctions against UNITA. At the request of the importing 
country, FAA then issued Export Certificates of Airworthiness 
stating the airworthiness condition of the aircraft for the 
export of the five Lockheed L-100-30s.
    Finally, at the time of the transfer in question, August 
1998, all U.S. persons were required to comply with the 
prohibitions of U.S. economic sanctions against UNITA (Angola). 
The UNITA (Angola) Sanctions Regulations, 31 C.F.R. Part 590, 
and Executive Order 13069 governed U.S. sanctions against UNITA 
(Angola) at the time in question; and these sanctions, which 
were supplemented by Executive Order 13098 on August 18, 1998, 
continue in force. The sanctions against UNITA are administered 
by the U.S. Treasury Department's Office of Foreign Assets 
Control. At the time in question, the U.S. sanctions against 
UNITA prohibited U.S. persons from, among other things, selling 
or supplying arms, related materiel of all types, and any 
aircraft or aircraft components, regardless of origin, to 
UNITA, or to the territory of Angola other than through 
specified pots of entry. For airports, these points of entry 
were and continue to be Luanda and Katumbela in Benguela 
Province. These sanctions also prohibited and continue to 
prohibit U.S. persons from servicing, maintaining, and insuring 
aircraft owned or controlled by UNITA and from providing 
aircraft-related services to certain aircraft registered in or 
flying to or from Angola.
    Question 4. Understanding that there are a number of 
variants of the C-130, what are the basic technical differences 
between the C-130 and the Lockheed L-100-30? Do both aircraft 
have the similar operational capabilities?
    Answer. The basic difference between the Lockheed C-130 and 
the L-100 aircraft is that the former is the military version, 
and the latter is the civilian version. The -30'on either 
aircraft indicates a stretch model that is longer in the 
fuselage than the standard model. The C-130 is designed and 
constructed for military-specific capabilities such as internal 
pallet handling for rapid loading/unloading and air drops of 
cargo; in-flight swing-down cargo door opening for air drops; 
and a paratrooper side door. By design, the L-100 is not 
capable of executing these military functions. It has no roll-
on-roll-off pallet handling system; cannot open the swing-down 
cargo door while in flight; and has no paratrooper door on the 
side for air drop of personnel. Aside from these differences, 
the two aircraft are otherwise similar in engines, avionics, 
range, and payload.
    Question 5. Despite bipartisan congressional opposition, 
Lockheed Martin has been pursuing the opportunity to sell C-130 
aircraft to the Government of Angola. Specifically, the 
aircraft in question are part of an additional transaction with 
a third party. What is the status of these aircraft? Where are 
they located at this time? What is the status of Lockheed 
Martin's attempts to conduct this transaction?
    Answer. In June 1997, a State Department export license was 
issued to Lockheed Martin for use of C-130 technical data in 
their marketing effort for the sale of C-130's to the 
Government of Angola. There was no export license for the sale 
of the aircraft at that time, nor has a license for sale been 
issued since then. Lockheed Martin has a contract with the 
United Kingdom Royal Air Force to replace 26 of their C-130K 
aircraft with new C-130J models. As such, they are in search of 
buyers of the used UK C-130K aircraft internationally, which 
currently remain in the UK inventory. Any such sale would be 
contingent on transfer authorization and export licensing 
approval by the Department of State. Lockheed Martin continues 
to negotiate a contract for sale of the UK aircraft to the 
Government of Angola and expects they may have a contract 
signed in October or November 1998 for seven aircraft with a 
delivery beginning one year later. Upon receipt of a signed 
contract, Lockheed Martin will process the standard requests 
for export licensing with the Department of State. We 
understand that Lockheed Martin representatives briefed SFRC 
Professional Staff about ongoing C-130 sales initiatives to 
Angola on July 23.
    Question 6. What is the current policy in regards to the 
U.S. relationship with the MPLA government in Angola?
    Answer. The United States Government continues to urge both 
the Government of Angola and UNITA to seek a peaceful solution 
to the current impasse in the peace process. Our primary 
objective is to prevent the situation from escalating into 
another full-scale war in Angola. UNITA has failed to comply 
with many of its obligations under the Lusaka Protocol, and its 
resumption of military activity has prompted a military 
response from the Angolan Government. On September 24, we, 
along with fellow Troika observer nations, Russia and Portugal, 
delivered a statement urging both sides to return to the peace 
process. The Troika issued a strongly worded letter to Dr. 
Jonas Savimbi insisting he take immediate steps to comply with 
his Lusaka commitments. He has not responded. Some UNITA 
members of the Government of Angola and the National Assembly 
announced their disagreement with Savimbi's leadership and 
formed UNITARenovada (literally `Renovated UNITA') . We will 
continue to support the UN-led Lusaka process and urge both 
sides to seek a peaceful settlement to the current crisis, 
which we want to prevent from escalating. We also want to 
protect and enhance the interests of the USG as well as U.S. 
private sector investors in Angola, as well as retain our 
ability to promote a negotiated settlement.

                                   <all>
</pre></body></html>
